<html>
<title> - EXAMINING THE DEPARTMENT OF THE INTERIOR'S SPENDING PRIORITIES AND THE PRESIDENT'S FISCAL YEAR 2018 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
EXAMINING THE DEPARTMENT OF THE INTERIOR'S SPENDING PRIORITIES AND THE 
             PRESIDENT'S FISCAL YEAR 2018 BUDGET PROPOSAL

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, June 22, 2017

                               __________

                           Serial No. 115-11

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       
       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
          
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-970 PDF            WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001               
          
          
          
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  Jimmy Panetta, CA
Garret Graves, LA                    A. Donald McEachin, VA
Jody B. Hice, GA                     Anthony G. Brown, MD
Aumua Amata Coleman Radewagen, AS    Wm. Lacy Clay, MO
Darin LaHood, IL
Daniel Webster, FL
David Rouzer, NC
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, June 22, 2017..........................     1

Statement of Members:

    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     5

Statement of Witnesses:

    Zinke, Hon. Ryan, Secretary, U.S. Department of the Interior, 
      Washington, DC, accompanied by Olivia Barton Ferriter, 
      Deputy Assistant Secretary Budget, Finance, Performance and 
      Acquisition; and Denise Flanagan, Director, Office of 
      Budget.....................................................     7
        Prepared statement of....................................     9
        Questions submitted for the record.......................    17
    .............................................................

Additional Materials Submitted for the Record:

    Kurta, A.M., Department of Defense, Office of the Under 
      Secretary, April 26, 2017 Letter to the Hon. Matt Gaetz, 
      House of Representatives...................................   104
    List of documents submitted for the record retained in the 
      Committee's official files.................................   106
    Speer, Robert M., Department of Defense, Acting Secretary of 
      the Army, May 31, 2017 Letter to the Hon. Stevan Pearce, 
      House of Representatives...................................    69
                                     



    OVERSIGHT HEARING ON EXAMINING THE DEPARTMENT OF THE INTERIOR'S 
    SPENDING PRIORITIES AND THE PRESIDENT'S FISCAL YEAR 2018 BUDGET 
                                PROPOSAL

                              ----------                              


                        Thursday, June 22, 2017

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 9:35 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, Young, Gohmert, Lamborn, 
Wittman, McClintock, Pearce, Gosar, Labrador, Tipton, LaMalfa, 
Westerman, Graves, Hice, Radewagen, Bergman, Cheney, Johnson, 
Gonzalez-Colon; Grijalva, Bordallo, Costa, Sablan, Tsongas, 
Huffman, Lowenthal, Beyer, Torres, Gallego, Hanabusa, Barragan, 
Soto, Panetta, McEachin, and Clay.
    The Chairman. All right, the Committee will come to order. 
The Committee on Natural Resources is here. We are happy to 
hear testimony from the Secretary of the Interior that examines 
the Department of the Interior's spending priorities, as well 
as the budget proposals.
    Under Committee Rule 4(f), any oral statements at hearings 
are limited to the Chairman, the Ranking Minority Member, and 
the Vice Chair. This will allow us to hear from our witness 
sooner, and help Members to keep on some kind of schedule, 
because we are on a tight schedule, especially Mr. Zinke.
    Therefore, I am going to ask unanimous consent that all 
other Members' opening statements be made part of the hearing 
record if they are submitted to the Committee Clerk or the 
Subcommittee Clerk by 5:00 p.m. today.
    Without objection, so ordered.
    Let me start.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The Chairman. Let me recognize myself for my original 
opening statement.
    Mr. Zinke, I want to welcome you back here to the 
Committee. It is good to have you back here in this particular 
room. I want to personally thank you at the very beginning for 
being here.
    I also want to thank you for visiting my home state, and 
for doing that. You and your Department have brought 
transparency, more transparency over the past few months than I 
think has happened in the entire 111-year history of the 
Antiquities Act. What you did was a first-of-its-kind, 
inclusive process that actually tried to assess local support 
for monuments. And I want to thank you for conducting that 
review, you did it with aplomb, even if you made fun of what I 
was wearing. I was not going to a golf course, I was 
legitimate.
    You also, I think, are bringing a breath of fresh air to 
the Department. You clearly understand why the Department was 
created and what its core statutory functions are, and how they 
have strayed over the few years. Mismanagement, as I view it, 
of Federal lands did not start recently. It has gone on for 
several decades, long before the Obama administration was 
there. But I have to admit the layers of arbitrary rules and 
regulations over the past 8 years, especially the last 2 years, 
seem to compound the challenges that we have with the 
Department of the Interior.
    So, what I hope to do is be able to have a new relationship 
that is here that will work in concert with you to give you 
whatever kinds of tools are necessary to produce the kinds of 
reforms that you have been talking about in public.
    Over the past few months, you have taken numerous actions 
to re-establish core agency functions and begin addressing 
regulatory excesses. I am very proud of you for doing that. You 
have facilitated a diverse and abundant energy development 
strategy, and made clear your priorities for things like the 
USGS funding increase, offshore development, the 5-year 
planning process, which, I think, shows a commitment to make 
America stronger through energy security. I appreciate you 
doing that.
    I am also appreciative, especially for this Committee, of 
your prioritization of resource needs to address the Park 
Service's massive deferred maintenance backlog. Once again, 
that is something that must take place.
    A component of that strategy does include the transferring 
and exchanging of surplus lands. I want to be clear about this, 
that this does not mean a wholesale transfer of Federal lands. 
There are voices out there who are spreading misinformation, if 
not downright lies, that our goal is to try to sell off all the 
iconic areas and landmarks, when actually nobody is talking 
about that.
    What we are talking about, and clearly understanding, is we 
have to resolve the checkerboard issues of land management, 
isolated and hard-to-manage isolated parcels of land, and 
selected transfers that would maximize local communities. That 
is merely what we were talking about. That is the goal and the 
effort of where we were going.
    I am also encouraged to hear your public statements, 
specifically concerning federally recognized Indian tribes. 
These Native American issues are important. Many people in the 
past have given lip service to tribal self-determination, but 
their actions have consistently fallen very short of the 
rhetoric that is there.
    So, the idea that you have established and desire to 
improve tribal control over tribal lands, rather than 
blockading economic opportunities in Indian Country is 
refreshing, and I appreciate that.
    I also want to thank you for the broader reforms that you 
have talked about, and I want to let you know that this 
Committee is ready to try to do whatever legislation you feel 
is necessary to help you succeed in those kind of broader 
reforms that you wish to do.
    We all realize that there is a $20 trillion deficit that 
all of us have inherited. What you need to do is, with the 
funds that are available, try to leverage the natural resources 
and the responsibilities that go with that, develop the energy 
potential.
    We realize the amount of revenue that has come in has 
deteriorated over the years, but also access to public land has 
deteriorated over the years, as well as the level of service. I 
am grateful that the Department realizes that and is going to 
take positive efforts to try to improve on all three of those 
areas. I hope that what we can do is to build a future together 
with your Department to serve the communities that your 
Department actually serves.

    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources
    Today, we are pleased to have Secretary Zinke here to testify on 
the Administration's budget and broader policy priorities for the 
Department of the Interior.
    Welcome back to the Committee, Mr. Secretary.
    I'd first like to take a quick moment to personally thank you for 
being here and for recently visiting my home state of Utah. Your 
Department has brought more transparency and accountability to National 
Monument designations in the past few months than the rest of the 
Antiquities Act's 111-year history by creating a first-of-its-kind, 
open, and inclusive process to gather public comments and assess local 
support for National Monuments. Thank you for conducting this review.
    After 8 years, it is a breath of fresh air to have someone leading 
the Department who understands the reason why it was created in the 
first place--and just how far its core statutory functions have strayed 
since that time.
    Although mismanagement of our Federal lands and Washington's 
neglect of local, state and tribal communities began long before the 
Obama administration, the layers of arbitrary rules and regulations 
promulgated over the past 8 years have certainly compounded these 
challenges.
    Congress and the executive branch working in concert is the only 
way for us to overcome years of mismanagement at the Interior 
Department and its sub-agencies. As such, I am excited to have you in 
this role, and an Administration committed to reform, so that we can 
finally partner with the executive branch to actually solve problems 
and help improve the Department's accountability to taxpayers.
    In just the first few months of the Secretary's tenure, the 
Department has taken numerous actions to re-establish core agency 
functions and begin addressing regulatory excesses created by the last 
administration.
    The President's 2018 budget reflects a commitment from the Trump 
administration to increase access to Federal lands, reduce burdensome 
regulation, and improve conservation without unduly impacting economic 
development.
    I am also pleased with several clear priorities put forward within 
this request to help facilitate a diverse and abundant energy 
development strategy. From supporting onshore development through 
increased USGS funding in mineral assessments, to offshore development, 
with the re-initiation of the 5-year plan process, you've committed to 
making America stronger through energy security.
    I am also pleased with the Administration's commitment to improve 
management of existing Federal lands and resources rather than growing 
the bureaucracy and siphoning money from productive uses to expand 
Federal land acquisition. This includes prioritizing resources to 
address the Park Service's massive deferred maintenance backlog.
    A component of this strategy must include transferring or 
exchanging surplus lands in and around local communities. To be clear, 
this does not mean a wholesale transfer of our Federal lands. There are 
special interests and voices out there spreading lies who want the 
public to think these efforts amount to selling iconic parks or 
landmarks, when nobody here is talking about that. We--members of both 
political parties--are simply talking about resolving checkerboard land 
issues, removing isolated and hard to manage parcels, and selectively 
transferring certain lands to maximize the benefits of those lands to 
local communities.
    I've been very encouraged to hear your public statements about 
improving self-determination for our First Americans, federally 
recognized Indian tribes. Under previous administrations there's been a 
lot of lip service paid to tribal self-determination, but actions have 
consistently fallen short of the rhetoric. I look forward to working 
with you to actually improve tribal control over tribal lands rather 
than blockading economic opportunities for Indian Country.
    The shared priorities of balancing our budget, improving land 
management and expanding access can't be fully achieved without broader 
reforms. So, in addition to our discussion on budget priorities, I also 
look forward to hearing your thoughts on how this Committee can provide 
the Administration with the tools necessary for it to succeed.
    Amidst a nearly $20 trillion national debt that they inherited, I 
commend President Trump and Secretary Zinke for putting forward a 
responsible and strategic budget to leverage the Nation's natural 
resources and to responsibly explore and develop America's energy 
potential. This Committee is dedicated to working with you, the 
Administration and our colleagues in Congress to build a better future 
for the Department and the communities it serves.
    I yield back.

                                 ______
                                 

    The Chairman. Before I yield to Mr. Grijalva I do want to 
make one formal announcement simply that deals with the decorum 
under the Committee Rules, as well as the Rules of the House.
    And I have to ask, since this is a formal Committee 
hearing, that there not be any disruptions regarding the 
testimony that is going to be given here today. It is important 
to respect the decorum and the rules of the Committee and the 
House, and to allow Members and the public to hear those 
proceedings.
    With that, I am appreciative, and I will yield to the 
Ranking Member, Mr. Grijalva, for his opening statement.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman, and welcome, Mr. 
Secretary. Not too long ago you sat up here with us, and I am 
sure you are full of fond memories of that experience and your 
time with us. Being in the Majority is still more fulfilling, I 
could tell you that, but our side has a role, an important 
role. And we appreciate the opportunity to exercise our 
oversight responsibility today, our shared oversight 
responsibility. So, thank you very much for being here.
    Much of what comes from the Trump White House is not true, 
but the President's 2018 budget tells us the truth. My 
Republican colleagues can run from it or claim this budget is 
DOA, but this is an honest Republican budget. I don't mean the 
math is honest, because it is not. This budget double counts 
non-existent savings from tax cuts as a gimmick to pretend to 
balance. The math in this budget is disingenuous, at best, and 
needs to be treated as such.
    But the budget is an honest reflection of Republican long-
held priorities. If Speaker Ryan brought an Interior 
appropriations bill to the Floor that included a 10 percent 
cut, as this proposal does, House Republicans would pass it.
    It seems that every time we have a Republican in the White 
House, we suddenly hear that the richest nation on earth is 
flat broke, cannot afford these programs any more, and all of a 
sudden the talk is about doing more with less, tightening our 
belts, and making sacrifices. We don't see in this budget oil, 
gas, mining making sacrifices, nor polluters funding cleanups 
in the mess that they create and leave behind.
    The budget reflects the bottomless desire for irresponsible 
drilling and mining on every inch of public land. They even 
insist on doing permanent damage to the Arctic National 
Wildlife Refuge, even when we know it will not help average 
Americans at all.
    The budget reflects Republican's constant attacks on 
science and repeated claims that climate change is fake. OMB 
Director Mulvaney, who was a House Republican until recently, 
told the truth when he said Republicans think spending on 
climate change is a waste of money.
    The budget reflects their endless campaign to sell off 
public lands that the American people love. Years of Republican 
bills and speeches demonizing Federal lands, and Federal 
employees, prove that House Republicans support a budget that 
would close national parks and force layoffs of Federal land 
managers, as well.
    Some of my Republican colleagues claim they support the 
Land and Water Conservation Fund, but for years they have 
allowed false claims about the program to go unchallenged. They 
have voted to undermine the fund, and they even allowed it to 
expire on their watch. Of course, they support a budget that 
slashes LWCF funding by 85 percent.
    This budget reflects the Republican belief that this 
generation of politicians gets to decide which species go 
extinct, and their conviction that extinction is better than 
reasonable limits on drilling or mining.
    The budget guts the Fish and Wildlife Service and makes a 
functioning Endangered Species Act impossible, and that is the 
goal.
    There is no confusion about where Democrats stand. We 
support full funding of the Land and Water Conservation Fund. 
We support the funding levels needed to operate a world-class 
system of national parks, forests, refuges, and public lands. 
We believe our climate is changing and that money spent on 
research, stopping pollution, and mitigation are the most 
important investments we can make. We support Federal spending 
to improve the health of our oceans and fisheries. We support 
funding for programs that pull endangered species back from the 
brink. And, we support investments to make permanent 
improvements in the quality of life in Indian Country.
    The President's misguided and irresponsible budget does 
none of these things. The Trump budget is just standard 
Republican talking points in budget form. The Trump budget is 
the Republican vision for this country, spelled out in dollars 
and cents.
    Democrats have resisted these destructive proposals before, 
and we will do so again.

    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul M. Grijalva, Ranking Member, 
                     Committee on Natural Resources
    Much of what comes from the Trump White House is not true, but the 
President's 2018 budget tells the truth. My Republican colleagues can 
run from it, or claim this budget is ``DOA,'' but this is an honest 
Republican budget.
    I don't mean the math is honest, because it's not. This budget 
double-counts non-existent savings from tax cuts as a gimmick to 
pretend to balance. The math in this budget is a lie.
    But this budget is an honest reflection of House Republicans' long-
held priorities. If Speaker Ryan brought an Interior appropriations 
bill to the Floor that included a 10 percent cut, as this proposal 
does, House Republicans would vote for it.
    This budget reflects their bottomless desire for irresponsible 
drilling and mining on every inch of public land. They even insist on 
doing permanent damage to the Arctic National Wildlife Refuge, even 
when we know it won't help average Americans at all.
    This budget reflects Republican's constant attacks on science and 
repeated claims that climate change is fake. OMB Director Mulvaney--who 
was a House Republican until recently--told the truth when he said 
Republicans think spending on climate change is a waste of money.
    This budget reflects their endless campaign to sell off public 
lands that the American people love. Years of Republican bills and 
speeches demonizing Federal lands--and Federal employees--prove that 
House Republicans support a budget that would close national parks and 
force layoffs of Federal land managers.
    Some of my Republican colleagues claim they support the Land and 
Water Conservation Fund, but for years they have allowed false claims 
about the program to go unchallenged, they have voted to undermine the 
Fund, and they even allowed it to expire on their watch. Of course, 
they support a budget that slashes LWCF funding by 85 percent.
    This budget reflects the Republican belief that this generation of 
politicians gets to decide which species go extinct, and their 
conviction that extinction is better than reasonable limits on drilling 
or mining. A budget that guts the Fish and Wildlife Service, and makes 
a functioning Endangered Species Act impossible, is what they want.
    There is no confusion about where Democrats stand. We support full 
funding for the Land and Water Conservation Fund. We support the 
funding levels needed to operate a world-class system of national 
parks, forests, refuges, and public lands. We believe our climate is 
changing and that money spent on research, stopping pollution, and 
mitigation are the most important investments we can make. We support 
Federal spending to improve the health of our oceans and fisheries. We 
support funding for programs that pull endangered species back from the 
brink. And we support investments to make permanent improvements in the 
quality of life in Indian Country.
    The President's misguided and irresponsible budget does none of 
these things. The Trump budget is just standard Republican talking 
points in budget form. The Trump budget is the Republican vision for 
this country, spelled out in dollars and cents.

    Democrats have resisted these destructive proposals before, and we 
will do so again.

                                 ______
                                 

    Mr. Grijalva. With that, I yield back, Mr. Chairman.
    The Chairman. Thank you. Otherwise, everything is OK, 
right?
    Mr. Grijalva. Yes.
    The Chairman. All right, good. The Vice Chairman has waived 
his right to give an opening statement, so we will go directly 
to Mr. Zinke, if you would.
    Mr. Secretary, thank you for being here. It is the 
Honorable Ryan Zinke, Secretary of the Department of the 
Interior, and you are accompanied by Olivia Barton Ferriter--
did I say that correctly--who is also the Deputy Assistant for 
Budget and Finance within Interior, as well as Denise Flanagan 
from the Director of the Office of Budget in the Interior 
Department.
    We welcome all three of you here. I remind our witnesses, 
obviously, you all know how the 5-minute rule works. Also, the 
microphones are not self-activated, so make sure you turn it on 
before you speak there.

    With that, welcome back, Secretary. It is all yours.

STATEMENT OF THE HON. RYAN ZINKE, SECRETARY, U.S. DEPARTMENT OF 
                  THE INTERIOR, WASHINGTON, DC

    Secretary Zinke. Thank you. I am glad to see the tenor has 
not changed between the Ranking Member and the Chairman. But 
thank you for the opportunity to testify before you today, and 
it is indeed a deep honor to be on this side of the podium.
    I do request permission to submit my entire statement for 
the record.
    So, the budget. This is what a balanced budget looks like. 
It is a starting point. And it is good to have discussions on 
what a balanced budget would look like. Many Members identify 
areas of concern in it, and I completely understand that. But 
you cannot ignore every year Congress goes through and looks at 
raising the debt, and you cannot ignore a budget that is in 
arrears.
    So, while this budget focuses on savings for many of you, I 
will also address the revenue picture. But this is what a 
budget, a balanced budget, would look like. And there are tough 
decisions, and it is good to have honest dialogue about them.
    Second, I fully understand the Department of the Interior 
touches the lives of more Americans than any other department. 
In fact, nearly every American lives within an hour drive of 
our public lands, enjoys our parks, our wildlife refuges, and 
our public lands. Interior is not a partisan issue. Our public 
lands are an American issue.
    The President's budget itself proposes $11.7 billion, and 
saves the taxpayers about $1.6 billion. We make strategic 
investments to ensure that our Nation's energy and national 
security are met, and we address core issues, and public 
access.
    The President's budget prioritizes an all-of-the-above 
energy strategy that includes oil, gas, coal, and renewable 
energies. The President does not favor one energy source over 
another. It is an all-of-the-above energy strategy. We also 
have a prudent focus on boosting revenue through legislative 
proposals to raise $5.8 billion.
    Let me talk about revenues. In 2008, the Department of the 
Interior, on offshore alone, made about $18 billion a year. 
Last year, we made $2.6 billion. We had a drop of $15.5 billion 
a year on revenue. Some of it was the gas and oil prices, but 
not all of it. When you add timber, when you add onshore, the 
picture gets worse.
    So, when we talk about $11.5 billion behind on 
infrastructure in our parks, which represents 73 percent of 
infrastructure in the Department, on scale, we would have made 
up our entire backlog plus $3 billion of additional investment 
to fund programs, schools, and honor our Indian trust in 1 
year. That is the scale of what occurred.
    There are two sides of every balance sheet: there are the 
revenues and the expenses. As a Secretary, I immediately signed 
a Secretarial Order to look at revenues across the board. I re-
established the Committee on Revenues. And revenues, we are 
looking at every enterprise that operates on public land, 
whether it is wind, gas, oil, coal, across the board, because I 
want to make sure that the American public's interest is met. 
If you are going to operate on public land, then the 
stakeholder is us, the public. I want to make sure that our 
rules and regulations are not arbitrary, trust but verify, and 
the American public interest is served.
    When it comes to infrastructure, we plan to take care of 
what we have first. So, yes, the LWCF program, which I have 
always supported, what has dropped is additional land 
acquisition. It does not prevent such things as conservation 
easement programs, but more land has dropped from the budget as 
it sits today. It is a starting point.
    And I have always supported LWCF, but over the course of 
time LWCF is funded through offshore assets. So, when offshore 
assets, oil and gas, go to the bottom, so does the fund. But 
having said that, over the course of time there is $20 billion 
of unappropriated funds in LWCF. Was that the intent?
    Even though every year money comes in, whether this gets 
appropriated or not is a congressional issue. Same as, and it 
is worse, over in Reclamation. There is about $20 billion in 
Reclamation that has not been tasked either. Those funds were 
for one thing, to build our water, our rural, and projects, so 
there is an appropriation issue, as well, that we will address.
    The budget calls for a $35 million increase, for a total of 
$766 million for national parks infrastructure. And if you want 
to look at our infrastructure of the national parks, I invite 
you to look at Arlington. It is a national disgrace. And it 
just didn't happen in the last 8 years. But our Park Service, 
our assets, deferred maintenance has been a problem. But if you 
want to look, go to Arlington. The shutters are falling off, 
the garden grounds are unacceptable. The building itself is in 
ruin. And that is hallowed ground, and it is not very far from 
here.
    We fully fund fire suppression. This Committee has talked 
about it year after year after year of why we have to spend 
billions of dollars every year fighting forest fires. The 
Forest Service, which is not part of the Department of the 
Interior, has 71 million acres of dead and dying timber. It 
will not happen on BLM land. So, we have purposely funded fire 
suppression to get the dead and dying timber off our public 
lands so we don't have to fight the forest fires.
    We found savings in Federal land acquisitions. I talked 
about eliminating some programs and allowing states and local 
communities in private partnership to take a bigger play. At 
the end of the day, we made tough decisions.
    Payment in Lieu of Taxes, for the first time in a long 
time, we put $397 million in Payment in Lieu of Taxes. Last 
year, there was zero. So, we put it in the discretionary side 
as a marker. I don't know what is going to happen on the SRS 
side, but on PILT, that is $397 million plus-up from last 
budget. Although it doesn't fully fund it, it is a plus-up from 
last budget.
    So, yes, this is a starting point. But I want everyone to 
realize this is a starting point of a balanced budget. And 
there are fundamental differences on what programs should get 
funded, and this is why we are here. I look forward to working 
with you, I look forward to working on both sides. I know you, 
personally.

    With that, Mr. Chairman, I yield back.

    [The prepared statement of Mr. Zinke follows:]
      Prepared Statement of Ryan Zinke, Secretary of the Interior
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Committee, I am pleased to appear before you today to discuss the 2018 
President's Budget for the Department of the Interior, which provides 
$11.7 billion for Interior's programs, with an additional $123.9 
million of discretionary Department of Defense appropriations requested 
to be transferred to the Department of the Interior to support 
enactment of the 2010 Compact Review Agreement with Palau.
    Because of the timing between enactment of the Fiscal Year 2017 
Omnibus Appropriations Act and submission of the Fiscal Year 2018 
President's Budget, my statement compares requested funding to the 
Fiscal Year 2017 Annualized Continuing Resolution unless otherwise 
noted.
                         2018 budget priorities
    The 2018 budget for the Department of the Interior features 
targeted investments to further the Administration's America First 
national energy goals. At the same time, this budget reflects the 
President's commitment to fiscal responsibility--proposing sensible and 
rational reductions and making hard choices to reach a balanced budget 
by 2027.
    Across Interior's diverse mission, this budget emphasizes the 
Department's crucial role in promoting economic growth. America's lands 
hold tremendous job-creating assets. Visitors to our parks spend more 
than $18.4 billion in local gateway communities, supporting 
approximately 318,000 jobs and contributing $34.9 billion into the 
national economy according to the 2016 National Park Service Visitor 
Spending Effects Report.
    In 2016, the Department's energy, mineral, grazing, and forestry 
activities resulted in $8.8 billion in revenue to the American people, 
including direct revenue payments to states, tribes, and local 
communities. These same activities supported $136 billion in economic 
output. The Budget for the Bureau of Reclamation invests over $1 
billion in safe, reliable, and efficient management of water resources 
throughout the western United States. In addition, direct grants and 
payments to states, tribes, and local communities provided an estimated 
$10 billion in economic output.
    The Department's 2018 budget reflects the Administration's 
commitment to strengthen America's economic and energy security, focus 
on the Nation's infrastructure, be responsible stewards of magnificent 
lands, encourage public access for outdoor recreation, and strengthen 
tribal sovereignty and support self-determination.
                            america's energy
    The Department is the steward and manager of America's natural 
resources, including oil, gas, coal, hydropower, minerals, and 
renewable energy sources. The Department has a critical role to play in 
the future energy security of our Nation as well as our overall 
economic well-being. American energy resources create jobs and generate 
significant revenue both to the U.S. Treasury and states. This budget 
proposes $791.2 million in current and permanent funding for energy 
related programs across the Department, an increase of $16.3 million 
from 2017. The 2018 budget supports an ``all-of-the-above'' energy 
development strategy, increasing funding for onshore and offshore oil 
and gas, strengthening coal management activities, and sustaining the 
current pace of renewable energy development.
    The budget reflects the importance of offshore energy production to 
America's economic and energy security. The 2018 budget shores up 
offshore oil and gas programs with appropriated funding to continue a 
strong offshore program. The request for the Bureau of Ocean Energy 
Management features a $10.2 million increase to update the Five-Year 
Outer Continental Shelf Oil and Gas Leasing Program, consistent with 
the President's Executive Order Implementing an America-First Offshore 
Energy Strategy to expand offshore oil and gas exploration and 
production. The 2018 budget for the Bureau of Safety and Environmental 
Enforcement includes a $1.2 million increase to focus on workforce 
training, permitting, and information technologies to better permit 
exploration, development, and production operations.
    Onshore, the budget requests a $16.0 million increase for the 
Bureau of Land Management's oil and gas management program, providing a 
total of $75.9 million in appropriated funds focused on improving oil 
and gas permit application processing, streamlining leasing, and 
modernizing practices. The budget also includes $19.0 million for the 
BLM coal management program, an $8.0 million increase to reduce 
administrative processing times, simplify the lease application 
process, and improve the timeliness to complete lease sale fair market 
value determinations.
    The 2018 budget includes $78.1 million for Renewable Energy 
programs both on and offshore. Although a reduction from prior years, 
this funding level will sustain the current pace of development at a 
level consistent with anticipated project interest.
    To ensure the public continues to receive the full value of natural 
resources production on Federal lands, in April, I signed a charter 
establishing a Royalty Policy Committee of 28 local, tribal, state, and 
other stakeholders to advise me on the fair market value of and revenue 
collection from Federal and Indian mineral and energy leases, including 
renewable energy sources.
                      the nation's infrastructure
    Interior plays an important role in maintaining and improving the 
Nation's infrastructure. Interior's national role includes managing 
significant real property assets as well as conducting reviews and 
processing permits to support national infrastructure development as 
part of a balanced multiple land use strategy.
    Interior's 2018 budget maintains the 2017 level of $98.8 million 
for Fish and Wildlife Service planning and consultation activities. 
This level maintains the FWS capability to meet its legal consultation 
requirements and avoid logjams that could delay infrastructure projects 
and associated economic benefits. The BLM budget also directs base 
funding to address siting for energy transmission projects, and 
proposes an increase in the oil and gas management program to 
facilitate rights-of-way associated with energy development projects.
    Interior manages an infrastructure asset portfolio with a 
replacement value exceeding $300 billion, ranging from elementary and 
secondary schools serving Indian children, to highways and bridges 
serving the daily commuting needs of the Washington, DC, metropolitan 
area. Interior owns approximately 43,000 buildings, 100,000 miles of 
road, and 80,000 structures--including iconic landmarks, as well as 
dams, bridges, laboratories, employee housing, and irrigation and power 
infrastructure. Taking care of this significant asset portfolio is a 
persistent challenge. Interior's deferred maintenance backlog has grown 
to over $15 billion in 2016. Construction and maintenance funding 
across the Department totals $1.4 billion in 2018, not including the 
Bureau of Reclamation.
    From my first day on the job, one of my top priorities has been to 
prioritize efforts to address the National Park Service maintenance 
backlog. Our National Parks have 73 percent of Interior's deferred 
maintenance backlog while hosting 324 million visitors last year. The 
2018 budget for NPS includes $236.3 million for construction and 
deferred maintenance projects, an increase of $21.0 million from 2017. 
Total estimated funding for NPS maintenance and construction needs 
including estimated recreation fee revenue is $765.7 million, an 
increase of $34.7 million from Fiscal Year 2017. This increase will 
support targeted and measurable upgrades to a number of the NPS' 
highest priority assets, including the first phase of repairs to the 
Arlington Memorial Bridge project.
                            america's lands
    In my first days in office, I issued two Secretarial Orders to 
expand access to public lands and increase hunting, fishing, and 
recreation opportunities nationwide. The 2018 budget includes $4.4 
billion for the Department's land management operations in the NPS, 
FWS, and the BLM. While a reduction of $354.3 million from 2017, this 
figure includes funding for operational programs as well as management 
and maintenance of the national parks, national wildlife refuges, and 
BLM's network of national conservation lands. Within land management 
operations, the budget prioritizes funding to protect and conserve 
America's public lands and natural resources, provide access to public 
lands for the next generation of outdoor enthusiasts, and ensure 
visitor safety.
    To support land management priorities, funding for lower priority 
activities, such as Federal land acquisition projects, is reduced. The 
2018 budget emphasizes taking care of our current assets, rather than 
adding more by purchasing new land. Accordingly, the budget for land 
acquisition programs is $54.0 million, $129.1 million below 2017. A 
small amount of funding is maintained in each bureau for emergencies or 
acquisition of inholdings needed to improve management of established 
areas or to increase public access.
    To better manage and balance these responsibilities, the Department 
relies on its front-line land managers, field scientists, and partners 
to monitor, assess, and collect information about the status of 
resource conditions. Interior's U.S. Geological Survey is the Nation's 
leading source of expertise in earth and natural sciences and works 
closely with other Departmental bureaus and state, local, tribal and 
other Federal partners to help resource managers adapt to changing 
conditions on the ground. The 2018 budget includes $922.2 million for 
USGS programs, to focus on core science activities including land and 
water resources, energy and minerals, mapping, ecosystems, invasive 
species, natural hazards, and environmental health.
    The 2018 request budgets responsibly for the Payments in Lieu of 
Taxes program. The budget includes $397 million for these payments as 
part of the discretionary request, to ensure continued support to the 
communities neighboring the Department's and other Federal lands 
without assuming enactment of separate legislation. The 2018 level for 
PILT is reduced 12 percent below the 2017 CR level, consistent with the 
total reduction in the Interior budget.
    A key component of the Department's land stewardship is management 
of wildland fire. The 2018 budget provides $389.4 million for wildfire 
suppression--the full 10-year average of suppression expenditures. This 
level of funding is projected to be sufficient to meet fire suppression 
needs in an average fire season without the risk of needing emergency 
transfers from other departmental accounts.
                            america's waters
    The 2018 budget also continues efforts to address the challenges of 
water availability and drought conditions.
    The Department, primarily through the Bureau of Reclamation, works 
with states, tribes, local governments, and non-governmental 
organizations to pursue a sustainable water supply for the West by 
providing Federal leadership and assistance on the efficient use of 
water. The 2018 budget continues these efforts to address the 
challenges of water availability.
    Interior's $1.1 billion budget request for Reclamation invests in 
our water and power infrastructure, facilitating the delivery of water 
to 31 million people across the West. It is the Nation's largest 
renewable energy resource, and the Bureau of Reclamation plays an 
important role as the second largest producer of hydropower in the 
United States.
    This budget also continues to strengthen our Tribal Nations by 
implementing Indian water rights settlements, and focuses on the 
protection and restoration of aquatic and riparian environments to 
ensure we can continue to provide a reliable water supply and power to 
the West.
                    america's trust responsibilities
    Interior maintains strong and important relationships with Native 
and insular communities, helping to promote efficient and effective 
governance and to support nation-building and self-determination. The 
Department provides services directly, or through contracts, grants or 
compacts, to 567 federally recognized tribes with a service population 
of nearly 2 million American Indians and Alaska Natives. The budget 
prioritizes support for programs serving the broadest service 
population and proposes reductions in initiatives that are more 
narrowly focused. The President's budget maintains the Administration's 
strong support for the principle of tribal self-determination, and 
efforts to strengthen tribal communities across Indian Country. The 
budget includes full funding for Contract Support Costs and Tribal 
Grant Support Costs that tribes incur from managing Federal Indian 
programs.
    The 2018 budget request includes $786.4 million to continue support 
for core Indian education programs, including formula funding and 
operation and maintenance funding for elementary and secondary schools, 
and support for post-secondary programs. The 2018 budget continues to 
meet Federal responsibilities outlined in enacted land and water rights 
claim settlements with Indian tribes, and includes $160.8 million for 
authorized settlements and technical and legal support involving tribal 
water rights, to maintain the Department's ability to complete these 
settlement requirements within the statutory time frames.
    In recognition of the importance of the Nation's relationship with 
Palau and the Pacific national security strategy, the budget requests 
$123.9 million of discretionary Department of Defense appropriations to 
be transferred to the Department of the Interior to support enactment 
of the 2010 Compact Review Agreement with Palau.
                         management and reform
    As part of the President's March 2017, Executive Order on a 
Comprehensive Plan for Reorganizing the executive branch, the 
Administration launched a government-wide effort to create a leaner, 
more efficient, and more responsive government. The Order directs 
agencies to begin planning to operate at the funding levels in the 2018 
budget and develop a broader Agency Reform Plan to address long-term 
workforce reductions. Interior is moving prudently with implementation 
and has put in place hiring controls to enable limited hiring, 
prioritizing filling field positions rather than office positions, and 
limiting hires in the Washington, DC, and Denver, Colorado, areas. This 
process enables the Department to continue to fill important positions 
as work is underway to develop a comprehensive and thoughtful agency 
plan.
    The 2018 budget reduces lower priority programs $1.6 billion below 
2017 and supports 59,968 full time equivalents. This represents an 
estimated reduction of roughly 4,000 full time equivalent staff from 
2017. To accomplish this, the Department will rely on a combination of 
attrition, reassignments, and separation incentives. Actual attrition 
rates and acceptance of separation incentives will determine the need 
for further action to reduce staffing.
    Reducing the Department's physical footprint and seeking ways to 
consolidate space and resources will continue to be management 
objectives going forward. Efforts will build on several multi-year 
actions to reduce Interior's nationwide facilities footprint and 
improve the efficiency and effectiveness of its information technology 
infrastructure and financial reporting capabilities. Ensuring the 
Department's cybersecurity strength continues to be a priority. The 
2018 budget maintains $10.0 million in the appropriated working capital 
fund to continue the Department's remediation of its cybersecurity 
systems and processes.
                           bureau highlights
    Bureau of Land Management--The 2018 request for the BLM is $1.1 
billion, a decrease of $162.7 million below the 2017 CR level and 
$180.5 million below the 2017 enacted level. The budget proposes $963.2 
million for Management of Lands and Resources and $89.8 million for 
Oregon and California Grant Lands, BLM's two primary operational 
appropriation accounts.
    The BLM request features increases in oil, gas and coal management 
programs reflecting national energy security priorities. The budget 
proposes $75.9 million for Oil and Gas Management to support permitting 
and rights-of-way processing, streamline leasing, and modernize 
practices. The budget also includes $19.0 million to strengthen BLM's 
Coal Management program, an increase of $8.0 million from 2017.
    To maintain the BLM's land stewardship responsibilities, the budget 
includes $67.8 million for Rangeland Management and $70.7 million for 
the Wild Horse and Burro Management program. As part of a broader 
effort to consider all necessary options to manage the unsustainable 
growth of this program, the budget proposes to eliminate current 
appropriations language restricting the BLM's ability to use the tools 
provided in the Wild and Free-Roaming Horse and Burro Act and enable 
BLM to manage on-range herds more effectively and humanely. The budget 
also proposes $47.2 million for Recreation Resources Management and 
$27.7 million to continue support for the National Conservation Land 
areas.
    The budget includes $89.8 million for the Oregon and California 
Grant Lands programs. At this level, the budget prioritizes offering 
the allowable sale quantity in new resource management plans.
    Mineral development on Federal lands is important to the national 
economy. However, a long-standing challenge is to provide a fair return 
to taxpayers for the use of these natural resources without 
discouraging development. To meet this challenge, the Department will 
conduct a study starting in 2017 to evaluate the production and 
development of hardrock minerals from Federal lands. The review will 
include an analysis of revenue recovered by other entities, including 
other countries, which permit mining on their land. The Department will 
also consult with other appropriate agencies, such as the Department of 
Agriculture. The findings will be considered as part of ongoing efforts 
to improve agency management and streamline permitting related to 
natural resources produced from Federal lands.

    Bureau of Ocean Energy Management--The 2018 President's budget for 
BOEM is $171.0 million, slightly above the 2017 CR level, including 
$114.2 million in current appropriations and $56.8 million in 
offsetting collections from rental receipts and cost recoveries. The 
budget maintains a level program by increasing appropriated funding by 
$35.5 million to address a commensurate shortfall in estimated 
offsetting rental receipts and cost recoveries. The 2018 budget 
features a $10.2 million increase to support the development of a new 
Five-Year Plan for the OCS Oil and Gas Leasing Program.

    Bureau of Safety and Environmental Enforcement--The 2018 
President's budget request for BSEE is $204.9 million, slightly above 
the 2017 CR level, including $112.0 million in current appropriations 
and $92.9 million in offsetting collections from rental receipts, cost 
recoveries, and inspection fees. The budget maintains a strong offshore 
safety and environmental enforcement program by increasing 
appropriations and estimated inspection fee revenue to address 
anticipated shortfalls in offsetting rental receipts and other cost 
recoveries. The 2018 budget includes a $1.2 million increase for 
technical training to expand staff development efforts for BSEE's 
inspector, engineer, and geoscientist workforce, and $12.7 million for 
oil spill research, a reduction of $2.2 million from 2017.

    Bureau of Reclamation--The 2018 budget request for the Bureau of 
Reclamation is $1.1 billion in discretionary appropriations. This 
figure reflects a decrease of 13.1 percent from the 2017 CR level. Of 
the total, $960 million is for the Water and Related Resources account, 
Reclamation's largest account; $59 million is for the Policy and 
Administration account; $37 million is for the California Bay Delta 
Restoration account; and $41.4 million is for the Central Valley 
Project Restoration Fund.

    Office of Surface Mining Reclamation and Enforcement--The 2018 
budget request for OSMRE is $129.4 million in current appropriations, 
$110.7 million below the 2017 CR level. The majority of this reduction 
reflects the elimination of $89.9 million for Abandoned Mine Lands 
Economic Development Grants. Although beneficial, funding for this 
pilot program overlaps with existing mandatory Abandoned Mine Lands 
grants which continue without any proposed changes. The budget includes 
$60.2 million for state and tribal regulatory grants, a level 
consistent with anticipated state and tribal program obligations.

    U.S. Geological Survey--The 2018 budget request for the USGS is 
$922.2 million, $137.8 million below the 2017 CR level. The budget 
includes $70.9 million for satellite operations, which supports 
continued development of the Landsat 9 ground systems, supporting a 
launch date in early Fiscal Year 2021 to replace the Landsat 7 
satellite, which is reaching the end of its usable life.
    The request emphasizes energy and mineral development, supporting 
essential hazards monitoring, and providing scientific information to 
support decision making by resource managers and policy makers. The 
budget maintains support for nationwide networks of more than 8,000 
streamgages and nearly 3,000 earthquake sensors. The request provides 
$17.3 million for nationwide efforts to counter invasive species and 
wildlife diseases such as white-nose syndrome and highly pathogenic 
avian influenza, and the budget maintains $17.3 million for 40 
cooperative research units that support state-specific needs, 
particularly related to fish and game species. It continues acquisition 
of modern elevation data for Alaska and the 3-year cycle of topographic 
map updates for the contiguous United States.
    The 2018 request proposes to realign the 2018 budget structure to 
create a new Land Resources activity to reflect focused science related 
to on-the-ground land management and adaptive management challenges. As 
part of this request, the budget proposes $17.4 million for the 
National and Regional Climate Adaptation Science Centers, reflecting 
the proposed consolidation of eight regional centers to four.

    Fish and Wildlife Service--The 2018 President's budget requests 
$1.3 billion for FWS programs, a decrease of $202.9 million from the 
2017 CR level. The budget includes $1.2 billion for FWS operations, a 
decrease of $85.3 million below 2017. Within Resource Management, the 
budget prioritizes funding to maintain operations and maintenance for 
the National Wildlife Refuge System ($470.1 million) and the National 
Fish Hatchery System ($51.9 million). Funding will continue operations 
for all refuge areas and hatchery sites.
    The budget includes $225.2 million for Ecological Services programs 
with an emphasis on species recovery and planning consultation 
activities. Consistent with efforts to focus adaptive management 
related science within the USGS, the request proposes to eliminate 
funding for Science Support at $17.0 million and Landscape Conservation 
Cooperatives at $13.0 million.
    The budget is $118.6 million for FWS conservation grants including 
$52.8 million for State and Tribal Wildlife Grants, $33.6 million for 
the North American Wetlands Conservation Fund, $19.3 million for the 
Cooperative Endangered Species Conservation Fund, $9.0 million for the 
Multinational Species Conservation Fund, and $3.9 million for 
Neotropical Migratory Bird Conservation. Consistent with decreases in 
other land acquisition programs across the Department, the request 
proposes to eliminate funding for Cooperative Endangered Species 
Conservation Fund land acquisition grants.

    National Park Service--The 2018 President's budget request for NPS 
is $2.6 billion, $296.6 million below the 2017 CR level.
    The budget proposes $2.2 billion for NPS operations. Within this 
account, funding is prioritized for the care and maintenance of 
existing resources. The budget includes $99.3 million for repair and 
rehabilitation projects, which addresses the deferred maintenance 
backlog, as well as $112.7 million for cyclic maintenance projects, 
which ensures maintenance is conducted in a timely fashion to avoid 
increasing the deferred maintenance backlog.
    The budget proposes $226.5 million for Construction projects, an 
increase of $34.0 million to help address deferred maintenance and 
allow for targeted and measurable upgrades to a number of the NPS's 
highest priority assets. Within this request is $18.2 million for phase 
one construction requirements for the Arlington Memorial Bridge. Also 
included in the request is $15.0 million in appropriated funds for the 
Centennial Challenge program to provide the Federal match to leverage 
partner donations for signature projects and programs. An additional 
$15.0 million from fee revenue is also anticipated for 2018 to support 
Centennial projects.
    The request provides $37.0 million for National Recreation and 
Preservation programs to support local community efforts to preserve 
natural and cultural resources. The budget assumes savings of $18.8 
million from the proposed elimination of payments to National Heritage 
Areas. The 2018 budget includes $51.1 million for the Historic 
Preservation Fund core grants-in-aid programs. The budget proposes to 
shift support for Land and Water Conservation Fund State Grants from 
appropriated to mandatory funding comparable to an estimated $90 
million the program will receive from oil and gas activities from 
certain Gulf of Mexico offshore leases.

    Indian Affairs--The 2018 President's budget request for Indian 
Affairs is $2.5 billion, $303.3 million below the 2017 CR level. 
Funding for Operation of Indian Programs totals $2.1 billion, a 
decrease of $181.1 million below 2017. In 2018, priority is given to 
programs serving the broadest audience rather than initiatives or 
pilots. Within this total is $786.4 million for Bureau of Indian 
Education programs where funding focuses on direct school operations 
and full funding for Tribal Grant Support Costs. The main operating 
account also includes $349.3 million for Public Safety and Justice 
programs and $277.5 million for Trust Services programs, which includes 
the elimination of the Tribal Climate Resilience program.
    The budget fully funds Contract Support Costs at $241.6 million, 
$35.4 million below 2017, which will cover all anticipated requirements 
at the requested program funding level. The budget requests $143.3 
million for Construction programs. The 2018 budget prioritizes dams, 
irrigation projects, and irrigation systems which deliver water to aid 
economic development as well as protect lives, resources, and property. 
The budget prioritizes funding within education construction for 
operations and maintenance of existing facilities. The budget also 
includes $14.0 million to provide payments to ongoing Indian Land and 
Water settlements and $6.7 million for the Indian Guaranteed Loan 
Program.
Departmental Offices
    Office of the Secretary--The 2018 budget request for Departmental 
Operations is $123.9 million, $596.5 million below the 2017 CR. The 
majority of this reduction is $451.1 million associated with the shift 
of the Payments in Lieu of Taxes program which was appropriated within 
Departmental Operations in 2017. In 2018, the budget proposes to fund 
PILT as discretionary funding within Department-wide Programs. The 
budget also reflects the proposed transfer of $140.3 million associated 
with the Office of Natural Resources Revenue to a new appropriation 
within Department-wide Programs. The proposed transfer of ONRR funding 
will increase transparency in the budget for the Department's energy 
revenue programs. The 2018 request for remaining Office of Secretary 
programs reflects a reduction of $4.0 million from central program 
management activities across the Office of the Secretary organization. 
Of this, $2.6 million is associated with reductions to the Office of 
Valuation Services consistent with the proposed Department-wide 
decrease for new land acquisition.

    Office of Insular Affairs--The 2018 OIA budget request is $84.3 
million, $19.0 million below the 2017 CR. In addition, the majority of 
OIA's budget proposal reflects a request to fully fund the renegotiated 
Compact with Palau by transferring $123.9 million from the Department 
of Defense, rather than $13.1 million in extended incremental annual 
payments. The Compact is an important element of the Pacific national 
security strategy.

    Office of the Solicitor--The 2018 budget proposes $65.7 million for 
the Office of the Solicitor, the same as the 2017 CR level, to provide 
legal counsel, administer the Department's ethics program, and help 
resolve legal issues among bureaus and offices as they fulfill their 
duties.

    Office of Inspector General--The 2018 budget proposes $50.0 million 
for the Office of Inspector General, the same as the 2017 CR level, to 
continue support for audit and investigations across the Department.

    Office of the Special Trustee for American Indians--The 2018 budget 
requests $119.4 million for OST, $19.4 million below the 2017 CR level. 
The budget proposes a $3.7 million reduction below 2017 in Field 
Operations reflecting prioritization of services to continue operations 
at the beneficiary call center. A reduction of $3.1 million is proposed 
within Historical Trust Accounting in expectation of reduced 
requirements. Smaller additional reductions are taken across the 
organization.
Department-wide Programs
    Payments in Lieu of Taxes--The 2018 budget proposes $396.9 million 
in discretionary funding for PILT, a decrease of $54.3 million from the 
comparable 2017 CR level of $451.1 million appropriated in Departmental 
Operations in 2016. This is a reduction of 12 percent, commensurate 
with the Department of the Interior's overall reduction from 2017 CR 
budget levels.

    Office of Natural Resources Revenue--The 2018 budget request 
includes $137.8 million for ONRR's receipts management programs, a 
decrease of $2.5 million below the comparable 2017 CR level of $140.3 
million. The 2018 budget request proposes to transfer ONRR's receipts 
management program from the Office of the Secretary's Departmental 
Operations account to a separate appropriation within Department-wide 
Programs to increase transparency of the program. The request includes 
$3.5 million for anticipated contract cost increases for the Minerals 
Revenue Management Support System.

    Central Hazardous Materials Fund--The 2018 budget requests $2.0 
million for the Central Hazardous Materials Fund, $8.0 million below 
the 2017 CR. The budget request funds program management and legal 
staff. The program will fund the highest priority remediation projects 
based on the availability of recoveries and focus resources on 
remediation projects with potentially responsible parties.

    Wildland Fire Management--The 2018 budget request for the Wildland 
Fire Management Program is $873.5 million. The total request represents 
a decrease of $118.3 million from the 2017 CR level for the Wildland 
Fire Management and FLAME accounts. At this level the request provides 
$389.4 million for Suppression Operations to fully fund the 10-year 
average. To streamline financial management processes and improve the 
efficiency in allocating suppression funding, the Department proposes 
to fund all suppression activities in the Wildland Fire Management 
account and eliminate the separate FLAME Wildfire Suppression Reserve 
Fund account once all current balances in the FLAME account are drawn 
down. The request also includes $322.2 million for Preparedness 
activities, essentially level with 2017, and $149.5 million for Fuels 
Management, $20.2 million below 2017.

    Natural Resource Damage Assessment and Restoration--The 2018 
request for NRDAR is $4.6 million, a decrease of $3.2 million below the 
2017 CR level. The budget includes funding needed for ongoing damage 
assessments and restoration activities.

    Working Capital Fund--The 2018 budget proposes $59.5 million for 
the appropriated portion of the Department's Working Capital Fund, a 
decrease of $7.5 million from the 2017 CR level. The reduction is from 
funds requested for the Financial and Business Management System which 
is proposed at $46.3 million. The request maintains $10.0 million for 
Department-wide Cybersecurity needs.
                         legislative proposals
    Bureau of Reclamation Title Transfer--The Administration is 
developing a proposal to better facilitate title transfer of 
Reclamation facilities to non-Federal entities when such transfers are 
beneficial to all parties. This proposal will allow local water 
managers to make their own decisions to improve water management at the 
local level, while allowing Reclamation to focus management efforts on 
projects with a greater Federal nexus.

    Cancel Southern Nevada Public Land Management Act Account 
Balances--The budget proposes legislation to cancel $230.0 million in 
unobligated balances from the Southern Nevada Public Land Management 
Act program over a 3-year period. This would redirect a portion of the 
program balances to the Treasury for broader taxpayer use. The SNPLMA 
program is not proposed for elimination and viable conservation efforts 
will continue to be supported.

    Gulf of Mexico Energy Security Act Payments--The Administration 
proposes to repeal revenue sharing payments to four coastal states--
Alabama, Louisiana, Mississippi, and Texas--and their local 
governments, which are currently set to expand substantially starting 
in 2018. This proposal will ensure the sale of public resources from 
Federal waters owned by all Americans, benefits all Americans. 
Mandatory funding for LWCF State Grants would continue, but this 
legislative proposal would replace GOMESA's complicated allocation 
formula with a fixed annual appropriation of a comparable dollar 
amount, starting at $90.0 million in 2018 and increasing to $125.0 
million in 2022 and remaining at $125.0 million each year thereafter.

    Land and Water Conservation Fund--The LWCF receipts authorization 
expires at the end of Fiscal Year 2018 and the Administration will 
review options for reauthorization, including consideration of a range 
of conservation-related investments that could be funded through the 
LWCF.

    Oil and Gas Leasing in the Arctic National Wildlife Refuge--The 
Administration will propose legislation to allow oil and gas leasing in 
the coastal plain of the Arctic National Wildlife Refuge also known as 
the ``1002 area.'' The budget assumes lease sales would begin in 2022 
or 2023, allowing adequate time for the completion of appropriate 
environmental reviews and an updated assessment of the state of the oil 
and gas market and lease bidding potential prior to scheduling specific 
lease sales. An additional lease sale or sales would be held in 2026 or 
2027. Lease sales in the ANWR are estimated to generate $3.5 billion in 
bonus bids to be split between the U.S. Treasury and the state of 
Alaska. The proposal is estimated to generate a net of $1.8 billion in 
new revenue to the Treasury over 10 years.

    Reauthorize the Federal Land Transaction Facilitation Act--The 
budget assumes permanent reauthorization of FLTFA's land sale 
authority, allowing Interior to dispose of lands with low conservation 
value and use the proceeds to acquire lands with higher conservation 
values, consistent with the original FLTFA mandate.

    Recreation Fee Program--The budget proposes to permanently 
reauthorize the Federal Lands Recreation Enhancement Act, which 
currently expires in September 2018. As a precaution, appropriations 
language is also submitted with the budget proposing a 1-year extension 
through September 2019. The revenues collected by Interior from these 
recreation fees--nearly $290 million annually--are an important source 
of funding for land management operations, maintenance, and 
improvements to recreation facilities on public lands.

    Termination of EPAct Geothermal Payments to Counties--The budget 
proposes to restore Federal geothermal leasing revenue allocations to 
the historical formula of 50 percent to the states and 50 percent to 
the U.S. Treasury by repealing Section 224(b) of the Energy Policy Act 
of 2005.
                    offsetting collections and fees
    Bureau of Safety and Environmental Enforcement Offshore Inspection 
Fees--The budget includes appropriations language to amend the current 
fee structure for BSEE inspection fees to better align with BSEE's 
inspection practices and program costs. The language structures fees 
charged for the inspection of offshore facilities to distinguish 
between those ``without processing equipment'' or ``with processing 
equipment'' and incorporate consideration of the number of wells and 
water depth. These changes to the fee structure are estimated to 
generate $65.0 million in 2018.

    National Wildlife Refuge Damage Cost Recovery--The budget includes 
appropriations language to authorize the FWS to retain recoveries from 
responsible parties to restore or replace damages they cause. This is 
similar to authorities provided to the NPS for damages to national 
parks and monuments.
                               conclusion
    Thank you for the opportunity to testify on the President's 2018 
budget request for the Department of the Interior.
    In closing, this is a responsible budget to help balance the 
Federal budget by 2027. It maintains core functions important to the 
American people, including providing the public the unique American 
experience that comes from visiting our parks, refuges, and public 
lands. It reflects tough choices to prioritize and focus limited 
resources where investments have the most impact, but continues to 
deliver access and services which are critical to Americans. I thank 
you again for your continued support of the Department's mission. I 
look forward to answering questions about this budget. This concludes 
my written statement.

                                 ______
                                 
 Questions Submitted for the Record to the Hon. Ryan Zinke, Secretary, 
                    U.S. Department of the Interior

                 Questions Submitted by Rep. McClintock

    Question 1. There are some 150 conservation corps across the 
Nation. These corps have a long tradition of stewardship of our public 
lands and waters. By partnering with corps, land managers leverage 
their budgets with cost-effective projects that reduce the multi-
billion-dollar maintenance backlog, remediate wildfires, curb the 
spread of invasive species, improve access to public lands, build and 
maintain trails, and ensure good fish and wildlife habitat for 
enthusiasts, hunters, and anglers.

  --  Are you aware of any impediments that have limited growth of this 
            program?

    Answer. Interior bureaus have a long history of collaborating with 
a wide variety of volunteer groups, education partners and youth 
organizations including conservation corps. These partnerships assist 
land managers in maintaining resources in a cost effective manner while 
providing participants with developmental jobs skills training and 
education. Not all of the work done by land management agencies can be 
done by conservation corps, but we are not aware of any impediments to 
using these partnerships, to the extent that our resources permit, 
where it is appropriate to do so.

    Question 2. After years of talking and concerted efforts by 
telecommunications companies and concessioners, too many front country 
areas of our national parks and too many key road corridors in our 
parks still offer no cellular or WiFi connectivity. There are safety 
issues and lost opportunities to boost park experiences with helpful 
visitor information.

  --  Does the FY 2018 budget envision additional WiFi connectivity 
            requests for proposals?

  --  Will this be one of your priorities as Secretary?

    Answer. Yes, one of my top priorities is to expand recreational 
access to public lands and waters, and connectivity is one way to 
achieve this goal. As I have previously remarked, in parks, we're the 
old generation; the young generation appreciates connectivity and we 
should embrace that to make sure the park experience going down a trail 
is available on your phone. We will look to build public-private 
partnerships to make our outdoor recreation experience even better.

    Question 3. Across the National Park System stays are down. RV 
overnights in national park campgrounds are down more than 2 million, 
or almost 50 percent, at a time when the RV market is booming. Recently 
while speaking to the Recreational Vehicle Industry Association you 
stated, ``As the secretary, I don't want to be in the business of 
running campgrounds.''

  --  Does the FY 2018 budget include a major push to improve and 
            transfer campground operations?

    Answer. This budget is focused on leveraging public-private 
partnerships in order to improve visitor experiences on public lands 
and waters, while also helping to reduce the Department's maintenance 
backlog. The Park Service has a long history of working with our 
partners and concessioners to create positive experiences for visitors. 
We look to improve and build upon that cooperation.

    Question 4. Mr. Secretary, you have previously stated that one of 
your top priorities as Secretary was to increase employee morale and 
ensure that employees on the front lines have the right tools, 
resources, and flexibility to make the decisions to get their jobs 
done. According to the 2016 Best Places to Work in the Federal 
Government rankings compiled by the Partnership for Public Service and 
based on OPM's annual Federal Employee Viewpoint Survey, employee 
engagement at DOI has been improving since 2015. However, several of 
the agency's components continue to rank low in their employee 
engagement, including the Bureaus of Land Management, Indian Affairs 
and the Park Service.

  --  What are you doing to hold leadership across the Department 
            accountable for engaging employees? How can this Committee 
            help?

    Answer. As I said at the hearing, we are looking at how to better 
leverage and align bureau resources in the field, cut duplication, and 
push assets and personnel where they should be. Accountability from 
managers, for employee actions and program performance, will be an 
important component as we move forward. We are reviewing a number of 
comments on reform that we have received from the public and we expect 
to include some proposals with the FY 2019 budget request.

    Question 5. Within the Department of the Interior, agencies like 
the National Park Service, Bureau of Indian Affairs and Fish and 
Wildlife Service frequently interact with citizens in their day-to-day 
operations. As part of their 2015 cross-agency priority (CAP) goals, 
agencies should be working to ensure the delivery of smarter, better 
and faster service to their citizens.

  --  What steps are Department and agency leaders taking to meet their 
            customer service CAP goals?

  --  What is the agency doing to collect feedback from customers to 
            improve its service to citizens?

  --  How is the Department incorporating citizens' experience into its 
            reform plan due to OMB on June 30?

    Answer. I have said before that it is my belief that more 
meaningful involvement and cooperation with communities closest to our 
public lands will result in innovative ideas and practices as well as 
better stewardship of the land and its resources. We are in the process 
of updating the Department's strategic plan and, as part of this 
process, are reviewing goals, objectives, and key performance 
indicators to best reflect our team's priorities and main activities as 
we look forward to the next 5 years. The Department's Annual 
Performance Plan and Report for FY 2017-FY 2018 was released on May 26, 
2017, www.doi.gov/bpp, and describes in some detail the agency's 
priority goals.

    Question 6. The government reorganization Executive Order and 
subsequent OMB guidance attempt to align government reform efforts with 
the Federal budget and performance planning processes. In response, 
agencies are developing high-level reform and workforce reduction plans 
outlining proposals to reduce duplication, increase efficiency and 
maximize employee performance.

  --  What are you doing as Secretary to lead reform and reshaping 
            efforts within the Department?

  --  What actions will the Department take to reduce duplication in 
            its operations, increase the effectiveness and efficiency 
            of its services and maximize the performance of its staff?

    Answer. As I said at the hearing, we are looking at how to better 
leverage and align bureau resources in the field, cut duplication, and 
push assets and personnel where they should be. We are reviewing a 
number of comments on reform that we have received from the public and 
we expect to include some proposals with the FY 2019 budget request.

    Question 7. Just 14 percent of the DOI workforce falls under age 
34, but 48 percent of the workforce is over 50. Filling positions in 
remote locations and retaining employees are difficult issues for the 
Department and, in particular, for organizations like the National Park 
Service, U.S. Geological Survey, and Bureau of Land Management.

  --  What barriers does the Department face in reaching and utilizing 
            entry-level talent to fill these key positions?

  --  What steps is the Department taking to better attract, recruit, 
            and retain the next generation of public servants to solve 
            the Department's complex challenges?

    Answer. Recent Government Accountability Office studies have 
reported on the challenges that the Department and its bureaus have 
faced in recruiting and retaining staff. It is important that we have 
an effective workforce, particularly in those positions doing the work 
on the ground. As part of my review of the Department's organization, 
we are looking at how to better leverage and align bureau resources in 
the field, cut duplication, and allocate assets and personnel more 
effectively.

    Question 8. Increasing Public Private Partnerships is one of the 
many ways to help reduce the National Park Service maintenance backlog.

  --  Which types of P3s do you believe will be most effective in 
            addressing the backlog while also upholding the guiding 
            principles of the NPS?

    Answer. In July, I hosted a roundtable meeting focused on expanding 
public-private partnerships on America's public lands in order to make 
the outdoor recreation experience even better. Public-private 
partnerships can help address the backlog by upgrading visitor 
accommodations, including RV hookups and campgrounds, expanding visitor 
services, including boat ramps and cafeterias, to name a few.

    Question 9. Historic leasing is an example of a public-private 
partnership that could help alleviate the deferred maintenance backlog.

  --  What are your recommendations for how to expand this innovative 
            approach?

    Answer. The Department is currently reviewing opportunities to 
lease under-utilized Federal properties, both historic and non-
historic, as one approach to addressing the maintenance backlog. 
Public-private partnerships will help reduce the Department's 
maintenance backlog, while improving the visitor experience on public 
lands and waters.

    Question 10. What are the goals that the National Park Service 
hoped to achieve with the Capital investment strategy?

  --  Does the focus on the high-priority projects come at the expense 
            of lower-priority projects?

    Answer. The President's budget proposes to balance the Federal 
Government's budget by 2027, in order to do this priorities must be 
identified. The 2018 budget prioritizes taking care of the assets we 
currently own. The majority of ongoing operational requirements cannot 
be deferred and maintenance needs have been postponed for too long.

                  Questions Submitted by Rep. Thompson

    Question 1. Last year, EPA finalized a rule on Privately Owned 
Treatment Works (POTWs). Since then, I've weighed in with the agency to 
express great concern over its impact on treatment facilities in 
Pennsylvania that appear to be inadvertently caught up in the 
regulation. Although the rule was intended for unconventional 
production, I've heard a lot of concern that water derived from 
conventional production will also be subject to the regulation due to a 
lack of definitions and the individual basins cited in the rule.

    What is EPA doing to correct this problem and ensure that 
conventionally derived wastewater is not subject to the POTW rule?

    Answer. Because this matter falls under the jurisdiction of the 
Environmental Protection Agency and not the Department of the Interior, 
we would defer to the EPA for a response to this question.

    Question 2. I would like to request an update on the status of the 
remedial action at the Folcroft Landfill, a property which was 
purchased by the U.S. Department of the Interior in 1980 and 
incorporated into the John Heinz National Wildlife Refuge under 
legislative authority provided by Congress. In 2001, the property was 
added to the National Priorities List (NPL). Congress initially 
appropriated $11 million for the development of the Refuge, and then 
increased funding to $19.5 million for expansion, including acquisition 
of the Folcroft Landfill (P.L. 96-315). The legislative history of the 
Refuge indicates that Congress intended a portion of the funds to be 
directed toward investigation and on-going maintenance of the Folcroft 
Landfill (P.L. 99-191). Guidance from the EPA requires the Agency to 
consider future land use in the selection of a remedy. What 
communication has the Department of the Interior had with the EPA 
regarding the selection of a remedy for the Folcroft Landfill? What 
remedies are under consideration? Are the remedies under consideration 
by EPA consistent with the future use of the property outlined in the 
John Heinz National Wildlife Refuge's 2012 Comprehensive Conservation 
Plan?

    Question 3. What is the timeline for implementation of a remedy? 
What role will the Department of the Interior play in the remediation 
effort? Can you provide an estimate of the cost of the remediation? 
What will be the contribution from the Department of the Interior and 
other Federal agencies that have been identified as potentially 
responsible parties? Are any of the $19.5 million appropriated by 
Congress still available to fund this effort, or will additional 
appropriations be necessary?

    Question 4. What measures must be put in place by the Department of 
the Interior to maintain the property once remediation efforts have 
been completed?

    Answer to Questions 2-4. During the 1980s and 1990s, the EPA and 
FWS undertook several investigations of contamination within the 
Folcroft Landfill and issued several reports of their findings.

    EPA entered into an Administrative Settlement with a subset of 
private potentially responsible parties, known as the Folcroft Landfill 
Steering Committee (PRP Group), to perform a Remedial Investigation/
Feasibility Study (RI/FS), pursuant to the Comprehensive Environmental 
Response, Compensation, and Liability Act (CERCLA). The RI/FS work is 
being conducted by the PRP Group with EPA oversight and in coordination 
with the FWS. The Draft RI report, dated May 2017, was submitted to EPA 
and FWS for review. Comments are currently being compiled and will be 
forwarded to the PRP Group for inclusion in the final document. Once 
the RI is completed, the FS, which discusses and evaluates potential 
remedies for the Folcroft Landfill, will be performed and a FS Report 
will be produced for the agencies' review and comment. It is 
anticipated the draft FS Report will be submitted for review in 2019 or 
2020. Once alternatives have been evaluated, EPA will select a 
preferred remedy for the site in a Proposed Plan, which will be made 
available for public review and comment. Upon receipt of public input, 
EPA will publish a selected remedy in a Record of Decision. The FS 
Report and Proposed Plan should have information regarding estimated 
costs for the various remedy alternatives.

    An integral part of the CERCLA process is the identification of 
``legally applicable or relevant and appropriate standard(s), 
requirement(s), criteria, or limitation(s)'' (ARARs) pursuant to the 
Section 121(d). In May 2017, FWS provided EPA and the PRP Group with 
ARARs for the Folcroft Landfill that include the Refuge's 2012 
Comprehensive Conservation Plan (CCP) and other relevant documents to 
be considered with respect to future use of the Refuge. FWS has 
emphasized that any response action selected for the site must comply 
with these requirements in order to be compatible with the intended 
purpose and future use of the Refuge. In addition, the Department 
issued an Environmental Compliance Memorandum applicable to CERCLA 
response actions on Department-managed lands; it states that the 
Department must concur with a remedy that another agency selects for 
Department-managed land, in order to grant access for implementation of 
that remedy. This should ensure that FWS and the Refuge have an 
adequate voice in determining the remedy for the Folcroft Landfill, 
including ensuring that future land uses are appropriately considered.

    Once a remedy has been selected for the Folcroft Landfill, EPA, 
FWS, the PRP Group, and any other appropriate parties, will negotiate 
the terms of funding and implementing the remedy. FWS does not 
immediately have a response for the inquiry regarding the funds 
appropriated from Congress in 1972 (P.L. 92-327), 1976 (P.L. 94-548), 
and 1980 (P.L. 96-315), ``for acquisition of the Tinicum National 
Environmental Center, for construction of environmental educational 
center facilities, and for other development projects on the Center,'' 
(P.L. 96-315 July 25, 1980) but a search has commenced for records from 
that time period to confirm the expenditures for these expressed 
purposes.

    Once a remedy has been implemented, FWS will amend its CCP to 
include any necessary restrictions on activities (such as actions that 
could disturb the integrity of the remedy), so that the proper 
institutional or engineering controls are memorialized.

                  Questions Submitted by Rep. LaMalfa

    Question 1. As we all know, the Endangered Species Act is in need 
of significant reforms, with the success rate of species' moving from 
endangered to fully recovered around 1-3 percent. In my district, the 
Service's own scientists recommended de-listing the Valley Elderberry 
Longhorn Beetle, yet it remains listed today and imposes major costs to 
flood protection and other projects.

    Listing of other species, like the Sierra Nevada Yellow-legged 
Frog, has resulted in such low-impact events as a trail run being 
canceled. Federal agencies actually believed humans running on existing 
trails could negatively impact listed frogs. What is the Fish and 
Wildlife Service doing to review the listing status for threatened or 
endangered species which have been recommended for de-listing, like the 
Valley Elderberry Longhorn Beetle?

    Answer. I agree that ESA is in need of reforms and modernization so 
it can operate in a more effective manner, which is why the Department 
has testified before this Committee in support of certain bills 
proposed by your colleagues. The FWS de-lists and down-lists species 
when their status changes and resources are available. Getting species 
off the list due to recovery is a priority, and allows us to focus our 
attention and resources on species that need attention. The pace at 
which de-listings and down-listings occur is dependent on resources 
devoted to on-the-ground recovery implementation and the progress 
toward recovery of individual species, as well as on the complexity of 
status reviews and rulemakings. A total of $225.2 million is proposed 
in the President's FY 2018 budget request to implement the ESA and 
related programs under FWS's Ecological Services program, of which 
$79.6 million is for recovery of species listed as threatened or 
endangered under the ESA. At these funding levels, the FWS will 
continue to address approximately 50 species that have been identified 
for potential de-listing or down-listing under the ESA based upon 
recent 5-year status reviews. FWS plans on making final determinations 
for six species currently proposed for de-listing in FY 2018.

    Question 2. Last year, we saw the Fish & Wildlife Service and 
National Marine Fisheries Service issue conflicting requirements for 
the operation of Shasta Dam, one demanding higher water releases, the 
other demanding lower releases. These proposals would have dramatically 
reduced water supplies for homes and farms.

    Could centralizing responsibility for ESA-listed species with the 
Fish & Wildlife Service prevent conflicting directives like these? For 
example, having the Fish & Wildlife Service subsume the 
responsibilities of the National Marine Fisheries Service?

    Answer. This Administration is examining all options to better 
align agency resources in the field both within Interior and across the 
Federal Government in order to reduce administrative duplication and 
better leverage taxpayer dollars. This review includes consolidating 
Interior bureaus with other Federal agencies. The Administration is 
pursuing near- and long-term strategies to achieve a leaner, and more 
accountable and efficient government.

                    Questions Submitted by Rep. Hice

    Question 1. As you are aware, President Trump has asked for an all-
hands-on-deck approach to offshore research and development, and you 
yourself signed an order on May 1, 2017 directing Interior to look at 
the entire Gulf of Mexico region for potential drilling sites. However, 
A.M. Kurta, acting Under Secretary of Defense for Personnel and 
Readiness, sent a letter to Rep. Matt Gaetz (R-FL), on April 26, 2017, 
stating his belief that military training and related exercises in the 
eastern Gulf necessitate a continuation of Congress' ban on drilling in 
the area (see Letter on page 104).

  <bullet>  Eastern Gulf Of Mexico--Shared Use with DoD

    --  As a Navy SEAL Commander, you have a strong understanding of 
            the need for military preparedness. How do you reconcile 
            the mission of your Department to promote responsible 
            Federal offshore development with the DoD's mission of 
            military preparedness? Can the two co-exist if the 
            moratorium is lifted?

    Answer. Yes, oil and natural gas exploration and development can 
co-exist safely on the OCS, including in the Eastern Gulf of Mexico. 
This is made evident by the fact that in the Central Gulf of Mexico 
Planning Area (CPA) there are 822 active leases, 36 percent of all 
leases in the CPA reside within DoD operations or warning areas. The 
CPA contains the highest amount of oil and gas production on the OCS. 
Another example is that out of the 23 total platforms on the Pacific 
OCS, 11 reside within a DoD equity area. The Department and the Bureau 
of Ocean Energy Management work closely with the DoD to identify those 
areas that industry may gain access to via the offshore oil and gas 
leasing process and to develop lease terms and conditions that protect 
DoD interests.

    --  In the Eastern Gulf of Mexico, military preparedness operations 
            coincide with potential oil and gas development. This 
            requires constant, open communication and an understanding 
            and respect for the mission of both Departments occupying 
            the land. How will you coordinate with the DoD to ensure 
            mutual, responsible management of the Eastern Gulf of 
            Mexico?

    Answer. As with all offshore leasing programs and initiatives, BOEM 
works closely with DoD under a Memorandum of Agreement that facilitates 
the coordination of mutual concerns on the Outer Continental Shelf. DoD 
is consulted early in the leasing program development process and 
collaboration is maintained all the way through the individual lease 
sale execution.

  <bullet>  The Bureau of Ocean Energy Management's (BOEM) ``National 
            Oil and Gas Leasing Program'' (previously known as the 5-
            Year Plan)

    --  You've called a new 5-year plan, now known as a ``National Oil 
            and Gas Leasing Program.'' How will the new plan differ 
            from the previously approved plan?

    Answer. The new plan is being developed under the same process 
prescribed by the OCS Lands Act as all other recent 5-year programs. As 
we are early in the new program development it is not possible to say 
if, or how, the new program may differ from the current approved 
program.
  <bullet>  Atlantic

    --  In order to responsibly manage our Nation's natural resources, 
            we must first account for what we have. Please explain the 
            importance of conducting geological and geophysical 
            research in our offshore areas, and how we can use this 
            information to make informed decisions regarding resource 
            management.

    Answer. The main objective of the acquisition and analysis of 
geological and geophysical data is the development of maps and other 
information that can guide and inform our work on the OCS. This is done 
by incorporating the data acquired through G&G surveys and analyzing 
technical information, which develops a basic knowledge of the geologic 
history of an area and its effects on hydrocarbon or strategic/critical 
minerals generation, distribution, and accumulation within the planning 
area. G&G surveys are not used exclusively for oil and gas exploration. 
Seismic surveys, which include geologic coring, are also helpful in 
identifying sand used for restoration of our Nation's beaches and 
barrier islands following severe weather events and for protecting 
coasts and wetlands from erosion. Recent examples of BOEM's sand 
restoration projects include New Jersey, where Long Beach Island has 
been restored in response to erosion caused by Hurricane Sandy and 
Louisiana, where 1,100 acres of marsh, dune, and beach habitat at 
Whiskey Island have been reconstructed. Seismic and geologic coring 
surveys also provide information that is vital to the siting and 
development of offshore renewable energy facilities. G&G surveys also 
help to advance fundamental scientific knowledge and are currently 
conducted in the Gulf of Mexico and in countries around the world.


                  Questions Submitted by Rep. Grijalva

Sacred Sites:

    Question 1. Mr. Secretary, without thoughtful review, land 
management decisions relating to mining and energy development have the 
potential to degrade and desecrate sacred sites, areas, and landscapes. 
How will your approach to energy development on public lands comply 
with the Federal Government's legal and moral obligation to protect and 
preserve sacred places and Native Peoples' religious cultural rights 
and practices?

    Answer. I strongly believe the Department can responsibly develop 
energy resources while working in coordination with tribes on a 
government-to-government basis. I am committed to working with tribes 
to ensure meaningful consultation on land management decisions occurs, 
not only with the Bureau of Land Management, but also with other 
cooperating bureaus that would have an impact on tribes.

Tribal Climate Resilience:

    Question 2. Are American Indian and Native Alaskan communities 
facing profound challenges to their culture, economies, and livelihoods 
because of climate change?

    Answer. The Department is working to support tribal governments and 
trust land managers through the Bureau of Indian Affairs' Tribal 
Resilience Program (TRP) with training, data, tools and access to 
technical experts in order to understand the vulnerabilities of these 
communities and identify risk management strategies. Coastal tribes in 
particular face risk management challenges ranging from harmful algal 
blooms, to ocean acidification, degrading ecosystems, changes in food 
availability, and storm surge and disaster recovery.

    Question 3. Would you agree that the Federal Government has an 
essential and unique role in helping tribal nations prepare for and 
adapt to the impacts of climate change on their land and natural 
resources?

    Answer. As indicated in the response to the previous question, the 
Department fills an important role through the TRP, which coordinates 
with other Federal, tribal, and state partners to invest in information 
and tools needed to support managers, thus enabling tribal and trust 
managers to implement strategies for resilient communities and to 
encourage cooperative solutions.

    Question 4. Why does this budget eliminate the Tribal Climate 
Resilience program?

    Answer. The budget request made difficult choices this year. The 
Department's budget prioritizes self-governance and self-determination, 
and focuses funding in Indian Country on core service activities, fully 
funding the costs for tribes to administer programs for themselves, and 
maintains essential management functions for tribal resources, among 
other things.

    Question 5. The Bureau of Indian Affairs' Tribal Climate Resilience 
Program was one of the few programs at BIA with the word `climate' in 
its name. As of last week, the word `climate' has been removed from the 
title of the BIA program. Did you direct your staff to not use 
``climate change,'' in written memos, briefings or other written 
communication?

    Answer. No, Department staff have not been directed in this manner. 
As an example, climate change continues to be listed as a priority on 
the Department's official website.

    Question 6. Did the President direct your staff to not use 
``climate change,'' in written memos, briefings or other written 
communication?

    Answer. No.

Regional Biosecurity Plan for Micronesia and Hawaii:

    Question 7. The National Invasive Species Council is located within 
the Department of the Interior and is responsible for coordinating the 
Regional Biosecurity Plan for Micronesia and Hawaii. Will you commit 
the Department of the Interior to full participation in implementing 
the Regional Biosecurity Plan?

    Answer. The Department understands the importance of biosecurity in 
the Pacific region, and we continue to support the intent and scope of 
the Regional Biosecurity Plan, which supplements ongoing activities at 
the Department to deal with invasive species. The Department is 
coordinating with NISC and other relevant Federal agencies to implement 
the Regional Biosecurity Plan.

Policy and Managerial Decisions:

    Question 8. Can you point to a single significant policy or 
managerial decision you have made as Secretary that has been to the 
detriment of the coal, oil, and natural gas industries?

    Answer. As I said at my confirmation hearing, as Secretary I am 
committed to managing our Federal lands in a way that best serves those 
who use it, including for recreation, conservation, and responsible 
energy development.

Coal Industry Jobs:

    Question 9. How many Americans were employed in the U.S. coal 
industry in 1985?

    Question 10. How many Americans were employed in the U.S. coal 
industry in 2008?

    Question 11. What factors do you believe led to the decline in U.S. 
coal jobs between 1985 and 2008?

    Question 12. According to both you and President Trump, the ``war 
on coal'' is now over. You have enacted policies and made decisions 
with the intent of reviving the U.S. coal industry. How many jobs do 
you expect to return to the U.S. coal industry by November 2020?

    Question 13. Are you confident that there will be more jobs in the 
U.S. coal industry in November 2020 than there were in November 2016?

    Answer to Questions 9-13. One of my key priorities at the 
Department of the Interior is to support the Administration's America 
First Energy Plan and maintain our Nation's energy dominance by 
advancing domestic energy production, generating revenue, and creating 
and sustaining jobs throughout our country. The free market development 
of our abundant coal resources is an important component of our overall 
energy mix. An all-of-the-above energy approach that includes coal has 
positive impacts on our economy and rural communities that depend on 
coal jobs.

Department of the Interior Employees:

    Question 14. As a Member of the House of Representatives and now as 
the Secretary you have said that the Interior Department needs more 
scientists in the field and fewer lawyers. However your FY 2018 budget 
request decreases full-time staff for the Bureau of Land Management by 
11.3 percent, the National Park Service by 6.4 percent, and the U.S. 
Geological Survey by 13.7 percent. Employees of these bureaus include 
biologists, geologists, chemists, forestry technicians, and other 
scientists. Conversely, the Office of the Solicitor--an office 
comprised almost entirely of lawyers--would add three full-time 
positions under your proposed budget. How does your budget proposal 
comport with your statements that the Department needs more scientists 
and fewer lawyers?

    Answer. The goal is to create a more efficient government that 
effectively delivers programs of the highest importance to the public. 
I have tasked my team to review all programs across the Department to 
determine if there is duplication, and if so, how best to consolidate. 
This review process remains ongoing.

Science-Based Decision Making:

    Question 15. Mr. Secretary, when you were still on this Committee, 
you stated in a 2015 hearing that with respect to the Interior 
Department's decision-making process, ``I think we need to be more 
science-based and less politics, and that would be helpful.'' However 
your budget includes significant cuts to numerous scientific programs 
that conduct vital scientific work. Do you have any science-based 
evidence that the threats facing our Nation's land, water, and wildlife 
from climate change have decreased to the point that these cuts are 
appropriate?

    15a. Do you believe that the cuts within your budget will allow 
decisions made by the Department of the Interior to be more science-
based?

    Answer. As I said at the hearing, in order to reach a balanced 
budget the Department had to make difficult decisions. I believe it 
will encourage the Department and its bureaus to be innovative when 
identifying ways to better manage programs and increase revenues. It is 
also a focused budget that will allow the Department to maintain its 
assets, offer a world-class experience on public lands, promote 
economic growth, and continue to provide unbiased, multi-discipline 
science for use in understanding, mapping, and managing natural 
resources.

Poaching and Trafficking:

    Question 16. Your proposed budget includes significant funding cuts 
for programs that fight poaching and trafficking. It reduces the Fish 
and Wildlife Service law enforcement and international affairs 
accounts, and slashes the Multinational Species Conservation Funds by 
nearly 20 percent. Do you have a plan for how to continue making 
progress in the fight against wildlife crime under these circumstances?

    Answer. The budget proposal maintains sufficient capacity to 
enforce wildlife laws; curb the poaching of some of the world's most 
iconic species, such as elephants and rhinos, by curtailing illicit 
trade; ensure sustainable legal trade; and reduce demand for illegal 
products.

Damage to National Wildlife Refuge Property:

    Question 17. Your budget includes a request for authority for the 
Fish and Wildlife Service to seek compensation from people who damage 
National Wildlife Refuge property. Both the Park Service and NOAA have 
similar authority. Why is it important for the Fish & Wildlife Service 
to have this authority?

    Answer. This authority is important because when Refuge System 
resources are injured or destroyed, the costs of repair and restoration 
falls upon the appropriated budget for the affected refuge, often at 
the expense of other refuge programs. Competing priorities can leave 
the Service's work undone until the refuge obtains appropriations from 
Congress to address the injury. This delay may result in more intensive 
injuries, higher costs, and long-term degradation of publicly-owned 
Service resources. The public expects that refuge resources, and the 
broad range of activities they support, will be available for future 
generations.

National Wildlife Refuge System:

    Question 18. Do you believe the proposed funding levels for Refuges 
are consistent with your vision of increasing access to America's 
public lands, while also managing and expanding the Refuge System to 
protect and enhance America's wildlife resources?

    Answer. Yes. Through the National Wildlife Refuge System, the 
Service continues the American tradition, started by President Theodore 
Roosevelt in 1903, to protect fish and wildlife and their habitats and 
to provide recreation opportunities for hunting, fishing and other 
outdoor recreation. The proposed budget maintains a commitment to 
provide outdoor recreational opportunities in both rural and urban or 
suburban settings, as well as to support the vital role of volunteers 
on our Refuges.

Assistant Secretary for Insular Affairs:

    Question 19. When you do anticipate we will see the nomination of 
an Assistant Secretary for Insular Affairs? This is a priority for the 
people of the territories because it represents the equal treatment of 
their concerns with the Department's other programs and priorities.

    Answer. The President nominated Doug Domenech to be Assistant 
Secretary for Insular Areas on June 29, 2017, and Mr. Domenech's 
nomination was confirmed by the Senate on September 13, 2017.

Senior Executive Service (SES):

    Question 20. According to news reports, around three dozen Senior 
Executive Service (SES) staff within the Interior Department have 
received notices that they have been reassigned and transferred into 
new positions within the Agency. At the earliest possible time that you 
can disclose information while respecting privacy concerns, please 
provide answers to the following questions:

    20a. How many SES employees have been sent letters informing them 
that they were being transferred into new positions?

    20b. How many of these employees requested those transfers, and 
with how many employees were the transfers discussed, before the 
letters were sent?

    20c. What are the names and current positions of the employees who 
have received these letters? What positions are they being transferred 
into?

    20d. Please provide copies of these letters.

    20e. Of the individuals who have already received letters, identify 
those that work in the Washington, DC metropolitan area and are being 
moved to positions outside the Washington, DC metropolitan area.

    20f. Of the individuals who have already received letters, identify 
those that work outside the Washington, DC metropolitan area and are 
being moved to positions inside the Washington, DC metropolitan area.

    20g. Of the individuals who have already received letters, identify 
those that work in the Washington, DC metropolitan area and are being 
reassigned to positions within the Washington, DC metropolitan area.

    20h. Once the complete relocation costs for each employee being 
relocated is known, including any assistance for selling an employee's 
home, please provide the complete permanent change of station (PSC) 
move figures for each employee, their spouse, and dependents to the 
Committee.

    20i. Will you be sending similar letters to more SES employees in 
the coming months?

    20j. In total, how many SES employees do you expect to reassign and 
transfer?

    20k. As is recommended by the Office of Personnel Management, are 
these reassignments linked to individual Executive Development Plans 
for each employee? For any employee where the transfer is consistent 
with information contained in their Executive Development Plan, please 
provide information on how the transfer is consistent with the Plan to 
the Committee.

    20l. For any employee where the transfer is not consistent with 
information contained in their Executive Development Plan, please 
provide the analysis that was conducted or information that was 
reviewed in order to make the determination to transfer that employee.

    20m. Do you subscribe to the belief that there is a ``deep state'' 
operating within the Federal Government?

    20n. Are Interior Department SES employees a part of the ``deep 
state''?

    Answer. The Senior Executive Service is intended to be a corps of 
versatile, senior Departmental staff. When Congress created the SES 
corps, the intent was to construct a mobile cadre of Executives. Talent 
management and succession planning are crucial to the development of an 
effective SES corps. Managing talent within the SES ranks ensures the 
agency has qualified pool of executives who have the leadership and 
managerial expertise to occupy any number of different executive 
positions based on the needs of the organization. Developing the best 
leadership talent is essential, not just to support agency strategic 
planning, but to contribute to a thriving, sustained performance 
culture in the Federal workforce. The rotation of the SES corps through 
a variety of leadership positions has been recognized as an effective 
method of strengthening leadership and executive skills. Indeed, the 
Obama administration issued Executive Order (E.O.) 13714 on December 
25, 2015 on ``Strengthening the Senior Executive Service.'' That E.O. 
required agencies to develop plans to increase the number of SES who 
are rotated to different assignments ``to improve talent development, 
mission delivery, and collaboration.'' The E.O. established an annual 
Government-wide goal, beginning in FY 2017, of rotating at least 15 
percent of SES to different departments, agencies, sub-components, 
functional areas, sectors and non-Federal partners. In its 2016 
guidance to implementing the SES rotations requirement, OPM identified 
executive reassignment and transfers as two options for implementing 
SES rotations. The SES rotations at Interior were consistent with the 
Civil Service Reform Act (which created the SES), E.O. 13714, and OPM 
guidance on managing the SES.

Border Wall:

    Question 21. Secretary Zinke: You have indicated support for 
President Trump's proposal to construct a wall along the southern 
border. Construction of such a border wall would split the Tohono 
O'odham Nation and threaten the tribe's connection to its ancestral 
lands. How will President Trump's border wall respect tribal 
sovereignty and self-determination?

    Answer. I defer to the Department of Homeland Security for 
decisions on the details of the wall, but I expect the Department of 
Homeland Security will work closely in consultation with the Tohono 
O'odham Nation as it moves forward to secure our borders in accordance 
with the President's directives.

    Question 22. Federal agencies are required to initiate formal 
consultation with Fish and Wildlife Service if their actions ``may 
affect'' a listed species or designated critical habitat. President 
Trump's border wall would affect listed species or designated critical 
habitat. Federal agencies are required to prepare an environmental 
impact statement on major Federal actions ``significantly affecting the 
quality of the human environment.'' President Trump's border wall 
constitutes a major action significantly affecting the environment. 
Have the Departments of Homeland Security and U.S. Customs and Border 
Protection conducted a new analysis of the proposed wall?

    22a. Do they intend to do so before any construction takes place?

    Answer. I cannot speak to the actions undertaken or contemplated by 
another Department outside my purview and I defer to the Department of 
Homeland Security on this question. More generally, under my 
leadership, Interior bureaus will fully comply with the President's 
directives and existing law as they pertain to securing our borders and 
protecting the environment.

    Question 23. As you have noted, building a wall along the southern 
border is complex. Where then, would the wall go? On the Texan side of 
the Rio Grande? Down the middle of the river? Through Big Bend National 
Park? Through Tribal lands?

    Answer. As noted above, I defer to the Department of Homeland 
Security for decisions on the details of the wall.

    Question 24. How exactly will President Trump extract payment from 
Mexico to pay for the border wall?

    Answer. Decisions related to payments necessary to secure our 
border will be made by the President, in accordance with applicable 
laws.

    Question 25. Should money come from the Interior Department budget 
if Mexico refuses to pay?

    Answer. The Department of Homeland Security is the agency with 
responsibility for securing our borders.

National Heritage Areas:

    Question 26. Last year Senator John McCain requested that the 
National Park Service undertake a ``Reconnaissance Study'' of the Yuma 
Quartermaster Depot to determine its suitability to tell the nationally 
significant story of the past, present, and future of the Colorado 
River. I support his efforts. We know that the work in the field has 
been done by the NPS Intermountain Region. Can your office provide me a 
status report on the ``Reconnaissance Study''?

    Answer. I understand that the NPS continues to make progress on the 
reconnaissance survey of the Yuma Quartermaster Depot, but has not yet 
completed it.

    Question 27. Secretary Zinke, I understand that your community of 
Great Falls is considering asking for designation as a National 
Heritage Area. My community in Arizona has had pretty good results in 
Yuma with the program. What are your general thoughts about the 
National Heritage Area program, which seeks to conserve national and 
historic resources through a community-based approach, as opposed to a 
top-down approach?

    Answer. National Heritage Areas provide cultural benefits, and are 
an example of the benefits of partnerships. However, the President's 
budget proposes to balance the Federal Government's budget by 2027, in 
order to do this priorities must be identified. The 2018 budget 
prioritizes taking care of the assets we currently own. The majority of 
ongoing operational requirements cannot be deferred and maintenance 
needs have been postponed for too long. The National Heritage Area 
Program can be supported through partnerships and community engagement.

Department Staffing:

    Question 28. I'm concerned about the March Executive Order to 
reorganize the executive branch and subsequent Office of Management and 
Budget (OMB) memo on reducing the Federal workforce (M-17-22) and what 
that could mean for Interior Department agencies. In the case of the 
National Park Service, I understand that staff levels have been in 
decline, there are now more than 1,500 vacant positions, and that 
Interior has frozen hiring for certain positions as a result of this 
effort. Secretary Zinke, for your confirmation hearing both your verbal 
and written testimony indicated one of your priorities is to ensure 
that park rangers have the resources they need, but this exercise 
threatens that priority.

    28a. What has the Department's position been on this government 
reform effort in conversations with OMB?

    28b. Can you commit to following through on your commitment to 
support staff by ensuring that the Park Service and other Interior 
agencies aren't further understaffed as a result of this exercise?

    Answer. This review process remains ongoing within the Department. 
I have tasked my team to review all programs to determine if there is 
duplication, and if so, how best to consolidate. The goal is to create 
a more efficient government that effectively delivers programs of the 
highest importance to the public. We anticipate a larger effort may be 
folded into the FY 2019 budget process.

    Question 29. The March Executive Order on reorganizing the 
Executive branch and subsequent OMB and DOI guidance concern me a great 
deal. It appears the exercise could be used as an excuse to further 
understaff the park service and other land agencies and cut funding for 
certain programs the administration may not find to be critical. The 
OMB guidance on reducing the Federal workforce (M-17-22) directs 
agencies to use the FY 2018 and FY 2019 budget processes to drive 
workforce reductions. However, while there may well be carefully 
considered opportunities for reform within Interior agencies, I'd like 
to remind you that funding levels for staff and specific agency 
programs are ultimately up to the appropriations committees. To 
prematurely attempt some of these reorganization efforts that would be 
subject to the decision of appropriators without our consultation and 
consent would be a poor use of agency resources. Can you commit to soon 
updating us in writing on the status of this exercise and commit to be 
in regular contact with us in regard to it?

    Answer. As I indicated in response to the previous question, this 
review process remains ongoing within the Department, and we anticipate 
the larger effort may be folded into the FY 2019 budget.

    Question 30. What is the current status of the workforce reduction 
exercise subsequent to the March Executive Order to reorganize the 
Executive branch and subsequent OMB memo on reducing the Federal 
workforce (M-17-22)?

    30a. Please list by agency the programs you will seek to eliminate 
or merge for each Interior agency.

    30b. Please list the staff positions you intend to eliminate for 
each Interior agency.

    Answer. This review process remains ongoing within the Department, 
and we hope to have outcomes to the larger effort folded into the FY 
2019 budget.

Ethics Waivers:

    Question 31. On January 28 of this year, President Trump issued 
Executive Order 13770 entitled: Ethics Commitments by Executive Branch 
Employees. Among other provisions, E.O. 13770 states that appointees in 
the Trump administration will not work on matters they used to lobby 
on, or on matters involving their former employers or clients, for a 
period of 2 years after they are appointed.

    31a. Are you familiar with E.O. 13770, and is it your intent for 
the Interior Department to comply with it?

    31b. Assuming that Mr. Bernhardt is confirmed to be your Deputy 
Secretary, will you require him to comply with E.O. 13770--meaning he 
will not be permitted to work on any matters he was involved in as a 
lobbyist for 2 years?

    31c. Have you been involved in any discussions regarding the 
possibility that Mr. Bernhardt might receive a waiver from complying 
with the E.O.?

    31d. Would you recommend to the President that Mr. Bernhardt 
receive such a waiver?

    31e. Would you make such a waiver public?

    31f. How would such a waiver serve the public interest?

    31g. Have any such waivers been granted to anyone in the Department 
and if so, will you make those waivers public?

    31h. How is nominating Mr. Bernhardt to serve as your Deputy 
consistent with ``draining the swamp'' here in Washington?

    31i. Can you assure this Committee that none of the nominees for 
the remaining Senate-confirmable jobs will turn out to be lobbyists for 
clients with interests before the Department?

    31j. Will you commit to making any waivers of E.O. 13770 granted to 
any employee of the Department of the Interior available to the public?

    Answer. Under my leadership, all Department staff have complied and 
will comply with all applicable ethics requirements and will seek the 
guidance of the Department's Designated Agency Ethics Official when 
clarification is necessary.

Interior Department Hiring Strategy:

    Question 32. Mr. Secretary, you've ordered a hiring freeze for any 
position in Washington, DC and Denver. Interior agencies are also 
subject to a freeze for any GS-12 and higher position, no matter the 
location. Your office must approve waivers to fill these positions and 
has placed a priority on positions involved in oil and gas development. 
You have repeatedly said that Interior's energy strategy will be ``all 
of the above,'' yet you have singled out positions focused on oil and 
gas development for priority hiring. While some agencies within 
Interior are centered on energy development, the NPS and FWS are not, 
and it goes against their mission. It is concerning that you are 
putting a priority on oil and gas development to fill jobs within these 
agencies. Are you trying to change the mission of these two agencies 
with this new hiring strategy?

    Answer. No. With regard to the waiver process, it has been 
structured so that it should not significantly impact the Department's 
ability to address necessary staffing requirements.

Protecting Public Lands:

    Question 33. Mr. Secretary, you've said repeatedly that the review 
of national monuments is not about selling public land. Can you 
guarantee that not 1 acre of Federal land will be given to state or 
county control during your tenure as Secretary?

    33a. If you do give that land away, can you guarantee none of it 
will be sold to private interests?

    Answer. As I have previously stated on multiple occasions, I am 
firmly against the large-scale sale or transfer of Federal lands. I 
also support taking care of the land we own. In all instances, we will 
comply with the laws established by Congress for the management of our 
Federal lands.

National Monuments Review:

    Question 34. Mr. Secretary, you've said the governor and state 
congressional delegation have to be consulted before you make 
recommendations on national monuments. So far you've only met with the 
Republican governors of Utah and Maine. How many governors do you plan 
to meet with as part of this review?

    34a. Just to look at the states affected by this monument review, 
have you reached out yet to the Democratic governors of Washington, 
California, Oregon, Hawaii, Colorado, Connecticut, Rhode Island or 
Montana?

    Answer. To comply with the President's Executive Order, and provide 
a recommendation to the President, we have sought input from 
stakeholders on all levels, from governors, tribal leaders, and Members 
of Congress, to locals on the ground and county commissioners and I 
thank you for the time you took to provide your written comments as 
well. We took all this information into consideration before making 
recommendations to the President.

    Question 35. Mr. Secretary, during your hearing before the Senate 
Energy and Natural Resources Committee you informed Senator Gardner 
that Canyons of the Ancients wasn't ``currently on our priority list.''

    35a. Will you share with this Committee what is on your priority 
review list?

    35b. If the public comment period is still underway what determines 
whether a monument is a priority for review?

    35c. What does it take for a monument to be left alone or removed 
from the review list?

    35d. How can the public trust this review process if we have just 
now discovered that there is a second list of monuments that are 
especially threatened by this review?

    35e. Shouldn't the public, elected officials and other stakeholders 
have been aware of this when the comment period started?

    Answer. On May 11, 2017, the Notice of the Opportunity for Public 
Comment was published in the Federal Register, which included a list of 
national monuments under review by the Secretary in accordance with the 
President's Executive Order. The public comment period related to the 
Bears Ears National Monument closed on May 26, 2017, and the comment 
period for all other National Monuments closed on July 10, 2017. The 
Secretary evaluated comments and, in certain instances, visited 
monuments as he prepared his recommendations for the President. As 
monuments were reviewed and found to require no modification, the 
Department removed them from the review and letting press and local 
stakeholders know the Department's decision to keep all interested 
parties informed. A draft report was submitted to the President on 
August 24, 2017, and the final report was released to the public on 
December 5, 2017 and may be found at https://www.doi.gov/sites/doi.gov/
files/uploads/revised_final_report.pdf. Final action and authority 
rests with the President.

Access to Public Lands:

    Question 36. Mr. Secretary, according to the BLM, the American 
public does not have adequate access to 23 million acres of BLM-managed 
land, primarily because of land ownership. The previous administration 
dedicated $8 million in 2017 to improving access to these public lands 
by purchasing adjacent property or securing rights-of-way, but your 
budget includes no funds for this purpose. Wouldn't you agree that this 
limits access to BLM land for American hunters, anglers, and outdoor 
enthusiasts?

    Answer. This budget supports efforts to expand access to 
recreational opportunities through targeted investments. Infrastructure 
related investments at our land management bureaus will address areas 
like trail maintenance and signage, which are critical to ensuring 
access to public lands and safety.

The Antiquities Act:

    Question 37. Mr. Secretary, I have heard you say on numerous 
occasions that your top priority as Secretary of Interior is to ensure 
that the Federal Government is a good neighbor and steward of public 
resources. Recommending executive action to decrease protections for 
national monuments would go directly against this fundamental 
principle. Does the President have the legal authority to shrink or 
abolish national monuments?

    Answer. Being a good neighbor remains one of the Department's top 
priorities. Our goal throughout this review process has been to listen 
to our state, local, tribal and Federal partners and make 
recommendations that reflect the wishes of the neighbors who are most 
affected by these monuments. Ultimately, however, our role in the 
review of monuments is to provide a recommendation to the President. 
Final action and authority rests with him.

National Park Service Services:

    Question 38. Since 2011, National Park Service commercial services 
staff has declined by 10 percent. Meanwhile, the number of commercial 
leases has increased by 25 percent, and the number of Commercial Use 
Agreements has nearly tripled. Moreover, the program's workload keeps 
growing, particularly as the agency begins to award new contracts under 
the Visitor Experience Improvements Authority established by last 
year's National Park Service Centennial Act. Your budget proposal 
includes an over half a million dollar cut to commercial services. How 
do you plan to increase P3 partnerships and ensure adequate oversight 
of public resources while reducing the amount of staff devoted to 
commercial services?

    Answer. The President's budget proposes to balance the Federal 
Government's budget by 2027, in order to do this priorities must be 
identified. The 2018 budget prioritizes taking care of the assets we 
currently own. It also focuses on leveraging public-private 
partnerships in order to improve visitor experiences on public lands 
and waters. In addition, as we move forward, I believe that we have to 
realign our employees to make sure that the focus is at the field 
level, rather than in layers of bureaucracy. I am committed to 
providing our front lines in the parks with the appropriate resources 
to get the job done.

Endangered Species Act:

    Question 39. Mr. Secretary, you have said recently that you think 
the states should play a larger role in species conservation but this 
budget proposal absolutely savages the funding streams that make this 
cooperative work possible, including cutting Cooperative Endangered 
Species Fund grants by $34 million to one-third of the current level. 
You can prevent listing species by doing proactive conservation work or 
you can recover species once they require listing; however, this budget 
cuts funding for both. Do you believe that these funding levels are 
adequate to help states be full partners in conserving fish and 
wildlife?

    Answer. The budget requests $19.3 million for the Cooperative 
Endangered Species Conservation Fund. The budget requests $10.5 million 
for conservation grants to states, $6.5 million for Habitat 
Conservation Planning assistance grants, and $2.3 million for 
administrative costs. The budget does not provide funding for land 
acquisition grants in order to focus resources on our current land 
management priorities. The Department encourages states' participation 
in developing recovery plans and proactive conservation work. For 
example, when the yellowcheek darter, a small fish native to forks of 
the Little Red River in Arkansas, was listed as endangered, the Service 
formed a recovery team comprised of yellowcheek darter experts from 
organizations including the Arkansas Natural Heritage Commission, 
Arkansas Game and Fish Commission, and others. These members are 
integral to development of the recovery plan and increasing 
participation in recovery efforts among private landowners. States, 
through the State Wildlife Grants have focused on proactive 
conservation projects; at least 19 domestic Candidate fish and wildlife 
species were conserved by state fish and wildlife agencies using State 
Wildlife Grant funds.

    Question 40. Along these same lines, you have long opposed the 
historic conservation agreement reached between states and the Obama 
administration to protect the greater sage-grouse and avoid an ESA 
listing. Your recent Secretarial Order requiring a review of the plans 
threatens to turn this conservation success story into a failure, and 
this budget is not helping. The budget cuts $11.5M--22 percent--from 
BLM's sage-grouse conservation efforts.

    40a. Do you think these cuts will have a negative impact on greater 
sage-grouse populations and sagebrush habitat?

    40b. Do you think these cuts make it more likely that the bird will 
require the protections of the ESA?

    40c. Do you oppose the inclusion of a rider on your Department's 
appropriations bill that would prevent you from listing the species 
even if it is shown that such an action is necessary to prevent 
extinction?

    40d. FY 2017 funding for sage-grouse conservation efforts is 
already out the door but your recent order has created uncertainty 
about if and how it will be used. Are BLM field offices authorized to 
use that funding for sage-grouse conservation efforts under the current 
conservation plan, or has your office ordered them to stop?

    Answer. The Department's 2018 Budget reflects the President's 
commitment to fiscal responsibility--proposing sensible and rational 
reductions and making hard choices to reach a balanced budget by 2027. 
This required the Department to take a thorough look at all of our 
mission areas to determine where we could potentially increase 
efficiencies yet continue the implementation of our multiple-use 
mission. The budget includes over $75 million in the Bureau's Wildlife 
Management Program to continue work on the sage landscape and maintain 
our commitment to sage habitat. BLM will continue restoration and 
conservation efforts in priority areas, which will benefit more than 
350 species. This budget continues conservation work with partners and 
supports science at FY 2017 levels. Legislative prohibition on listing 
the greater sage grouse would provide time to implement plans and work 
more closely with states to craft solutions.

    Question 41. As a Member of Congress, you voted against the 
protection of threatened and endangered species 100 percent of the 
time. You are now in charge of implementing the Endangered Species Act, 
not undermining it, but this budget shows that you may not have fully 
made that transition yet.

    Even though it is widely known that current funding levels are 
insufficient to make significant progress toward protecting and 
restoring imperiled fish and wildlife populations, this proposal 
slashes funding for species listing, recovery, habitat protection, 
consultation, and work with states and tribes to prevent listings.

    Given that we are in the middle of a global extinction crisis 
driven by irresponsible land use and climate change do you believe that 
this budget will allow you to meet your statutory obligations under the 
ESA to prevent extinction and recover threatened and endangered 
species?

    Answer. Yes, a total of $225.2 million is proposed to implement the 
Endangered Species Act and related programs under the Service's 
Ecological Services Program, of which $79.6 million is for recovery of 
species listed as threatened or endangered under the Endangered Species 
Act. A focus on recovery has recently resulted in the de-listing and 
down-listing of several high-profile species, including the West Indian 
manatee. Included in the Ecological Services request is $98.8 million 
to facilitate planning and consultation that will support economic 
recovery and job creation in the United States. Timely evaluations of 
proposed infrastructure, energy, and other development projects 
contribute to job creation and economic growth, while ensuring that 
impacts to native wildlife and habitat are avoided and minimized to the 
greatest degree possible. Funding will allow the Service to expedite 
project reviews and work with project proponents on appropriate 
mitigation and avoidance measures.

    Question 42. Republican Members of this Committee, including you in 
the past, have argued that the ESA is a failure because more species 
are not being de-listed. This is in spite of the fact that the ESA has 
been 99 percent effective in preventing species from going extinct.

    In order to be de-listed, though, species must be shown by the best 
available science to have recovered. Before the process of recovery can 
even begin, species must first be listed so that they can receive the 
protections of the Act just to ``stop the bleeding.'' This is the 
simple, stepwise fashion in which the ESA works.

    Unfortunately, this budget proposes to cut the listing program by 
more than 17 percent. It also proposes to cut the recovery program by 
more than $3.5 million.

    42a. Do you believe these cuts will allow you to meet your 
obligations to give species ESA protections when it is show that it is 
scientifically necessary?

    42b. Do you believe this budget will achieve your goal of de-
listing more species without running afoul of the requirement to base 
decisions on the best available science?

    42c. Do you believe that at these funding levels FWS will be able 
to avoid losing lawsuits over failing to take required actions to 
protect species in a timely manner?

    Answer. I still believe that ESA is in need of reforms and 
modernization so it can operate in a more effective manner. The FWS de-
lists and down-lists species when their status changes and resources 
are available. Getting species off the list due to recovery is a 
priority, and allows us to focus our attention and resources on species 
that need attention. The pace at which de-listings and down-listings 
occur is dependent on resources devoted to on-the-ground recovery 
implementation and the progress toward recovery of individual species, 
as well as on the complexity of status reviews and rulemakings. A total 
of $225.2 million is proposed in the President's FY 2018 budget request 
to implement the ESA and related programs under FWS's Ecological 
Services program, of which $17.1 million is for listing species and 
$79.6 million is for recovery of species listed as threatened or 
endangered under the ESA. At these funding levels, the FWS will 
continue to address the backlog of listing determinations and develop 
rulemakings for approximately 50 species that have been identified for 
potential de-listing or down-listing under the ESA based upon recent 5-
year status reviews. FWS plans on making final determinations for six 
species currently proposed for de-listing in FY 2018.

Resource Advisory Committees:

    Question 43. Time and time again, you have said you're a champion 
of public access and transparency. On your first day as Secretary, you 
signed Order No. 3347 which encourages access, conservation 
stewardship, and hunting and fishing activities. This order gave 
department agencies 30 days to report on Executive Order 13443, and 
then calls on the expertise of two Resource Advisory Committees to 
refine recommendations. You have since suspended ``all 225 different 
councils and boards . . . so [you] could ask what do you do, who is on 
your board, what have you done in the last year''--this includes the 
two which are involved in Secretarial Order 3347. How is this 
suspension improving access, transparency and efficiency at the 
Interior Department?

    Answer. As you note, Secretarial Order 3347 is designed to engage 
stakeholders on a variety of issues concerning management of public 
lands, including actions to improve habitat, cooperation with state 
wildlife managers, and access to the outdoors. We intend to work with 
stakeholder groups, including but not limited to the two referenced 
groups. The Department's review of advisory groups is ongoing. The 
review is intended to ensure the Department receives maximum feedback 
from these boards and that they are compliant with the Federal Advisory 
Committee Act (FACA).

Coastal Barrier Resources System:

    Question 44. The Fish and Wildlife Service (FWS) administers the 
Coastal Barrier Resources System (CBRS), established by Congress in 
1982 to prevent government-subsidized development from occurring in 
hazard-prone, undeveloped coastal areas. This simple yet ingenious 
program does not prevent private citizens from using their own money to 
develop land that is included in the System but it does prohibit the 
use of Federal funds including flood insurance, transportation and 
housing grants, and energy infrastructure assistance.

    44a. Do you agree that sea level rise, increased coastal flooding, 
and other hazards due to climate change are a threat to coastal 
communities?

    44b. Do you believe that taxpayers should be on the hook for 
bailing out individuals, companies, and localities that make risky 
development decisions?

    44c. Will you commit to funding the CBRS program at levels that 
reflect the urgent need to address the impacts of sea level rise on 
coastal communities?

    Answer. Coastal communities face weather-related challenges not 
experienced in other parts of the country. The Department will be a 
good partner in working with these communities to address changing 
climate conditions using adaptive management. Through the CBRA program, 
the FWS provides mapping products and data bases that are essential 
tools for conservation and restoration activities by other Federal and 
state agencies and the public and this budget provides sufficient 
resources to support those efforts.

Stream Protection Rule Job Figures:

    A February 21, 2017, a blog post on the Department of the 
Interior's (DOI) website claimed that the Stream Protection Rule (SPR), 
which was repealed by President Trump's signature of a Congressional 
Review Act resolution of disapproval, ``was estimated to put 7,000 
clean coal jobs in 22 states at risk.'' This figure appears to come 
from a widely discredited and outdated draft environmental study, 
generated by Polu Kai Services (PKS) under contract from OSMRE, and 
contradicts the job impacts published by the Department and OSMRE. An 
investigation by the DOI Office of Inspector General found that there 
was widespread dissatisfaction with PKS' performance. Furthermore, the 
OIG investigation found no evidence of any inappropriate behavior by 
anyone in the Obama administration in relation to the dispute over the 
job-loss numbers or the decision to allow the PKS contract to expire. 
This conclusion was also backed up by a multi-year investigation 
conducted by the House Natural Resources Committee, which was also 
unable to find evidence of any wrongdoing.

    Given this, I request answers to the following questions:

    Question 45. Please provide a source for the February 21 claim that 
the Stream Protection Rule put 7,000 clean coal jobs at risk.

    Question 46. Does OSMRE agree with the blog post claiming that the 
SPR would put 7,000 jobs at risk? If so, what is the evidence that the 
regulatory impact analysis performed for the final rule is less 
accurate than the February 21 blog post?

    Question 47. If the February 21 blog post was based on the DEIS 
completed by PKS, are the methods and standards used by PKS to develop 
the DEIS the same methods and standards Congress and the public should 
expect for work performed by OSMRE or DOI throughout the Trump 
administration?

    Question 48. Does OSMRE or DOI believe that the PKS DEIS from 2011 
adequately reflects the provisions of the final SPR published in 2016?

    Question 49. Does OSMRE or DOI disagree with the characterization 
of PKS' performance included in the OIG study? If so, what did the OIG 
miss?

    Question 50. How does the Department define ``clean coal''?

    Answer to Questions 45-50. President Trump signed H.J. Res. 38 into 
law on February 16, 2017, nullifying the SPR. Since then, the 
Department has renewed its focus to put America on track to achieve the 
President's vision for energy independence and bring important jobs 
back to communities across the country. Our Nation's abundant coal 
supplies are an important and stable component of the energy mix. The 
President's energy program will have positive impacts on employment in 
the communities that depend on coal industry jobs.

Office of Natural Resources Revenue Rule:

    As part of responding to the dozens of valuation and royalty-
collection recommendations from the past decade, on July 1, 2016, the 
Office of Natural Resources Revenue (ONRR) published a final rule 
entitled Consolidated Federal Oil & Gas and Federal & Indian Coal 
Valuation Reform, with an effective date of January 1, 2017. Despite 
the fact that the rule became effective on January 1, 2017, ONRR 
published a Federal Register notice on February 27, 2017, announcing 
that the effective date of the valuation rule would be postponed 
indefinitely due to legal challenges pending against the rule, using 
the authority under 5 U.S.C. 705 of the Administrative Procedures Act 
(APA). The legality of this action is highly questionable. It appears 
that ONRR has used this provision to repeal an active and in-effect 
regulation in contravention of the notice-and-comment procedures 
required by the APA.

    With the rule in full effect as of January 1, 2017, it became the 
role of the courts, and not ONRR, to adjudicate the challenges to the 
valuation rule. The rule cannot be unilaterally subverted by ONRR. In 
the light of this, I would like answers to the following questions:

    Question 51. Did DOI's Office of the Solicitor provide a written 
opinion or memo regarding the legality of postponing the effective date 
of a rule after the effective date has already passed? If so, please 
provide a copy of that opinion or memo.

    Question 52. Please provide any examples that the Department has of 
other rules where 5 U.S.C. 705 has been successfully invoked to delay 
the implementation date of a rule after the effective date has passed.

    Question 53. Did DOI's Office of the Solicitor review the February 
22, 2017, memo from ONRR?

    Question 54. Please provide the surnaming page of the Federal 
Register notice that was published on February 27, 2017, showing the 
identity of those officials within DOI who reviewed and approved the 
notice.

    Answer to Questions 51-54. As ONRR Director Greg Gould noted in his 
July 12, 2017 response to your previous letters, ONRR's stay of the 
rule is currently the subject of litigation and cannot be commented on 
at this time.

Backlog of Applications for Permit to Drill (APDs):

    The recent publication of internal Bureau of Land Management (BLM) 
strategy and communications documents has provided some disappointing 
insight into the intended focus of the BLM during the current 
administration. One of the more surprising items in the document is the 
instruction to, ``[a]ddress backlog of Applications for Permit to Drill 
(APDs).'' It is not clear that there is a significant backlog of 
unprocessed APDs; in fact, the BLM's own data indicate that there is a 
glut of drilling permits that the oil and gas industry cannot act on 
fast enough. According to the BLM's FY 2017 Budget Justification, there 
were 3,785 APDs pending at the end of FY 2015, but also 7,532 approved 
permits in industry's hands just waiting to be used.

    Question 55. Therefore, in order to understand the true nature of 
the ``backlog'' of APDs, please provide the number of ADPs that are 
pending and the number of approved ADPs waiting to be drilled as of the 
end of the FY 2016.

    Answer. The BLM estimates that, as of the end of FY 2016, there 
were 2,552 pending APDs and 7,950 approved APDs that had not been 
drilled.

U.S. Extractive Industries Transparency Initiative:

    In 2011, as part of the Open Government Partnership, the United 
States announced its intention to become an Extractive Industries 
Transparency Initiative (EITI) compliant country. The EITI Advisory 
Committee was scheduled to meet on June 7 and 8 to continue the work 
required of the United States to become EITI compliant. However, on May 
25, 2017, the Department of the Interior published a notice postponing 
the scheduled meeting, saying merely that it would be ``rescheduled at 
a later date.'' When combined with reports from earlier this year, this 
postponement appears to reflect a lack of commitment to EITI by this 
Administration. The Secretary of the Interior serves as the 
Administration's senior official representative for EITI 
implementation.

    Question 56. What is Trump administration's stance on the 
Extractive Industries Transparency Initiative?

    Question 57. Can you commit to holding the postponed U.S. EITI 
Advisory Committee meeting no later than the end of August, 2017?

    Answer to Questions 56-57. The Department of the Interior is 
committed to institutionalizing the principles of open government and 
accountability. The U.S. Department of State will continue to lead the 
United States' commitment to the EITI as a Supporting Country, a role 
that the United States has played since the beginning of the 
initiative.

Review of 5-Year Offshore Leasing Program, as Instructed by April 28 
        E.O.:

    The Department of the Interior has begun a review of the 5-year 
offshore leasing program, as instructed by President Trump's April 28, 
2017, offshore energy Executive Order. Given the likely adverse impacts 
of this action on the environment, fishing, and tourism industries, I 
am deeply concerned with President Trump's decision to lift the leasing 
ban in regions currently closed to development. Secretary Zinke, please 
address the following:

    Question 58. The Executive Order directs a review of areas 
currently closed off from drilling, including the Mid- and South 
Atlantic, the Chukchi Sea, and the Beaufort Sea. Please provide all 
risk assessments and analysis undertaken to determine how lifting the 
ban on drilling in these areas would not adversely affect fragile 
ecosystems or damage fishing, restaurant, or tourism interests.

    Answer. On May 1, 2017, I issued Secretarial Order 3350 to further 
implement the President's Executive Order entitled: ``Implementing an 
America-First Offshore Energy Strategy'' (April 28, 2017), in which I 
directed the Bureau of Ocean Energy Management to initiate development 
of a new 5-year OCS Oil and Gas Leasing Program. Section 18 of the OCS 
Lands Act prescribes the major steps involved in developing a 5-year 
program, including the ability of the Secretary to review and approve 
the leasing program. During the initial stage of program development, 
the Secretary examines all 26 OCS planning areas to consider and 
balance the potentials for environmental damage, discovery of oil and 
gas, and adverse impact on the coastal zone in making a decision on the 
Draft Proposed Program--the first of three proposals required in the 
Program development process. This process includes conducting risk 
assessment and analysis on the impacts of oil and gas development and 
production. Recently, BOEM began seeking a wide array of input during 
development of this new OCS leasing program, including information on 
the economic, social, and environmental values of all OCS resources. 
BOEM will also seek input on the potential impact of oil and gas 
exploration and development on other resource values of the OCS and the 
marine, coastal, and human environments. All of these analyses will be 
made public as they are completed. At this stage of development of a 
leasing program, no decisions have been made regarding what planning 
areas may be included in the new leasing program.

    Question 59. What additional actions or plans does the Department 
intend to take to protect coastal communities from the possibility of 
another catastrophic oil spill, particularly in light of the unique 
challenges of responding to an oil spill in these environments?

    59a. For example, has the Department conducted any analysis with or 
otherwise coordinated with the Coast Guard to ensure that Area 
Contingency plans are sufficiently robust to address an oil spill the 
magnitude of the Deepwater Horizon?

    Answer. The Department, through its Bureaus and the Office of 
Environmental Policy and Compliance (OEPC), serves on national and 
regional interagency oil spill response teams to develop and maintain 
detailed spill response policies, plans, and procedures, as well as up-
to-date Regional Contingency Plans, Area Contingency Plans, and site-
specific geographic response plans.

    The Bureau of Safety and Environmental Enforcement (BSEE) oversees 
oil spill planning and preparedness activities for offshore oil and gas 
exploration, development and production facilities in both Federal and 
state waters. BSEE reviews industry Oil Spill Response Plans to verify 
that owners and operators of offshore facilities are prepared to 
respond to a worst case discharge of oil; the U.S. Coast Guard 
participates in these reviews in certain situations. BSEE, in 
cooperation with the U.S. Coast Guard, validates the soundness of these 
plans by conducting exercises with operators.

    The Department and BSEE's (as well as other bureaus) oil spill 
preparedness program is a keystone component of the National Response 
System. As such, the Department regularly participates in meetings and 
supports activities by Regional Response Teams and Area Committees 
where offshore oil and gas operations are conducted. These groups are 
focal points for contingency planning with local, state and Federal 
partners including the Coast Guard. In addition, the Department 
formally engages the U.S. Coast Guard on a regular basis at both the 
regional and headquarters levels to support joint planning initiatives 
and information sharing.

    Question 60. The March 16, 2017 budget blueprint calls for a $1.5 
billion, or 12 percent, reduction to the Department's FY 2018 budget. 
How would these proposed cuts affect the ability of the Department to 
draft a new 5-year plan, which presumably would also include oil spill 
response and mitigation plans, while administering an even greater 
number of oil and gas leases?

    Answer. The Administration's budget makes difficult choices in 
focusing on and funding our top priorities and sets the course to a 
balanced budget by 2027, saving taxpayers $1.6 billion. Among the 
Department's top priorities is to boost domestic energy production to 
stimulate the Nation's economy and ensure our security while providing 
for responsible stewardship of the environment, which includes the 
development of a new 5-year plan. The budget reflects a careful 
analysis of the resources needed to advance this priority and to 
development our bureaus' capacity to carry out its functions carefully, 
responsibly and efficiently.

    Question 61. American fishing, tourism, and recreation industries 
rely on a healthy ocean ecosystem to generate billions of dollars each 
year in economic activity. If this review goes forward, please indicate 
what additional analysis the Department intends to conduct to determine 
what safeguards will be required to protect these industries.

    Answer. At this point, the Department is only establishing a 
schedule of potential lease sales and framing the geographic scope for 
which OCS development can occur. The process is guided by the OCS Lands 
Act which specifies eight factors that are considered in determining 
the timing and location of leasing, including location with respect to 
other uses and environmental sensitivity and marine productivity. As 
required by the law, I will consider each of these factors in deciding 
which areas will be contained in the next National OCS Oil and Gas 
Leasing Program. Public input is critical to this process. There are at 
least three points during the program preparation process when comments 
are solicited, analyzed summarized and used to develop the final 
program.

    Question 62. Given the significant growth of U.S. oil production on 
both private and public lands over the past 7 years, the United States 
is now one of the largest producers of crude oil in the world, and the 
world leader in total liquid hydrocarbon production. In fact, 
oversupply in oil production has led the United States to begin 
exporting crude oil for the first time in generations. Further, gas 
prices in 2016 were the lowest they have been in more than a decade. 
Given these market conditions, why is a new planning process required 
now, as opposed to waiting only 3 years to continue on the normal 
planning schedule?

    Answer. Developing a new National Offshore Oil and Gas Leasing 
Program that respects environmental and economic sensitivities but 
still allows us to responsibly develop our resources is critical to 
reaching President Trump's goal of American energy dominance. Offering 
more areas for energy exploration and responsible development was a 
cornerstone of the President's campaign and this action is the first 
step in making good on that promise for offshore oil and gas. Under the 
last administration, 94 percent of OCS acreage was off-limits to 
responsible development, despite interest from many state and local 
governments and industry leaders. This Administration is dedicated to 
energy dominance, growing the economy and giving the public a say in 
how our natural resources are used, and that is exactly what we are 
doing by opening up the Request for Information and a new OCS leasing 
program.
    Question 63. Under the current leasing program, approximately 70 
percent of the economically recoverable offshore resources in the OCS 
are available to the oil and gas industry for leasing. In the Gulf of 
Mexico, companies hold leases on approximately 16 million acres, but 
have developed only approximately 26 percent of that acreage. Please 
provide all the assessments and analysis the Department has undertaken 
to determine the need for additional leasing acreage at this time.

    Answer. As described in the previous response BOEM has initiated 
development of a new 5-year OCS Oil and Gas Leasing Program in which 
all 26 planning areas are considered. At this stage of development of a 
leasing program, no decisions have been made regarding the need to make 
available additional acreage for leasing.

    Regarding the statement that industry has only developed 26 percent 
of the acreage leased in the Gulf of Mexico, this percentage applies 
only to the number of leases currently producing, substantially 
understating the percentage of leases on which there is exploration or 
development activity. As of August 1, 2017, there are 2,912 active 
leases in the GOM of which 1,318 (45 percent) have had wells drilled or 
plans approved. Since oil and gas is not uniformly distributed across 
the OCS, there is always a risk of not finding oil and gas on leased 
acreage. New leasing in the Gulf of Mexico allows industry to better 
manage their prospect portfolios and mitigate these risks through 
access to additional acreage where there is potential for discovering 
new oil and gas fields on the OCS. It is important to note that prior 
to acquiring a lease through a BOEM lease sale, the oil and gas 
industry uses geophysical and other types of data extensively in order 
to identify promising prospects and bid on the acreage considered to 
have the best potential.

    During lease primary terms, operators have time to gather, process, 
and interpret additional data. Of course, not all leases contain 
drillable oil and gas resources and wells can be extremely risky and 
expensive to drill. Further, the finite number of drilling rigs 
available for contract limits the number of leases that can be drilled. 
Therefore, lessees are constantly evaluating and prioritizing the 
acreage in their lease inventory in order to drill the most promising 
leases first. This prioritization changes as the exploration process 
plays out (e.g., geological data comes in from new wells and/or new or 
reprocessed geophysical data is acquired, etc.). During the period 
after the lease is acquired, OCS projects compete for the operator's 
available capital with other prospects held by the operator in onshore 
and offshore oil and gas basins worldwide. This dynamic process of 
evaluating, ranking, and funding all worldwide projects of interest to 
a lessee is an important reason why lessees desire to maintain an 
inventory of leases so they can allocate and re-allocate capital 
expenditures as new information becomes available.

Secretarial Order 3349 and Executive Order 13783:

    On March 29, 2017, you signed Secretarial Order No. 3349, which was 
designed to implement the directive in the Executive Order of March 28, 
2017 (Executive Order 13783), to ``review all existing regulations, 
orders, guidance documents, policies, and any other similar agency 
actions . . . that potentially burden the development or use of 
domestically produced energy resources.'' The Executive Order and 
Secretarial Order also rescinded or ordered the rescission of a number 
of important Obama administration climate and mitigation policies, 
lifted the moratorium on new coal leases, and ordered the review of 
four common-sense regulations affecting oil and gas operations on 
National Park Service lands, fish and wildlife refuges, and other 
public lands. In order to understand the potentially massive changes in 
public lands policy and management that will arise from the Executive 
Order and Secretarial Order, please provide the following documents 
described in Secretarial Order 3349:

    Question 64. The list of all Department Actions related to 
mitigation policies provided to the Deputy Secretary by each bureau and 
office, as required to be completed by April 12, 2017, as per Section 
5(a)(i) of Secretarial Order 3349;

    Question 65. The list of all Department Actions related to climate 
change policies provided to the Deputy Secretary by each bureau and 
office, as required to be completed by April 12, 2017, as per Section 
5(b)(i) of Secretarial Order 3349;

    Question 66. The report from the Director, Bureau of Land 
Management, on the rule entitled, ``Waste Prevention, Production 
Subject to Royalties, and Resource Conservation,'' as required to be 
provided to the Assistant Secretary--Land and Minerals Management by 
April 19, 2017, per Section 5(c)(ii) of Secretarial Order 3349;

    Question 67. The report from the Director, National Park Service, 
on the rule entitled, ``General Provisions and Non-Federal Oil and Gas 
Rights,'' as required to be provided to the Assistant Secretary for 
Fish and Wildlife and Parks by April 19, 2017, per Section 5(c)(iii) of 
Secretarial Order 3349;

    Question 68. The report from the Director, Fish and Wildlife 
Service, on the rule entitled, ``Management of Non-Federal Oil and Gas 
Rights,'' as required to be provided to the Assistant Secretary for 
Fish and Wildlife and Parks by April 19, 2017, per Section 5(c)(iv) of 
Secretarial Order 3349; and

    Question 69. The reports from each bureau and office head provided 
to the Deputy Secretary that identify all existing Department Actions 
that ``potentially burden . . . the development or utilization of 
domestically produced energy resources,'' as required by April 19, 
2017, per Section 5(c)(v) of Secretarial Order 3349.

    Answer to Questions 64-69. On November 1, 2017, the Department 
announced the availability of the Final Report: Review of the 
Department of the Interior Actions that Potentially Burden Domestic 
Energy, prepared pursuant to Executive Order 13783. The Department 
published the report in its entirety in the Federal Register, and it is 
available at 82 FR 50532.

DOI Memo Directing Bureau and Acting Directors to Report to the Acting 
        Deputy Secretary:

    On April 12, 2017, you sent a memo to the Assistant Secretaries of 
the Department of the Interior directing them to ensure that all bureau 
heads and office directors report to the Acting/Deputy Secretary on all 
``proposed decisions'' that have ``nationwide, regional, or statewide 
impacts,'' and that decisions may not be made until the Acting Deputy 
Secretary has ``reviewed the report and provided clearance.'' The memo 
also directs bureau heads and office directors to report to the Acting 
Deputy Secretary all FY 2017 grants and cooperative agreements of 
$100,000 or greater before the final award is issued, in order to 
``assess how we are aligning our grants and cooperative agreements to 
Department priorities.''

    In order for us to better understand how this memo will affect 
Departmental policy and operations, please provide answers to the 
following questions:

    Question 70. Has any guidance been provided to bureau heads or 
office directors regarding what constitutes a decision with 
``nationwide, regional, or statewide impacts''? If so, please provide 
that guidance.

    Question 71. Is the Acting Deputy Secretary maintaining approval or 
modification authority over the grants, cooperative agreements, and 
decisions that are provided to him as a result of the April 12 memo?

    Question 72. Has the Acting Deputy Secretary denied any grants or 
cooperative agreements, or required or requested changes to the terms 
of those grants or cooperative agreements, as a result of information 
provided to him as a result of the April 12 memo? If so, please 
identify those grants or cooperative agreements, and information 
regarding why the Acting Deputy Secretary denied or required or 
requested changes to those, as appropriate.

    Question 73. Who in the Secretary's office or Deputy Secretary's 
office, other than the Acting Deputy Secretary, is also reviewing the 
information provided to the Acting Deputy Secretary as a result of the 
April 12 memo?

    Question 74. For all grants and cooperative agreements awarded 
between April 12 and the date of this letter, please provide the 
information under items #1 through #11 as provided to the Acting Deputy 
Secretary under the ``Template for Data Call on Fiscal Year 2017 Grants 
and Cooperative Agreement Awards.''

    Question 75. For all records of decision issued after review by the 
Acting Deputy Secretary between April 12 and the date of this letter, 
please provide all information provided to the Acting Deputy Secretary 
under the ``Template for Data Call on Proposed Records of Decision and 
Other Significant Decision Documents.''

    Answer to Questions 70-75. The process was put in place to help me 
better understand where the approximately $5.5 billion in grant and 
cooperative agreement funding is going and how that benefits the 
Department's mission. I believe we must have a thorough accounting of 
how the Department distributes the taxpayer's dollar. The process has 
moved along quickly and once the review has been completed it will be 
suspended.

DOI Regulations Task Force:

    On April 24, 2017, an article in E&E News reported that you had 
appointed a task force for abolishing regulations, consisting of five 
political ``beachhead'' employees and one career staffer, but no 
Senate-confirmed personnel and no one with clear technical expertise in 
land management, wildlife management, environmental protection, or 
safety regulation. While the task force is required under Executive 
Order 13777, there is no reference to this task force in your 
Secretarial Order implementing Executive Order 13783 (S.O. 3349), and 
no information provided about how this task force will operate, where 
it fits in the regulatory review process created by S.O. 3349, whether 
any of its activities or decisions will be transparent and be made 
known to the public, whether it will accept public comments, or any 
other logistical detail. In order to better understand this task force 
and how it will operate, please provide the following information:

    Question 76. The names of each member of the task force and their 
qualifications for analyzing regulations related to land management, 
wildlife management, environmental protection, and safety;

    Question 77. How career staff with technical expertise in land 
management, wildlife management, environmental protection, and safety 
will be involved in the operations of the task force;

    Question 78. How the task force fits into the process laid out in 
Secretarial Order 3349;

    Question 79. The timeline for the regulatory task force to make 
decisions;

    Question 80. The criteria to be used by the task force to make 
decisions related to whether or not to modify or rescind existing 
regulations;

    Question 81. Whether there will be any public meetings of the task 
force and whether or not the task force will accept comments from the 
public; and

    Question 82. Whether any documents created by the task force are 
intended to be made public once the task force has completed its work.

    Answer to Questions 76-82. In addition to Associate Deputy 
Secretary James Cason's response to your May 2017 letter, we offer the 
following information. The Department's Regulatory Reform Task Force 
was established on March 15, 2017, and meets monthly to evaluate 
existing regulations and provide recommendations to the Secretary 
regarding their repeal, replacement, or modification. The Task Force 
focuses on regulations that: (1) place unnecessary burdens on the 
economy or the American people; (2) are outdated, ineffective, or 
unnecessary; or (3) are incompatible with regulatory reform principles 
or directions established in E.O. 13771 and 13777. The Department has 
invited public input to identify important areas of focus. Since 
publishing a Federal Register notice on June 22, 2017 (82 FR 28429), 
asking the public for ideas to lessen regulatory burdens, we have 
received approximately 215 public comments related to this effort. The 
public also has the opportunity to comment on the inclusion or 
exclusion of any individual regulatory action from the unified 
regulatory agenda, which is issued on a semi-annual basis in accordance 
with E.O. 12866. We have also established a website (https://
www.doi.gov/regulatory-reform) to periodically provide information to 
the public on regulatory reform and encourage the public to share ideas 
on specific regulations that should be repealed, updated, or otherwise 
improved. Regulation development will continue to be informed by public 
input and by agency expertise in the relevant subject matter, whether 
related to land management, wildlife management, environmental 
protection, or safety.

U.S.G.S. Climate Change Report:

    In May of this year, the Washington Post reported that officials 
within the Interior Department ordered employees at the United States 
Geological Survey (USGS) to remove a reference to climate change from a 
press release announcing the publication of a new study on sea level 
rise and coastal flooding. Scrubbing this press release over the 
objections of some of the scientists involved in the study deprived 
media outlets and the general public of the context of the study. In 
order to prevent future abuses of this kind, I request responses to the 
following questions:

    Question 83. Did Acting Deputy Secretary of the Interior James 
Cason, or anyone in his office, or at the Office of Management and 
Budget, review the USGS press release before it was issued?

    Question 84. If so, who made the decision to remove the line 
reported by the authors of the study to read: ``Global climate change 
drives sea-level rise, increasing the frequency of coastal flooding.''?

    Question 85. If not, what was the highest level Departmental office 
that reviewed and edited the press release?

    Answer to Questions 83-85. The U.S. Geological Survey announced the 
findings of the study entitled, Doubling of Coastal Flooding Frequency 
Within Decades Due to Sea-Level Rise in a May 18, 2017, press release 
consistent with existing practices for all Departmental press releases. 
The press release aimed to summarize the overall findings of the 
report, and did not undermine the study findings, as evidence by the 
opening line of the study's abstract, which stated, ``[g]lobal climate 
change drives sea-level rise, increasing the frequency of coastal 
flooding.''

Political Appointees Granted Ethics Waivers:

    On January 28, 2017, President Trump repealed President Obama's 
Executive Order No. 13770 and replaced it with his own Executive Order 
requiring all political appointees to sign an ethics pledge. As with 
his predecessor, President Trump reserved the right to issue waivers to 
exempt certain individuals from this ban. Unlike President Obama, 
however, President Trump is refusing to comply with the Office of 
Government Ethics' request for a list of those political appointees 
granted such waivers. The current Administration's refusal to comply 
with this completely reasonable and standard request for information 
flies in the face of the President's repeated claims to support an open 
and transparent government of which the American people can be proud.

    Question 86. In the interests of clarity and openness, please 
disclose all ethics waivers granted since the beginning of the current 
Administration for political appointees working for the Department of 
the Interior.

    Answer. We are not aware of any ethics waivers granted since the 
beginning of this Administration for political appointees at the 
Department.

Review of National Monuments:

    On April 26, 2017, President Trump ordered a sweeping review of a 
wide range of national monuments established under the Antiquities Act 
in the last 20 years. The Executive Order directed the Department of 
the Interior with 45 days to issue a report on the Bears Ears National 
Monument in Utah and any other monument determined appropriate for 
inclusion in the interim report. The justification for this review was 
the allegation that certain monument designations were made without 
sufficient public input and a review was needed to allow the American 
people to comment on their national monuments. The justification for 
this review was the allegation that certain monument designations were 
made without sufficient public input and a review was needed to allow 
the American people to comment on their national monuments.

    Question 87. In the spirit of transparency and open government, 
please provide a detailed itinerary and list of your meetings while in 
Utah and any other location associated with the review of national 
monuments.

    Question 88. Additionally, please provide an account of all 
comments received during the public comment period that includes a 
tally of positive and negative submissions.

    Answer to Questions 87-88. A draft report, which includes the 
Department's findings and recommendations on national monuments was 
submitted to the President on August 24, 2017 in accordance with the 
President's Executive Order. The final report was released to the 
public on December 5, 2017 and may be found at https://www.doi.gov/
sites/doi.gov/files/uploads/revised_final_report.pdf. Final action and 
authority rests with the President.

Methane Waste Rule Pullback:

    On June 15, 2017, in apparent contravention of the Administrative 
Procedures Act (APA), the Bureau of Land Management (BLM) published in 
the Federal Register a postponement of the effective date of portions 
of the BLM's rule on methane waste, titled Waste Prevention, Production 
Subject to Royalties, and Resource Conservation (Methane Waste Rule). 
As with the Department's postponement of the Consolidated Federal Oil & 
Gas and Federal & Indian Coal Valuation Reform (Valuation Rule) 
regulation on February 27, 2017, the authority claimed for postponement 
of the effective date is Section 705 of the Administrative Procedures 
Act (5 U.S.C. 705), a questionable interpretation of that section that, 
to my knowledge, the Department has made no effort to defend as of this 
date. Postponing the compliance dates contained in the Methane Waste 
Rule unlawfully deprives the American people of valuable revenue, 
wastes a non-renewable resource, and threatens people's health by 
increasing the amount of harmful pollution in our air. Please provide 
answers to the following:
    Question 89. Did DOI's Office of the Solicitor provide a written 
opinion or memo regarding the legality of postponing the compliance 
dates in a rule after the effective date of that rule has already 
passed? If so, please provide a copy of that opinion or memo.

    Question 90. Did DOI or BLM perform a legal analysis of the Methane 
Waste Rule under the four-part test for preliminary injunctions? If so, 
please provide a copy of that analysis.

    Answer to Questions 89-90. The BLM's Waste Prevention Rule is 
currently the subject of ongoing litigation. I note that in the June 
15, 2017 Federal Register publication postponing certain compliance 
dates for the rule, the BLM concluded that, in light of the pending 
litigation related to the rule and the ongoing administrative review of 
rules, postponement of the January 2018 compliance dates would be in 
the interest of justice, consistent with section 705 of the 
Administrative Procedure Act.

                  Questions Submitted by Rep. Huffman

    Question 1. Reliable broadband access can frequently be hard to 
come by in rural communities that border our public lands. As you may 
know, I recently introduced the Public Lands Telecommunications Act, 
which provides public land management agencies with fee retention 
authority to increase funding for telecommunications deployment, and 
cooperative agreement authority to improve partnerships with local 
communities and the private sector to expand broadband access. I have 
long believed that our public land management agencies could do more to 
improve broadband access in remote and rural communicates.

    How do you believe the Department of the Interior could achieve 
this aim with new, sustained funding for telecommunications deployment, 
as well as cooperative agreement authority to improve partnerships with 
our constituents and the private sector?

    Answer. The Administration has not been requested to provide its 
position on your bill, H.R. 2425, the Public Lands Telecommunications 
Act, which was reported out of the House Natural Resources Committee on 
June 27, 2017. However, the Department supports innovative public-
private partnerships, and believes that they are important for 
management of all Federal lands. I have consistently advocated for 
increased Internet access on our Federal lands to help enhance the 
outdoor experience for visitors, particularly millennials.

    Question 2. Ranching is important to my district. Last year, I 
rallied with local cattle and dairy operators to fight a lawsuit that 
would have limited their grazing rights in the Point Reyes National 
Seashore area. This is because I believe that carefully management of 
land resources can allow ranching and conservation to co-exist.

    In my district, the Marin Carbon Project has demonstrated that 
rangeland soils can achieve significant carbon sequestration through 
use of `carbon farming' techniques, such as the application of compost 
as a soil amendment. Barriers to such carbon farming techniques from 
being more widely among California's ranching community include lack of 
state and Federal funding, and lack of understanding among conservation 
and land management agencies, and ranchers, regarding how carbon gets 
stored and lost in soils.

    What steps could the Department of the Interior take to help local 
ranching communities integrate carbon farming techniques into 
traditional ranching practices?

    Answer. Being a good neighbor through better collaboration with 
local ranchers and ranching communities is a critical step to ensure 
the success of any government action. It is my belief that more 
meaningful involvement and cooperation with communities closest to our 
public lands will result in innovative ideas and practices as well as 
better stewardship of the land and its resources.

    Question 3. California salmon runs have collapsed during the recent 
drought, in both the Klamath and Bay-Delta watersheds. This year marked 
the lowest they have been on record, prompting a complete fisheries 
closure on the Klamath.

    3a. How will your agency prioritize salmon restoration in the 
coming fiscal year? How is this need reflected in the Department of the 
Interior's budget, as proposed in the President's Budget Request?

    3b. Does the Department of the Interior plan to participate in 
financing the proposed Delta tunnels (California WaterFix) that are 
currently under evaluation by Federal regulators and the Bureau of 
Reclamation?

    3c. Is there a finance plan for those tunnels? If so, can you 
provide it to us?

    3d. Are any Bureau of Reclamation contractors ready to pay their 
proportional share of the cost of the tunnels?

    3e. How confident are you that this project will not result in the 
large cost over-runs that are commonly characterize large 
infrastructure projects?

    3f. Is the Bureau of Reclamation considering asking Federal 
taxpayers to subsidize the construction of a Shasta Dam raise?

    Answer. The President's Budget Request includes funding for salmon 
restoration activities in the Klamath and Bay-Delta watersheds. While 
the National Marine Fisheries Service (NMFS) is the primary agency 
charged with implementing salmon protections; Bureau of Reclamation 
project operations support many NMFS activities. Pursuant to the 
Central Valley Project Improvement Act (CVPIA), the Department 
developed the Anadromous Fish Restoration Program's 2001 Final 
Restoration Plan, which identified 289 actions and evaluations that 
were determined to be reasonable given numerous technical, legal and 
implementation considerations. The annual appropriation bill from 
Congress provides budget authority based on estimated CVPIA 
collections, and the obligation of these funds can only occur after the 
collections are made.

    The President's budget request includes $9.2 million for the 
Klamath Project for ESA activities for the 2013 Biological Opinion that 
will be implemented over 10 years, including effects analysis of 
ongoing Reclamation project operations and the Klamath River Coho 
monitoring program.

    On June 26, 2017, the U.S. Fish and Wildlife Service and NMFS 
released biological opinions on the proposed construction and operation 
of California WaterFix. The Department has made no funding-related 
commitments and has not been engaged regarding the creation of a 
finance plan. No decisions been made on raising Shasta Dam, as 
alternative means of financing (primarily non-Federal) for the 
construction costs would have to be identified and approved by 
Congress.

    Question 4. Renewable energy development has broad bipartisan 
support, and plays a large and growing role in our economy. A 2017 
Department of Energy report found that solar supports 373,807 jobs. 
This is more than the number of jobs in natural gas (362,118), and over 
twice the number of jobs in coal (160,119). Wind also supports 101,738 
jobs. Smartly sited, large-scale renewable energy projects on public 
lands have drawn support from rural counties and other important 
stakeholders.

    If the new Administration is committed to an ``all-of-the-above'' 
energy strategy, then why is renewable energy the only energy program 
that is proposed to be cut?

    Answer. The America First Energy Plan is an ``all-of-the-above'' 
approach that includes oil and gas, coal, and renewable resources. The 
FY 2018 budget request funds onshore and offshore renewable energy 
development at a level that is expected to address current industry 
demand. The Department is also taking steps to improve its leasing 
processes, including implementation of BLM's competitive leasing rule. 
This will support a competitive leasing process for solar and wind 
energy development. The rulemaking updates and codifies acreage rent 
and megawatt capacity fees for wind and solar energy projects, 
establishes a new rate adjustment method that provides greater 
certainty and fair return for use of the public lands, provides 
incentives for leases within designated leasing areas, updates project 
bonding requirements, and incorporates sensible solar and wind energy 
policies into the right-of-way regulations.

    Question 5. On June 20, 2017, when Senator Cory Gardner asked you 
whether Canyons of the Ancients National Monument would be impacted by 
the broader Federal review of NMs, you mentioned that it wasn't on your 
``priority review list.'' This was despite the Canyons of the Ancients 
NM being specifically named on your list of National Monuments under 
review. Again, the following day (June 21, 2017), during a Senate 
subcommittee hearing, you indicated to Senator Tom Udall that you were 
unlikely to recommend changes to any New Mexico monuments.

    Stating that some National Monuments will be left alone, even 
though they were listed on the DOI ``priority review list'' and before 
the public comment period is finished, seems arbitrary. Which national 
monuments are actually on your ``priority review list?''

    Answer. All of the national monuments listed in May 11, 2017, 
Federal Register have been reviewed in accordance with the President's 
Executive Order. The Secretary evaluated comments and, in certain 
instances, visited monuments as he prepared his recommendations for the 
President. As monuments were reviewed and found to require no 
modification, the Department removed them from the review and let press 
and local stakeholders know the Department's decision to keep all 
interested parties informed. A draft report was submitted to the 
President on August 24, 2017 and the final report was released to the 
public on December 5, 2017 and may be found at https://www.doi.gov/
sites/doi.gov/files/uploads/revised_final_report.pdf. Final action and 
authority rests with the President.

PART II

    On May 24, 2016, Mr. John Bezdek, Senior Advisor to the Deputy 
Secretary, U.S. Department of the Interior, testified before the Water, 
Power and Oceans Subcommittee regarding the bills H.R. 4366, ``To 
affirm an agreement between the United States and Westlands Water 
District dated September 15, 2015, and for other purposes;'' and H.R. 
5217, ``To affirm ``The Agreement Between the United States and 
Westlands Water District'' dated September 15, 2015, ``The Agreement 
Between the United States, San Luis Water District, Panoche Water 
District and Pacheco Water District,'' and for other purposes.'' At the 
time, the Department of the Interior was supporting a legal settlement 
between the United States and Westlands Water District, and you have 
given no indication that this support no longer holds true in this new 
Administration. The Department of the Interior never responded to 
questions regarding this, that I repeatedly submitted, and as such it 
is my sincere hope that you will address the following questions now 
that they fall under your tenure.

    Question 1. Please provide an estimate of the total financial 
benefit that would be provided to San Luis Unit contractors if H.R. 
4366 and H.R. 5217 are enacted. Please include financial benefits 
associated with waiving Central Valley Project (CVP) repayment 
obligations, Reclamation Reform Act waivers, title transfers of 
property owned by the Federal Government and other direct and indirect 
financial benefits contained in both bills.

    Answer. The Department continues to support the enactment of 
legislation to resolve Reclamation's statutory obligation to provide 
drainage to the entire San Luis Unit, provided that an appropriate 
offset is identified. The settlement agreement authorized by H.R. 1769 
would relieve the United States' obligation to provide drainage service 
to Westlands Water District (Westlands) in exchange for relieving 
Westlands from the obligation to repay certain debts, primarily 
consisting of its share of capitalized construction costs for the 
Central Valley Project (CVP). While H.R. 1769 would reduce the need for 
appropriations related to this construction, it would have an upfront 
mandatory cost. If an appropriate offset were identified, the 
Administration would support H.R. 1769. The present value of the debts 
that would be relieved is estimated to be $331.1 million. Reclamation's 
assessment of the benefits to the San Luis Water District pursuant to 
the April 2017 Agreement between the United States and San Luis Water 
District is estimated at $69.1 million. These benefits primarily 
consist of the relief of current, unpaid capitalized construction costs 
for the CVP, relief of the current operations and maintenance 
obligations for the Grasslands Bypass Project and relief of the 
current, unpaid capitalized construction costs of the Demonstration 
Treatment Plant.

    Question 2. Under the settlement agreements, does the waiver of CVP 
repayment obligations include the capital obligation for the Trinity 
River Division facilities including the Trinity River hatchery?

    Answer. The relief of current, unpaid CVP capital obligations 
includes the Trinity River Diversion facilities, but does not include 
the Trinity River hatchery because the hatchery is considered non-
reimbursable.

    Question 3. If the settlement agreements are enacted, how much 
Trinity River Division water will be allocated under the new 9(d) 
contracts provided for in the settlements?

    Answer. The CVP is an integrated system and is operated as such. 
Reclamation does not allocate or quantify water deliveries uniquely 
from individual units/divisions of the CVP. Under the settlement, new 
9(d) contracts, if authorized by Congress, would continue to allocate 
CVP water as an integrated system, in compliance with Federal law, 
including then-existing biological opinions, and subject to shortage 
provisions.

    Question 4. As Trustee for the Hoopa Valley Tribe, how can the 
Administration agree to a settlement based on a CVP water supply to 
which the trust beneficiary tribe has first priority under Reclamation 
law, without ensuring that any pending dispute the San Luis Unit 
contractors have about that priority is fully and finally resolved in 
the beneficiary's favor?

    Answer. If the settlement agreements were approved by Congress, the 
Department would continue to fulfill its trust responsibilities to the 
Hoopa Valley Tribe, while managing the CVP as an integrated unit, 
subject to reclamation and other laws.

    Question 5. Section 3404(c)(2) of the Central Valley Project 
Improvement Act (CVPIA) requires the Secretary of Interior to 
incorporate in any contract for CVP water the provisions of the CVPIA 
and other law. Will you agree to fulfill that requirement in the 
agreements that would be authorized by the settlement, including: (1) 
the CVPIA requirement for contractors to pay for the costs of the 
Trinity River Restoration program for as long as water is diverted by 
the Trinity River Division; (2) acceptance of the separate priorities 
provided for in section 2 of the 1955 Act authorizing the Trinity 
Division and senior to diversions to the Central Valley? If not, why 
not?

    Answer. It is Reclamation's standard practice to include compliance 
with all applicable laws in any contract. In terms of funding, the 
Trinity River Restoration Program is funded by both the CVP Restoration 
Fund and appropriations. Westlands will continue to pay the CVP 
Restoration Fund charges based on its full contract amount, including 
on water above the 75 percent cap that Reclamation may use for other 
CVP purposes. Therefore, the Settlement will not impact CVP Restoration 
Fund collections.

    Question 6. Why does the Administration believe that this this 
drainage settlement should proceed when fundamental issues regarding 
entitlement to water for delivery to the San Luis Unit remain 
unresolved? If San Luis Unit contractors are not entitled to the water 
being sought in this settlement, wouldn't a consequent reduction in 
water deliveries to the San Luis Unit potentially resolve a portion of 
the drainage problem by reductions in CVP water deliveries to the San 
Luis Unit?

    Answer. Reclamation is unaware of any fundamental issues regarding 
its obligations to fulfill the San Luis Act of 1960 and deliver water, 
subject to certain conditions, to the CVP contractors in the San Luis 
Unit. Under the drainage settlement, the United States will have the 
exclusive right to use all CVP water made available to Westlands in 
excess of 75 percent of Westlands' contract quantity, or 895,000 acre-
feet. The United States' exclusive right to use the CVP water made 
available to Westlands in excess of 895,000 acre feet will also be an 
enforceable term in Westlands 9(d) repayment contract.

    Question 7. On December 23, 2014, the Solicitor of the Department 
of the Interior issued Opinion M-37030 regarding Trinity River Division 
Authorization's 50,000 Acre-Foot Proviso and the 1959 Contract between 
the Bureau of Reclamation and Humboldt County. In the 18 months since 
then, have the Department's water managers accounted for that opinion's 
conclusion in CVP operations models and estimates of water supply? If 
yes, what has the Department done? If not, why not?

    Answer. Reclamation has begun implementing the opinion through its 
Long Term Plan to Protect Adult Salmon in the Lower Klamath River, 
including through the development of an environmental impact statement 
supporting the Plan, and its flow augmentation in prior years. Each of 
these actions is supported by modeling of CVP water supplies that 
includes consideration of proviso 2 of the opinion.

    Question 8. In an April 21, 2016 letter to Representative David 
Valadao, Deputy Interior Secretary Michael Connor states that ``it is 
widely recognized that the drainage issue may have lessened over the 
last few years due to drought and irrigation efficiencies.'' Has the 
Department of the Interior developed any updated calculations since the 
2007 Record of Decision to estimate the current cost of providing 
drainage to the San Luis Unit? If no updated estimates have been 
developed, does the Department of the Interior believe--based on 
increased irrigation efficiencies and other developments since the 2007 
Record of Decision--that a current estimate of drainage costs would be 
less than the costs identified in 2007?

    Answer. While Reclamation has not completed a comprehensive 
analysis of the changes in drainage patterns and needs that may result 
from the changes in cropping patterns and irrigation efficiencies that 
have occurred in the San Luis unit since the a 2008 Feasibility Study, 
historic hydrologic records indicate that wet cycles will return and 
drainage will again become a substantial challenge in the San Luis 
Unit. A variety of factors influence the cost of providing drainage 
service. Some costs, such as the costs of evaporation ponds, reuse 
areas, collection systems, and selenium biotreatment, could be reduced 
by changes in cropping patterns or other irrigation efficiencies, while 
other costs such as land retirement could increase over time. However, 
any such future cost estimates are speculative absent additional 
analysis, and any such cost savings are not expected to result in 
savings of such a magnitude that the Department would not continue to 
support the Westlands Settlement and San Luis Agreement.

    Question 9. The Termsheet on the proposed Northerly District 
Agreement is vague about the future status of the San Luis Drain, and 
the future management and cleanup of sediments in the Drain. Under some 
scenarios, the future management of the Drain and its sediments could 
have an adverse impact on national wildlife refuges and other wetlands 
that Interior Department agencies are supposed to protect under 
numerous laws. For example, Section 3406(d) of the Central Valley 
Project Improvement Act requires the Secretary of Interior to maintain 
and improve wetland habitat areas in California, by providing water 
supplies and supporting the objectives of the Central Valley Habitat 
Joint Venture. In accordance with the Department of the Interior's 
wetlands-related responsibilities, what is the Department's plan for 
the future management of the San Luis Drain in and around the 
Grasslands complex of state, Federal and privately managed wetlands? 
How will the Department of the Interior ensure that all potential 
impacts from the Drain and its future management and cleanup will not 
adversely impact these wetlands and the numerous species they support 
before the Department of the Interior and the Bureau of Reclamation 
relinquish Federal control of the Drain?

    Answer. Reclamation intends to continue to use the San Luis 
Interceptor Drain for the purposes of conveyance of drain water and 
storm water for the duration of the Grassland Bypass Project, which 
operates under the terms of the 2009-2019 Agreement for Continued Use 
of the San Luis Drain between the San Luis & Delta-Mendota Water 
Authority and Reclamation. The impacts of this use were evaluated in 
Reclamation's Grassland Bypass Project 2010-2019, Environmental Impact 
Statement and Environmental Impact Report and resulting Record of 
Decision.

    Reclamation has met several times with Grasslands Water District 
and other stakeholders to discuss the possible future use of the San 
Luis Drain. However, no formal discussions have begun regarding the 
future use of the San Luis Drain outside of the general discussions 
with stakeholders.

    If the San Luis Drain remains in Reclamation ownership and a new 
stormwater use agreement is desired by the local stakeholders after the 
expiration of the Grasslands Bypass Project in 2019, or other uses were 
sought for the drain by the local stakeholders, then Reclamation would 
work to negotiate the appropriate agreements for those uses and comply 
with the National Environmental Policy Act and other applicable Federal 
law to determine the potential impacts of those uses. If title transfer 
for the San Luis Drain to another entity or entities is authorized by 
the Congress, compliance with the National Environmental Policy Act and 
other applicable Federal law would be required prior to the transfer. 
As part of the title transfer effort, Reclamation would work with the 
receiving entity or entities to determine anticipated future use of the 
drain and analyze this anticipated future use, as appropriate, in the 
National Environmental Policy Act documentation and in compliance with 
applicable Federal law, prior to such title transfer.

                 Questions Submitted by Rep. Napolitano

    Question 1. President Trump's Executive Order on the Review of 
Designations Under the Antiquities Act on April 26, 2017 stated, 
``Within 120 days of the date of this order, the Secretary shall 
provide a final report to the President.'' Do you expect the report to 
be finished on time?

    1a. Will your report recommend any action and/or changes through 
the legislative process or through Executive Order?

    1b. After these recommends, how can local residents, business and 
cities be confident to implement their city and business plans without 
fear that the President or the Interior Department will review their 
nearby designation again?

    Answer. A draft report, which includes the Department's findings 
and recommendations on national monuments in accordance with the 
President's Executive Order, was submitted to the President on August 
24, 2017, and the final report was released to the public on December 
5, 2017 and may be found at https://www.doi.gov/sites/doi.gov/files/
uploads/revised_final_report.pdf. As we move forward in managing the 
Federal lands, we will continue to coordinate with all levels, from 
locals on the ground and county commissioners to governors, tribal 
leaders, and Members of Congress to fulfill our mission to be a good 
neighbor.

    Question 2. Do you plan to visit the San Gabriel Mountains National 
Monument before the comment period ends on July 10, 2017?

    2a. If not, how do you plan to make a decision on the San Gabriel 
Mountains National Monument without meeting with local residents, 
businesses and cities?

    2b. What other information besides public comments made online will 
you take into consideration? Where will that information come from and 
who? How can local residents, businesses and cities ensure that that 
information is in their best interest?

    Answer. Each monument was reviewed in a holistic fashion. Although 
I was not able to visit the San Gabriel Mountains National Monument 
before the comment period ended, we heard from the local communities 
including state, county and federally elected officials, tribes, local 
businesses, and trade associations and I thank you for the input you 
provided to me. For all of the reviews, each group's input was weighed 
when we crafted recommendations for the President.

    Question 3. The monument designation has helped San Gabriel 
communities leverage additional Federal dollars for critically needed 
recreation, trail maintenance, trash collection and fire prevention. 
Seeing that three major fires--the 2009 Station Fire, the 2014 Colby 
Fire, and the 2015 Cabin Fire--have threated our local communities. How 
do you expect our region to continue to fight forest fires without this 
critical designation?

    Answer. Wildfires are not constrained by land ownership or land 
designation. The Department is committed to ensuring that all our 
firefighting assets are utilized in the most efficient way possible, 
regardless of land designation, and that we work with other Federal 
agencies, along with our state and local partners, to improve our 
operational efficiency and take advantage of the firefighting 
infrastructure and assets that are currently in place.

    Question 4. Thanks to the help of the designation, the monument has 
raised more than $5 million through the San Gabriel Mountains National 
Monument fund. One example, is Coca-Cola was has donated $900,000 
toward clean-up efforts in the forest. This was possible because USFS 
land cannot form private-public partnership unless they are designated 
a national monument. Seeing that the USFS and Interior Department 
budgets continue to shrink, do you believe public-private partnerships 
like the one listed above is important for our parks?

    a. Without a monument designation, how do you plan to allow USFS 
lands to form these partnerships?

    Answer. We support innovative public-private partnerships, and 
believe that they are important for management of all Federal lands, 
regardless of designation or land managing agency.

    Question 5. Many water agencies in the arid West are looking toward 
recycled water projects as the most cost effective solution to drought 
management; do you believe we should start to refocus our investments 
toward recycled water?

    5a. What does President Trump's budget do to support recycled water 
projects?

    5b. How can an increase in funding impact the amount of water 
projects that can be introduced in the drought-stricken West?

    Answer. I believe it is important to look at a wide range of 
approaches when it comes to helping the west effectively manage 
drought. The Bureau of Reclamation's Title XVI Water Reclamation and 
Reuse Program supports water supply sustainability by leveraging 
Federal and non-Federal funding to conserve tens of thousands of acre-
feet of water each year. Since 1992, approximately $672 million in 
Federal funding has been leveraged with non-Federal funding to 
implement more than $3.3 billion in water reuse improvements. 
Reclamation announced in July 2017 a new funding opportunity for Title 
XVI projects pursuant to new authority under the Water Infrastructure 
Improvements for the Nation Act (P.L. 114-322).

                   Questions Submitted by Rep. Sablan

    Question 1. In 2005, Interior's Office of Insular Affairs started a 
competitive system for allocating among the U.S. territories $27.72 
million in Covenant Funds that originally all went to the Northern 
Marianas to help build our public infrastructure. The Northern Marianas 
currently receives only about a third of the money. The competition is 
largely based on financial management criteria. Financial management is 
important but so is infrastructure. According to the EPA, Saipan, the 
main island in the Northern Marianas, is the only U.S. municipality 
without 24-hour potable water. That is a serious health concern. Isn't 
it time to look at new criteria for the $27.72 million in Marianas 
Covenant Funds, so that public health and safety needs are prioritized?

    Answer. The capital infrastructure project (CIP) program funds a 
variety of critical infrastructure needs in the U.S. territories, such 
as ports, hospitals, schools, water, public buildings, solid waste, 
energy and public safety. As you noted, the annual allocation of CIP 
funds is made on the basis of competitive criteria that measure the 
demonstrated ability of the governments to exercise prudent financial 
management practices and to meet Federal grant requirements. These 
criteria are evaluated and revised as necessary every 5 years.

    Question 2. OIA budget justifications for FY 2018 tout the 
importance of various programs including the Technical and Maintenance 
Assistance Programs, the Brown Tree Snake Control and Coral Reef 
Initiatives, and the Empowering Insular Communities program. Yet the 
request includes steep funding cuts to each of these programs. I 
appreciate the need to control spending, but these across-the-board 
cuts would likely end up costing much more, both at the Federal and 
local levels, if programs are not properly implemented. The Brown Tree 
Snake Control Program costs a few million, but if these snakes spread, 
as they have on Guam, the cost in damage to electrical systems and the 
extermination of native endangered birds would cost tens of millions or 
more. Isn't it a wiser use of taxpayers' money to prevent problems than 
to try to fix them after the damage is done?

    Answer. Overall, for 2018, the Administration identified areas 
where the Federal Government could reduce spending and also areas for 
investment, such as addressing the maintenance backlog across the 
National Park System and increasing domestic energy production on 
Federal lands. The 2018 budget requires restrained spending in order to 
meet the goal of balancing the budget within 10 years. Specifically 
with regard to the brown treesnake, we recently announced approximately 
$3.5 million through the Office of Insular Affairs to continue 
supporting efforts to control the brown treesnake on Guam and prevent 
its spread to Hawaii, the Commonwealth of the Northern Mariana Islands, 
and the larger Micronesian region. This supplements more than $250,000 
in brown treesnake investments made by the U.S. Geological Survey and 
the FWS in FY 2017.

    Question 3. Territorial Representatives Bordallo, Radewagen, 
Plaskett, and I sent you a letter dated March 9, 2017, asking that you 
retain the position of Assistant Secretary for Insular Areas. We have 
not received a response to date. The Office of Insular Affairs has 
administrative responsibility for coordinating Federal policy in the 
U.S. territories of the Northern Mariana Islands, Guam, American Samoa, 
and the U.S. Virgin Islands. Keeping the position of Assistant 
Secretary for Insular Areas, equal to other Assistant Secretaries in 
the Department, is an important symbol of respect for our constituents 
as it shows their concerns are taken as seriously as citizens residing 
in the states, and insular area issues are viewed equally significant 
as other issues under the Department's jurisdiction. In your 
reorganization of the Interior Department, will you retain the position 
of Assistant Secretary for Insular Areas?

    Answer. The President nominated Doug Domenech to be Assistant 
Secretary for Insular Areas on June 29, 2017, and Mr. Domenech's 
nomination was confirmed by the Senate on September 13, 2017.

    Question 4. In my reply to your letter soliciting comments to 
assist your review of the Marianas Trench National Monument under 
Executive Order 13792, I wrote about the promises made to the people of 
the Northern Mariana Islands that remain unfulfilled. For years, we 
have been urging Interior to produce the management plan, required when 
President Bush created the Monument. The plan is key to fishing and 
other resource use in the Monument, public education and outreach, and 
the development of a Monument visitors center. Please provide an update 
on any progress and a specific date for issuance of the Monument 
Management Plan the Fish and Wildlife Service has been working on for 8 
years now.

    Answer. FWS continues to work with its partners, including the 
Commonwealth of the Northern Mariana Islands, National Oceanic and 
Atmospheric Administration National Marine Fisheries Service, U.S. 
Coast Guard, and Department of Defense toward completion of a 
management plan for the Marianas Trench Marine National Monument.

    A number of steps have been taken to address or resolve important 
issues. FWS issued a patent under the Territorial Submerged Lands Act 
for the CNMI's territorial waters in December 2016. This was an 
important step in ensuring that the final monument management plan 
included all applicable jurisdictions and authorities, including that 
of the CNMI. NOAA Fisheries has developed and published fishing 
regulations for the Islands Unit of the Monument. Management 
regulations for the Trench and Volcanic Units were implemented under 
the National Wildlife Refuge System Administration Act of 1966, as 
amended, through Department of the Interior Secretarial Order 3284.

    A draft Monument Management Plan and associated Environmental 
Assessment are awaiting completion of the Administration's national 
monuments review and any associated Presidential decision arising from 
the Secretary's recommendations.

    Question 5. The Fish and Wildlife Service requests $470 million--a 
decrease of $13.8 million--for management of National Wildlife Refuges. 
This includes decreases to wildlife and habitat management, visitor 
services, law enforcement, and elimination of funding for refuge 
conservation planning. These cuts will surely ensure that American 
hunters, anglers, and other outdoor enthusiasts will have less access 
to sporting opportunities on public lands. Do you believe the proposed 
funding levels for Refuges are consistent with your vision of 
increasing access to America's public lands, while also managing and 
expanding the Refuge System to protect and enhance America's wildlife 
resources?

    Answer. Yes. Through the National Wildlife Refuge System, the 
Service continues the American tradition, started by President Theodore 
Roosevelt in 1903, to protect fish and wildlife and their habitats and 
to provide recreation opportunities for hunting, fishing and other 
outdoor recreation. The proposed budget makes tough choices that will 
lead to a balanced budget, but maintains a commitment to provide 
outdoor recreational opportunities in both rural and urban or suburban 
settings, as well as to support the vital role of volunteers on our 
Refuges.

                   Questions Submitted by Rep. Beyer

    Question 1. Please confirm for me that the contract for Dyke Marsh 
is on track to be awarded before the end of the fiscal year.

    Answer. I am advised that the NPS awarded the contract for 
construction at Dyke Marsh this past fall, but work will probably not 
begin this calendar year since not all permits are yet in hand. 
However, I understand that the construction documents are complete and 
the permit application process is well underway.

    Question 2. I increasingly hear concerns about traffic and traffic 
safety along the GW Parkway.

    2a. Please indicate how the Department tracks usage statistics for 
the Parkway.

    Answer. I understand that there are traffic counters on the roadway 
that track the number of vehicles on the George Washington Memorial 
Parkway (Parkway), trail counters on the Mount Vernon Trail to track 
bicycle and pedestrian usage, and entrance counters at some park sites 
that track vehicles and tour buses.

    2b. Please indicate how the Department tracks accidents along the 
Parkway.

    Answer. The United States Park Police (USPP) utilizes a centralized 
database, the Department's Incident Management, Analysis and Reporting 
System (IMARS), that allows law enforcement officers to electronically 
document accidents/incidents.

    2c. What is the Department doing to increase the safety of the 
parkway? Please speak to the Department's plans for Morningside Lane 
and how it will budget appropriately to be able to address safety 
concerns.

    Answer. The safety of park visitors is of the utmost importance. I 
understand that the NPS has implemented several recommendations from a 
2016 Federal Highway Association safety assessment of Morningside Lane. 
Also, NPS has scheduled an additional study to begin next year to 
identify alternate traffic patterns within the local community to 
increase safety at Morningside Lane.

    2d. What is the Department doing to improve the accuracy of its 
traffic counts?

    Answer. I am told that the NPS is currently assessing equipment 
along the Parkway and working to replace those pieces that are in 
disrepair.

    2e. What is the Department doing to improve how it tracks 
accidents?

    Answer. The USPP continue to work on crash reporting in IMARS. 
Specifically dispatchers are being trained to document detailed 
locations of crashes. This associated with previous improvements should 
allow for more detailed and accurate reporting.

                   Questions Submitted by Rep. Torres

Tribal Concerns:

    Question 1. Mr. Secretary, there has been some disturbing rhetoric 
coming from some members of this Committee, as well as some in the 
Administration, attacking the sovereignty of tribes and questioning the 
recognition process and the land into trust process. Will you reaffirm 
your and the Department's commitment to its trust responsibility to all 
tribes that are currently federally recognized, including the ability 
to take land into trust?

    Answer. I have said before that the importance of my mission as 
Secretary to partner with American Indians and Alaska Natives is one 
that I do not take lightly. Our duty as Americans is to uphold our 
trust responsibilities and consult and collaborate with tribes on a 
government-to-government basis.

    Question 2. To follow up on that, I would like you to address the 
ongoing issue that is the Carcieri decision. That decision has troubled 
Indian Country since it came down 2009, and has left many land 
decisions in limbo. It's been almost 10 years now--do you agree that 
Congress needs to resolve the Carcieri issue once and for all?

    Answer. Congress, as the trust settlor for all Indian Affairs 
matters, has the sole authority to amend existing statutes, such as the 
Indian Reorganization Act of 1934. Congress alone will determine if 
land into trust statutes should be constrained or expanded. The 
Department welcomes the opportunity to work with Congress on any 
recommendations to modernize the land into trust process.

    Question 3. The Tiwahe Initiative has proven to be exceptionally 
successful at assisting tribes in addressing the inter-related problems 
of poverty, violence, substance abuse, and their associated outcomes 
like youth suicide. Tiwahe is currently in its pilot phase and 
impacting 61 tribes directly, with an additional $24 million in Tiwahe 
Social Services and ICWA funds distributed to tribes across the 
country. In spite of this success, Tiwahe is being targeted for 
elimination. Can you tell us if the Department will be able to support 
the Tiwahe Initiative's success through its continued funding?

    Answer. The budget request made difficult choices this year. The 
Department's budget prioritizes self-governance and self-determination, 
and focuses funding in Indian Country on core service activities, fully 
funding the costs for tribes to administer programs for themselves, and 
maintains essential management functions for tribal resources, among 
other things.

    Question 4. I understand that the Native American Graves Protection 
and Repatriation Act Review Committee has been suspended as part of a 
larger review of DOI committees. This is congressionally charted 
committee and does critical work across the country in the rightful 
return of human remains to Indian tribes. Do you have an estimate of 
when the department's review will be completed and the committee re-
activated?

    Answer. In order to make sure all commissions are giving local 
communities adequate opportunities to comment on park management 
decisions, the Department is reviewing the more than 200 boards, 
committees, and commissions under its responsibility. Throughout this 
review process, committees and commissions have been given the option 
to pursue waivers to meet. We recognize the critical work performed by 
these committees.

                  Questions Submitted by Rep. Gallego

Sexual Harassment:

    Question 1. Secretary Zinke, as a follow-up to Mrs. Tsongas' 
questions during the hearing, please address the following. A workforce 
survey on sexual harassment is an important tool available to those 
that are serious about rooting out sexual harassment in their 
organizations. As you alluded to in your testimony, the military has a 
sexual assault and harassment problem of its own. In seeking to address 
this grave and prevalent issue, the military now conducts such a survey 
every other year. Making the surveys recurring is an honest way to 
track progress in eliminating sexual harassment, helps refine 
departmental efforts, and sends a clear signal to employees that sexual 
harassment is a priority.

    With this in mind, will the Department commit to ensuring the 
National Park Service (NPS) performs its survey on a recurring basis?

    Answer. We are mindful of the opportunity to perform this survey on 
a recurring basis and understand the value of doing so. A decision has 
not been made yet on whether to repeat the survey.

    Question 2. In his recent testimony before the Senate, acting NPS 
Director Michael Reynolds said this about the results of the sexual 
harassment workforce survey they are currently conducting: ``I assure 
you that we are committed to transparency and once we receive the final 
data, we will share it widely with this subcommittee as well as all 
employees and interested stakeholders.'' It's a step in the right 
direction but accountability requires true transparency. And true 
transparency means anyone--not just the employees or stakeholders--can 
see the results. Again, the military published the results of its 
survey for all to see.

    In your testimony before the Committee, you indicated your openness 
to sharing the results of both the January 2017 survey and the seasonal 
survey scheduled for July 2017. Please confirm that the Department will 
make both survey results available on the public-facing website.

    Answer. The Department has worked with the NPS to ensure that the 
survey is appropriately shared with stakeholders. The January 2017 
survey results were posted on October 13, 2017, to https://www.nps.gov/
aboutus/transparency-accountability.htm.

    Question 3. You indicated during the hearing that the sexual 
harassment issues known to exist in the National Park Service ``may be 
department-wide.'' Accordingly, and given your stated zero-tolerance 
policy, please explain what efforts you will undertake to expand 
information gathering and response efforts so to include the totality 
of Interior Department personnel.

    Answer. As Secretary of the Interior, I am committed to combating 
all forms of harassment. On April 12, 2017, I issued a memorandum to 
all employees setting forth the Department's policy on harassment. I 
directed the Chief Human Capital Officer and the Solicitor to establish 
additional harassment reporting procedures for managers and 
supervisors. I also ensured that all managers and supervisors 
throughout the Department will now be required to complete training on 
preventing harassment and improving the workplace environment. In 
addition, I have directed the Department to update its policy, 
procedures, and guidance to address the impact of harassment as it 
relates to performance and conduct. This is an important and ongoing 
process here at the Department and I look forward to working with you 
and your colleagues to craft real solutions that protect employees and 
hold wrongdoers accountable.

                  Questions Submitted by Rep. Hanabusa

Hazards Programs:

    Question 1. The U.S. Geological Survey's natural hazards programs 
are critical for communities across our Nation to understand the 
science behind natural disasters and how we can best prepare for them. 
The Earthquake Hazards Program and the Volcano Hazards Program as 
examples today, since they are of particular importance to Hawaii. 
These programs use science and technology to monitor signs of activity 
to help ensure the public is given ample warning of an earthquake, 
tsunami, or volcanic activity, so that proper precautions can be taken 
to reduce the amount of damage and loss of lives.

    Your budget seems to reflect the opposite. On cuts to the 
Earthquake Hazards Program, it says ``This reduction would diminish the 
EHP's ability to execute its core activities . . .'' On cuts in the 
Volcano Hazards Programs, it says ``This reduction would diminish the 
VHP's ability to execute its core activities to provide forecasts and 
warnings of hazardous volcanic activity at volcanoes in the United 
States with the current monitoring networks,'' among other things.

    These proposed cuts are deeply concerning. Although they are not 
large, they could have serious consequences, especially if these cuts 
hinder these programs' abilities to ``execute its core activities.''

    1a. Please explain the rationale behind these proposed cuts.

    Answer. For 2018, the Administration identified areas where the 
Federal Government could reduce spending and also areas for investment, 
such as addressing the maintenance backlog across the National Park 
System and increasing domestic energy production on Federal lands. The 
2018 budget requires restrained spending in order to meet the goal of 
balancing the budget within 10 years. The 2018 budget request focuses 
on core capabilities to provide forecasts and warnings of hazardous 
volcanic activity with current monitoring networks, including Hawaii; 
produce updated hazard assessments for high-threat volcanoes; and to 
revise the national volcano threat level assessment. The budget 
maintains support for robust national and regional earthquake 
monitoring and reporting, including Hawaii.

Invasive Species:

    Question 2. Invasive species is a global problem that will continue 
to invade our lands and waters with devastating economic and ecological 
impacts unless we actively protect our resources. It has been shown 
time and again that prevention of invasive species saves far more money 
than trying to eradicate the pest after it has been introduced. It is 
problematic to cut invasive species funding, seeing as invasive species 
continue to cost the United States more than $120 billion in damages 
annually (Pimental et al. 2005).

    Invasive species management requires a holistic effort due to the 
impacts to both aquatic and terrestrial resources. Especially troubling 
in the budget are reductions for the Fish and Wildlife Service, Office 
of Insular Affairs, and National Parks Service for invasive species 
management, while funding is increased by more than $4.5 million for 
the Bureau of Reclamation, which focuses on dams. While there are 
invasive species in dams, the issues plague areas on both land and in 
the sea. The funding shift away from offices within the Department of 
the Interior that have jurisdiction over areas with invasive species 
and to an agency with little expertise in this area would be an 
inefficient waste of taxpayer money.

    My home state of Hawaii, for example, has very unique ecosystems 
that are particularly vulnerable to invasive species. We require robust 
invasive species funding to prevent further damage from such species as 
the Brown Tree Snake, Little Fire Ant, Coconut Rhinoceros Beetle, and 
the Coqui frog, much of which is best managed by the Fish and Wildlife 
Service.

    2a. Given that the threat from invasive species is not diminished 
and reducing prevention will cost us much more in eradication, can you 
explain the rationale behind cuts to invasive species management?

    2b. How is the Bureau of Reclamation going to effectively manage 
invasive species in places like Hawaii where the Bureau has no 
presence?

    Answer. Invasive species are a significant threat to the Nation's 
economy, food and water security, public health and environment. The 
Department leads extensive work to prevent, eradicate and control 
invasive species, including efforts to strengthen early detection and 
rapid response capabilities, enhance biosecurity measures, and address 
high impact invasive species, such as the brown treesnake. The 
Department is committed to working with the state of Hawaii and all of 
our partners on these important issues. The budget includes $101 
million for invasive species work across the Department, nearly level 
with 2017.

    The Department recently announced approximately $3.5 million 
through the Office of Insular Affairs to continue supporting efforts to 
control the brown treesnake on Guam and prevent its spread to Hawaii, 
the Commonwealth of the Northern Mariana Islands, and the larger 
Micronesian region. This supplements more than $250,000 in brown 
treesnake investments made by the U.S. Geological Survey and the FWS in 
FY 2017. The budget requests an increase for the Bureau of Reclamation 
to help address the threat posed by zebra mussels, which is a serious 
concern in the West due to the experience seen in the Great Lakes 
region.

                  Questions Submitted by Rep. McEachin

Sexual Harassment:

    Question 1. Secretary Zinke, during questioning at the hearing, you 
agreed that your hiring freeze was the reason the DOI attorneys needed 
to work through the backlog of sexual harassment allegations have not 
yet been hired. But you seem to blame others for that. There are only 
two people that can approve exceptions to your hiring freeze; you and 
your Deputy Secretary--or acting Deputy Secretary in this case. There 
are really only two people to blame for the failure to do what it takes 
to work through the backlog. When will those attorneys in the ELLU unit 
be hired?

    Answer. Thank you for bringing this issue to my attention. While 
positions in Washington, DC, and Denver, and positions in the field at 
the GS-12 level and above, are still generally subject to hiring 
controls, the Solicitor's Office has authority to hire personnel 
lawyers and is in the process of doing so. I look forward to working 
toward a solution to this problem. As I have stated before, I have a 
zero tolerance policy for sexual harassment and the Department remains 
committed to addressing this issue head on.

    Question 2. Sexual harassment is a sizable, difficult, complex 
problem that requires a serious long-term commitment. A problem like 
that needs a plan with clear goals and a viable path to achieving them. 
I have not found a plan for NPS. I could cobble together the promises 
made in various statements, memos, and briefing notes to see what has 
been said but I have not found a plan. Without a plan, it's hard to 
address the problem efficiently and have accountability for those in 
charge of getting rid of sexual harassment. Is there a written plan for 
how NPS will address its sexual harassment problem?

    Answer. The National Park Service is pursuing a number of proactive 
strategies on multiple fronts to address the harassment issues. First, 
the NPS is examining the breadth and depth of the problems with a 
workplace survey of both permanent and seasonal employees. Second, the 
NPS is encouraging employees to consult with a newly established Ombuds 
Office if they encounter workplace problems. Third, the NPS is 
improving training programs aimed at recognizing and addressing 
harassment. Fourth, the NPS is seeking input from employee resource 
groups. Fifth, the NPS building stronger procedures for reporting, 
investigating, tracking, and resolving work environment issues. And 
sixth, the NPS is acting as quickly as possible when new cases are 
brought to its attention. These issues did not develop overnight and 
they will not be solved overnight, however, NPS is committed to 
bringing a culture of transparency, respect and accountability back to 
the organization.

Inspector General:

    Question 3. Secretary Zinke, would a permanent Inspector General 
help you and your department function more efficiently and 
transparently?

    Answer. The Department appreciates the work of Interior's Office of 
the Inspector General, currently led by the Deputy Inspector General 
Mary L. Kendall, in the detection and investigation of waste, fraud, 
and abuse. I would note that the appointment of an Inspector General is 
a decision to be made by the President, with the advice and consent of 
the Senate.

                   Questions Submitted by Rep. Brown

Environmental Justice:

    Question 1. Mr. Secretary, decades of studies have proved that 
minority, low-income, rural, tribal and indigenous populations face 
tremendous environmental and health disparities. Do you agree?

    Answer. While I am not familiar with the studies you mention, the 
Department of the Interior, and I, recognize that there remain 
impediments to economic, environmental, and health prosperity for a 
significant number of rural and underserved communities. The Department 
supports underserved communities efforts to overcome disparities in 
much of the work we do.

    Programs at the Department of the Interior address issues in Indian 
Country that range from remediation of legacy wells in Alaska, in some 
cases to protect the health and safety of Alaska Native communities, to 
assisting tribes in addressing important human services matters, like 
child welfare, health, and other social services issues.

    Question 2. In 1994 President Clinton signed Executive Order 12898 
requiring that the U.S. EPA and other Federal agencies implement 
environmental justice policies. That order required all Federal 
agencies to incorporate environmental justice considerations in their 
missions, develop strategies to address disproportionate impacts to 
minority and low-income people from their activities, and coordinate 
the development of data and research on these topics. Do you support 
the goals of this order?

    Answer. I believe it is necessary that the Department's management 
of the Nation's natural and cultural resources is done in a manner that 
is inclusive of all populations. As I have said before, I recognize 
that the Department has not always stood shoulder-to-shoulder with 
tribal communities. I also recognize that all tribes are sovereign and 
we must respect their right to self-determination and the decisions 
that they make. We are working to foster stronger and more resilient 
Native communities.

    Question 3. Under your budget, this order faces its gravest 
assault. The Office of Environmental Policy and Compliance (OEPC), part 
of the Office of the Secretary, is the focal point for implementing the 
Department's environmental justice policy, including the environmental 
justice executive order, and ensuring compliance. The proposed budget 
would cut the Office of the Secretary--your office--by over 80 percent. 
How can a cut this large not undermine the environment and health of 
minority, low-income, rural Americans, tribal and indigenous 
communities?

    Answer. The request for the Office of the Secretary appears to 
reflect a large reduction because the FY 2018 budget request would 
transfer funding for the Payment in Lieu of Taxes (PILT) program from 
the Departmental Operations account, from which both FY 2016 andFY 2017 
funding for PILT was appropriated, to a separate PILT appropriation. 
With regard to Indian Affairs programs specifically, while this budget 
makes tough choices, it prioritizes self-governance and self-
determination for Indian Country, fully funding the costs for tribes to 
administer programs for themselves, and maintains essential management 
functions for tribal resources, among other things.

    With regard to environmental justice, while OEPC provides support 
at the Departmental level, implementation of environmental justice 
activities at the Department has always occurred at the bureau level.

                                 ______
                                 

    The Chairman. Thank you. I appreciate that. We will start 
with a round of questions and try to get as much as we can in. 
First of all, I remind the Committee members that we have a 5-
minute limit to questions of the Secretary and the staff that 
is here. I am going to do that. I am going to be mean on that, 
so same thing, we will cut you off at 5 minutes. If you are 
talking when it is 5 minutes, I will cut you off. Don't ask a 
question when there are only 20 seconds left. Do it the right 
way.
    I also want to apologize because in the middle of this I 
and Mr. Grijalva have another meeting we are going to have to 
go to. We are not walking out on you, we will be back. If you 
are still here, we will come back.
    Let me open it up and start with questions, if I could, for 
you, Secretary Zinke.
    There are some people, there are some voices out there that 
simply try to measure success by the increased dollars and a 
bigger bureaucracy. As you have mentioned before, that simply 
is a different era. And you have mentioned before how the 
revenues have decreased, how access to public land has been 
further restricted. Overall, a return on services for taxpayers 
has been diminished, even though there was supposedly, on 
paper, an increase in revenues.
    Can you just tell us more clearly how you expect to try to 
solve those three problems of the access, the service, and the 
revenue coming into the country, and how you intend to do that? 
And if there is some way, statutorily, we can assist you in 
hitting those areas?
    Secretary Zinke. Well, thank you, Mr. Chairman. A couple of 
things.
    One, on the revenue side, it is oil and gas and all of the 
above, but I am a Boy Scout. We are going to do it right. You 
leave your campground in as good or better condition than what 
you found it. But clearly, when you put 94 percent of all 
offshore holdings off limits, it has a consequence. When you 
decide you are not going to cut any timber, it has a 
consequence. When you decide you are not going to do anything 
onshore, there is a consequence.
    Compensatory mitigation was a problem. Some people would 
call it extortion. But when you have a project, let's say a 
pipeline or a power line, and you force a company to do $90 
million worth of compensatory mitigation in a project that is 
$109 million, that is a problem. When the permitting process 
becomes arbitrary, that is an issue.
    In the case of North Shore, when a company buys a $3.1 
billion lease offshore, and is forced to go further out in an 
unproductive area, and is forced to drill a well that is not 
proved true because of a Fish and Wildlife rule that is maybe 
pertinent to the Gulf, where you cannot have platforms and 
systems 15 miles apart, that forces them to drill a dry hole, 
that is a $3.1 billion hit, and that sends signals throughout 
the industry that we cannot be trusted.
    So, my biggest job is to be trustworthy, to be a partner, 
making sure we work with people, rather than against people, 
make sure we have a system that we hold industry accountable, 
because accountability is important. That is why we 
reintroduced the Royalty Committee, to make sure we have a 
system that we hold people accountable, but we are viewed as an 
advocate, rather than an adversary.
    Reorganization is not just about number of people in 
budget, it is how we do things. Let me give you an example. If 
you have a trout and a salmon in the same stream, and that 
upstream has perhaps a dam or a lock, and downstream is 
irrigation, and if that stream happens to pass by tribal lands, 
you have at least five different bureaucracies. Fish and 
Wildlife will handle the trout, NOAA will handle the salmon, 
Bureau of Reclamation will handle the irrigation, Army Corps of 
Engineers will handle the locks, and BIA will be the subject 
matter on tribal lands.
    Five bureaus, and it could be more, all will have different 
views, different biological opinions, mind you, and some of the 
opinions might be unreconcilable. So, how do you manage your 
public lands? We are looking at more of a joint model on the 
region side, because if the government cannot align, then how 
do you expect industry, or how do you expect the public to have 
a view and transparency of what is best?
    We are looking at a reorganization based on jointness, 
based on how to get the Forest Service and the Department of 
the Interior together on issues, so we can be more transparent 
and address things like wildlife corridors and watersheds.
    The Chairman. All right, Mr. Secretary, I am cutting myself 
off here, too, so let me thank you for that. That is a 
significant issue.
    Can I just say on Antiquities, very quickly, four of the 
last six presidents have actually changed the way Antiquities 
has been used. In Bears Ears, you were very nice to actually 
challenge Congress to come up and solve some of the questions 
that should be presented. I appreciate that. I know Senators 
Hatch and Lee will take that on the Senate side; the membership 
here will do something with that, we will take upon the 
challenge, and we will give you something legislatively that 
can be used in that particular area.
    I have 9 seconds. I said I wouldn't do a question with that 
period of time, so let me just give it out to you, that if 
there is something that you think we can do to help to assist 
in providing transparency, accountability, dealing with the 
Antiquities Act, we would like to hear from you and are willing 
to do that.
    I apologize, and I will now recognize Mr. Grijalva for his 
questions. Since I went 8 seconds over, we will take it off of 
yours.
    Mr. Grijalva. Thank you.
    [Laughter.]
    Mr. Grijalva. Mr. Secretary, the Office of Legal Counsel 
within the Department of Justice has a written opinion stating 
fundamentally that only letters or inquiries from committee 
chairmen should receive responses from the Trump 
administration. All other letters from Members of the Congress 
can and have been ignored. We submitted more than a dozen 
letters to the Administration seeking information, and we have 
received no responses.
    I really believe this policy is undemocratic, as well as 
offensive to every Member in Congress. Even Chairman Grassley 
said that it frustrates the constitutional functioning of 
legislature.
    My question is to that issue of information, the flow of 
information, and the equal treatment of Members. Mr. Secretary, 
when you were a member of this Committee, if you wrote a letter 
to the Administration, did you feel your letter deserved to be 
answered?
    Secretary Zinke. Well, first, I can say up front there is 
no gag order.
    And second, I have met with the Minority in person. I also 
recall you were in the meeting that I committed to meet with 
the Minority Members quarterly. And if a Member, which I think 
is a courtesy, it is not a right, but it is a professional 
courtesy, that if you have an issue, then I will give you my 
phone number and we will talk about it personally. I will 
arrange to come over.
    When I was in Boston recently, I called young Joe Kennedy, 
who I think very highly of. I talked to all Members and said 
exactly where I----
    Mr. Grijalva. And I appreciate that, Mr. Secretary, but the 
point here is the free and open flow of information, Members 
receiving information.
    Our oversight responsibility is more encompassing than your 
gesture, and we need information, information that becomes part 
of the record. And while I appreciate the gesture, and would 
take advantage of it, the fact remains that for the record 
these responses need to occur.
    You wrote nine letters to the Obama administration. All 
nine you received responses to when you were a Member of this 
body. And I think that, quite frankly, every Member here, and 
certainly representing the Minority side, deserves the courtesy 
that you were extended by the previous administration.
    The purpose of these letters was to get the reasoning for 
the various policy decisions that you would be making. And I 
really think, and let me ask you, as Members of Congress 
entitled to a full understanding of the reasonings behind your 
policy decisions, don't you think that is part of the 
legislative oversight responsibility that this Committee has?
    Secretary Zinke. I would think hearing it from the 
Secretary of the Interior directly probably is the most 
important access I can think of in a democracy.
    Mr. Grijalva. Let me----
    Secretary Zinke. As you know, when you write a letter, it 
is probably your staff that writes it. It probably comes to my 
staff that answers it. But I have said, and I have absolutely 
committed, that I will talk to you in person. I don't think 
that there is a better system, and I can't remember, and I was 
only here for one term, but I can't remember a Secretary that 
would offer to talk to you about an issue in person.
    Mr. Grijalva. OK. I appreciate that. Let me be very 
specific, though.
    Let's talk about Bears Ears. The comment period is over, 
extended comment period. One of the letters that we sent was 
wanting an accounting, how many support existing monuments, how 
many support making changes to the existing monuments. Will 
your office provide that accounting of those comments as a 
response to that letter? I realize those comments are public, 
but there are tens of thousands of them. We would simply like 
an accounting of the positives and the negatives.
    We are going to be resubmitting letters to you as official 
questions for the record for this hearing. And, as you know, 
questions for the record are technically coming from the 
Chairman. Because of that being on the record, my second 
question, will you commit to providing answers to those letters 
for the record, given the submittal today?
    Secretary Zinke. As you know, the Antiquities Act is 
singular in authority. It is by the President, by the 
executive. It does not require NEPA, it does not require public 
access or public comment.
    Mr. Grijalva. All I want is----
    Secretary Zinke. However, on the review, for the first time 
it was regulations.gov. So, we opened up a website so every 
comment could be heard. And the President asked me to go 
forward and get every comment. And I would certainly----
    The Chairman. I have 10 seconds to finish up with you.
    Secretary Zinke [continuing]. Make that available.
    And if you want to talk about the Bears Ears in the next 
round, I will talk about the Bears Ears----
    Mr. Grijalva. Well, the question was already asked.
    The Chairman. Thank you. I appreciate that.
    Mr. Lamborn, you are up.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Mr. Secretary, it is great to have you here. I remember 
when you sat on this side of the dais, and you always had 
great, penetrating questions. And I am so happy to see you 
sitting where you are at now.
    Secretary Zinke. It is easier on that side, but----
    [Laughter.]
    Mr. Lamborn. The subcommittee that I chair, the 
Subcommittee on Water, Power and Oceans, has an active 
infrastructure agenda, already hearing testimony on a number of 
bills. And a subcommittee bill is also going to be on the Floor 
today that Mr. McClintock has sponsored, streamlining the 
permitting process for water and infrastructure projects.
    How do these kinds of bills that would remove bureaucratic 
obstacles and streamline America's water resource developments, 
including title transfer bills like with the Bureau of 
Reclamation, when they have hydropower projects, how do these 
fit into the Department's goals of advancing the production of 
American energy infrastructure improvement?
    Secretary Zinke. Well, how we are approaching it, one is 
that it is just not about funding, it is about process and how 
we do our permits. If there is one small clerical error, it can 
go back in a loop, and we added more money in our budget for 
permitting. But some of it is structural. And that is why we 
are convinced that, as an example, looking at a joint model 
would be what we call joint management areas, where, rather 
than the different bureaus are represented, they are grouped 
together into a NEPA process or a permit process, where every 
bureau has representation.
    It is not a new concept. This is how we fight forest fires 
out West, and this is how the military operates under combatant 
commands. But looking at it more joint, so you don't have the 
problems up front with different biological opinions, where we 
actually can work together as a government, and have state 
input, because a lot of the permitting process also involves 
state and local communities, which should have a voice.
    So, helping streamline the process to making sure it is 
fair, not arbitrary, consistent in approach, but also 
understanding that there needs to be some flexibility because 
the geology is different than what the geology is in the 
Appalachians or Colorado. So, you need the right people to 
understand the nuances in the different projects.
    Again, being an advocate, rather than an adversary, is a 
big change.
    Mr. Lamborn. Thank you, Mr. Secretary. And we will work 
with you and your Department on that.
    One specific line item in the budget that I do want to ask 
you about has to do with 3D Elevation Program, or 3DEP. And 
that does concern me, because it is important to have high-
quality 3D elevation data to help resource management of 
forests, alternative energy, agriculture, other industries, 
including flood risk management.
    Why are you proposing a reduction in that particular 
program? I am just curious where the Department is coming from 
on that.
    Secretary Zinke. Well, this is a balanced budget. Look at 
it. I will work with you on it, but we looked at the USGS, 
where that program, I think, resides. We did reduce USGS, not 
all programs, we consolidated some on there.
    As far as the program goes, we think there is a good 
opportunity for public-private partnerships. In many of the 
cutting-edge technologies, the government is not the lead any 
more. Now, there are a lot of reasons why, and I think the 
government should be on the lead in some areas. But, quite 
frankly, our processes, our acquisition, the way that we 
approach technology, we are lagging behind some of the private 
enterprises.
    So, we think there is an opportunity for public-private 
partnership on some of the 3D modeling, certainly some of the 
surveys, and some of the higher technologies.
    Mr. Lamborn. Thank you. And last, applications for permit 
to drill are supposed to only take 30 days. Under BLM, they 
take an average of 220 days. What can we do to speed up that 
particular process?
    Secretary Zinke. We added money into it. I have also 
appointed a counselor for energy affairs that is specifically 
looking at the energy sector and the permitting process.
    One is, you have to be fair. Two is, it is not a free-for-
all in that a public review is necessary on this. So, we make 
sure the reclamation plan is in place, that it is the right 
drilling, we have a casing, et cetera. We are actively looking 
at that, and our goal is to reduce it, but we have added more 
money in the budget to look at it.
    Mr. Lamborn. Thank you very much.
    The Chairman. Thank you. You violated my 30-second rule 
there and got away with it.
    Mr. Lamborn. It was 20 seconds.
    The Chairman. Twenty-second rule, right. Well, Mr. Huffman 
has usurped the Ranking Member's chair, and therefore he gets 
the right to ask the next questions.
    Mr. Huffman. Welcome back to the Committee, Mr. Secretary. 
It is good to see you.
    Secretary Zinke. Good to be here.
    Mr. Huffman. I notice that you are proposing something in 
the order of $10 million to come up with a new 5-year offshore 
oil and gas leasing plan. I wanted to ask if you can tell us 
when you expect to publish the request for information on that 
plan.
    Secretary Zinke. I know we are going to do the first 
Federal Register asking for that, I want to say, within the 
next 30 days, if not sooner. We think the whole 5-year plan 
will be done between 2 and 3 years on it.
    Again, we looked at the process, the way it is set up----
    Mr. Huffman. I appreciate that. I was just trying to hone 
in on the timeline, if I could.
    Secretary Zinke. I think in the next 30 days we should have 
something out on it.
    Mr. Huffman. OK. Thank you, Mr. Secretary. I appreciated 
your testimony about your desire for a balanced budget to do 
more with less, and you are undertaking this new $10 million 
planning process. I know you want to make sure all those 
dollars are well spent.
    So, let me just save you some trouble when it comes to 
California and the West Coast. We do not want new leasing off 
our coastline in California. We learned way back in 1969 in 
Santa Barbara, with that blowout, what that means. We have been 
reminded many times of the Deepwater Horizon and other events. 
We have made that abundantly clear during the preparation of 
the current leasing plan.
    The people of California are simply not going to allow it 
to happen. In fact, our state wants to remove the existing oil 
and gas rigs in our waters. We are looking forward to the 
development of offshore renewable energy, and we are not happy 
about backwards steps.
    So, I know that you want to do more with less. Let me just 
submit that whether it is the fervent opposition from the 
people of California, from the state of California, from the 
local governments in California, from the court challenges that 
will ensue, to the state lands commission right-of-way and 
permits that would be necessary to make that happen, you will 
be doing less with less if you attempt to drill for oil off the 
coast of California.
    Secretary Zinke. I am very familiar with Santa Barbara, and 
I am sure you also appreciate there are 10,000 gallons a year 
that seep naturally out of that harbor. And to some degree the 
science will say, actually, relieving some of the pressure is a 
good thing. But I am very familiar with Santa Barbara.
    Mr. Huffman. And I am familiar with that old industry 
trope, as well.
    Secretary Zinke. Absolutely.
    Mr. Huffman. That has been debunked many a time.
    I want to ask about, again, on this theme of doing more 
with less, you have talked about reorganization. You want to 
have an efficient government. You have provided some welcome 
gestures about accessibility, at least at a personal level, 
which I appreciate very much.
    But as you reorganize, and as you try to instill more 
responsiveness and accessibility, you have also mentioned 
having a Department that works with local communities, listens 
to issues at the community and state level.
    Three months ago, on an issue near and dear to my 
constituents, the safety of Trinity Dam in Trinity County, I 
and the Board of Supervisors from that county wrote letters to 
the Bureau of Reclamation. We were asking about the safety of 
this dam. This is an earthen dam, similar to the one at 
Oroville, which, as you know, was in real hot water just a few 
months ago. And we have not had a response back. In fact, we 
have heard nothing but red tape about an elaborate process 
necessary to review and sign off on this letter.
    So, Mr. Secretary, I want to ask you about how this 3-month 
delay on something so vital to the communities I represent, and 
a community impacted by this reclamation facility, involving 25 
people, we are told, signing off on a letter in response to a 
potential disaster, how does that adequately affect an agency 
that works with local communities, is efficient and responsive, 
and listens to issues about their safety?
    Secretary Zinke. Well, I may be good at reorganizing, but I 
am not that good. I have not heard. I will check on the Trinity 
Dam thing.
    For the record, it is interesting, I don't have a Deputy. I 
have about 70 appointments. To date, there is not one that has 
gone through Senate confirmation yet.
    Mr. Huffman. I appreciate it. In the little time I have 
left, let me just ask this, Mr. Secretary.
    You said this is what a balanced budget looks like. But 
this is not what a balanced budget has to look like. You have 
chosen to balance the budget with some winners and losers. On 
the losing side, we see cuts to renewable energy, climate 
change, ESA implementation, abandoned mine remediation, 
environmental health, science, national wildlife refuges, LWCF, 
it goes on.
    On the winning side, we see more exploration, drilling, 
mining, et cetera. Is there any sacrifice for the fossil fuel 
industry in your budget?
    The Chairman. But you can't answer, I am sorry. Time has 
expired.
    Secretary Zinke. May I have 3 seconds?
    The Chairman. Three, I am counting.
    Secretary Zinke. As the executive proposes, as the 
Congress, you have a say, and that is why I am here.
    The Chairman. We have, Secretary, eight other Members from 
California on this Committee. You are going to hear a lot more 
California questions.
    But first we go to the gentleman from Virginia, Mr. 
Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Mr. Secretary, thank you so much for joining us. As panel 
members, we appreciate the opportunity. And, Mr. Secretary, as 
you and I worked very hard here on Indian recognition bills, as 
that process continues, and I want to thank the Chairman for 
his leadership, too, to try to fix the process to make sure 
that Congress is the central decision maker there.
    As the bill that has passed out on the Virginia tribal 
recognition, and hopefully also for Little Shell, goes forward, 
and hopefully the Senate acts, how will your office look upon 
that bill and your recommendation to the executive branch, 
hopefully, when that gets to the President's desk?
    Secretary Zinke. Well, as Secretary, I cannot comment on 
issues before the Interior. But certainly, as Secretary, I can 
say that I have always thought that it is the view of Congress 
to recognize.
    In Bears Ears, for instance, I asked Congress to take a 
look at some things that I thought were outside of the 
executive. One is co-management of monuments. There are a lot 
of monuments that have cultural relevancy to our tribes, and I 
think that should be co-managed, rather than just an advisory 
group. I asked Congress to look at things and take the lead on 
determining some issues in there.
    But I think Congress should take the lead in recognition. I 
think it is the right body, constitutionally.
    Mr. Wittman. All right, good. Thank you, Mr. Secretary.
    I want to talk a little bit now about energy development 
specifically in the draft plan for the Mid and South Atlantic. 
As you know, the 5-year plan for 2017 through 2022 looks at 
that particular region. There is also a 2015 Department of 
Defense plan that looked at compatibility within those areas. I 
wanted to get your viewpoint on how the DoD assessment report 
will play in the Department of the Interior's decision making 
for potential leasing in that area, and does this report, in 
your mind, show compatibility with DoD mission functions and 
the ability for the oil and gas development to take place off 
the Atlantic coast?
    Secretary Zinke. The Atlantic coast is, in some ways, no 
different than other areas. As the Secretary of the Interior, I 
think seismic review and inventories are prudent. I cannot give 
you a decision because I don't know what is there, but as the 
steward of our public lands, I think having an inventory on 
what is our potential is important. And that stretches in the 
1002 as well as north. It stretches on our precious metals.
    I think having an inventory of what is actually there, 
based on science, is important. Then much of the decision rests 
on Congress whether or not, given that inventory and science of 
actually what we have, whether it is prudent to go forth on 
drilling extraction or not.
    But my job, the way I see it, is to have, and we have a 
wonderful USGS, we have a lot of capability there. Let's do the 
inventory, and let Congress decide whether it is appropriate in 
the case of California or off the coast. And I think that is 
the way the democracy should run.
    Mr. Wittman. In asking specifically about renewable energy, 
and the leasing that takes place offshore, as you know, within 
the Department of the Interior there are a number of different 
processes: the solicited bid process, the unsolicited bid 
process.
    One of the concerns that I have when we are looking at that 
is the length of the approval process. I put a bill in prior to 
that to make sure that we truncate that approval process to 
make sure it takes place more quickly. But more importantly is 
to make sure that in that process, that we get the perspective 
of everybody within those particular regions, and that is to 
make sure that we have the views of folks that are users in 
that particular area, fishermen, our maritime industry, and 
other stakeholders, to make sure that their perspective gets 
reflected in that process, whether it is a solicited or 
unsolicited bid process.
    Give me your idea about how robust you think that 
involvement process needs to be with all the different 
stakeholders for the use of those particular areas that we 
would look to for renewable energy.
    Secretary Zinke. I was up in the great state of 
Massachusetts, talking to the lobstermen and the fishermen, and 
they were a little irate about the monument because what they 
saw was reduced access to fishing. The length of the processes 
that we have, we looked at a sequential model, where you have 
to do 6 months, and then after you complete this do another, 
but it is in sequence, you know? And I think you can do a lot 
of it simultaneously to reduce the time frame, but yet make 
sure you have the stakeholders' view.
    The Chairman. Thank you.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Lowenthal, you are recognized.
    Dr. Lowenthal. Thank you, Mr. Chair.
    Thank you, Mr. Secretary, for coming and addressing us. You 
began, and I am going to follow up, on the offshore revenues 
and the relationship to what those revenues could be used for. 
You mentioned that revenues are down significantly since 2008. 
You mentioned how we made almost $15.5 billion more in revenues 
in 2008 than we did in 2016, and that the revenues could be 
used for the parks, or some of those revenues.
    So, I assume that you are talking about it would be good to 
get back to that revenue. And while you don't say it directly, 
there must be some policies during the Obama administration 
that you would like to revise, if that is really so.
    So, I would like to understand the steps that you are going 
to take to increase offshore revenues. Would it be more 
leasing? Faster permitting? Less regulations? Exactly what do 
you see to change some of the policies?
    Secretary Zinke. Well, we had yesterday, as a matter of 
fact, the first successful lease in the Cook Inlet, on a $3 
million lease. That was, I think, an indicator that we are 
willing to be a partner, rather than an advocate.
    But on leases there is, again, if you are going to operate 
on public land, then the responsibility is to make sure it is 
done right.
    Dr. Lowenthal. Got it.
    Secretary Zinke. Transparent. What we are doing is we are 
doing our seismic surveys, we are moving ahead on that. That is 
important. But also is an indicator that the rules are not 
going to be arbitrary.
    I could go through some horrific stories of compensatory 
mitigation, of arbitrariness of rules that the industry looked 
at us as not a good partner, and they would prefer to drill 
elsewhere.
    Dr. Lowenthal. Are we talking about offshore now?
    Secretary Zinke. Offshore and onshore.
    Dr. Lowenthal. OK.
    Secretary Zinke. Onshore, both. The revenue, though, I can 
tell you offshore, as you know, goes into the LWCF program, 
which is important. So, when the revenue goes down, so does the 
LWCF program, the potential for appropriation, but that is not 
the whole story. Over the course of time, there is about a $20 
billion buildup in LWCF, which most of us recognize is a 
wonderful program. So, let's fix the system, so you don't have 
to go----
    Dr. Lowenthal. Yes, I would like to go back, though, to 
just some of the revenues, and ask some of the questions.
    You are aware that 2008 was an outlier year. That is where 
gas prices were roughly $4 a gallon. In 2008, the price of oil 
was somewhere about $145 a barrel, in July almost exactly, I 
guess that would be 9 years past. There was an average price of 
$107 per barrel.
    You know that in 2016, the price was about $41 a barrel, 
less than a third of what it was. So, we are talking about a 
tremendous drop. And even in natural gas, it is even more.
    And we also, as I understand, we had more oil production 
offshore in 2016 than we had in 2008, so the prices were very 
high. We certainly don't want to go back to that era, where it 
was over $4 a gallon to buy gasoline.
    So, the question is if in fact there are policies that 
really impacted this besides the price of oil, which I think 
what we are really talking about is the price of oil, what year 
was the second most productive year, in terms of oil production 
offshore?
    Secretary Zinke. I will look at that. But to your point, 
the oil and gas price----
    Dr. Lowenthal. It was 2014, and the third most was 2013. 
The Obama administration has produced the greatest amount of 
revenues, besides the one outlier year. Is that not so?
    Secretary Zinke. If your contention is the last 
administration was pro-energy, I think----
    Dr. Lowenthal. I am----
    Secretary Zinke [continuing]. Your supposition is----
    Dr. Lowenthal. Just the data, just the data. What was the 
second, 2013 and 2014 we had the greatest amount of revenues 
from offshore oil production besides the year 2008. I am just 
asking. Is that not true?
    Secretary Zinke. I would have to look. But if your 
contention is that the compensatory mitigation, the 
arbitrariness of the regulatory framework, of the signals the 
oil and gas, or any industry, to include timber harvest, if 
your contention was that it was up in the last 8 years, I will 
get you the statistics from the Department of the Interior that 
would show a different mind.
    Mr. Gohmert [presiding]. Thank you, Mr. Lowenthal. We will 
now go to Mr. McClintock.
    Dr. Lowenthal. Thank you, and I yield back.
    Mr. McClintock. Welcome, Mr. Secretary. And just to follow 
up on that question, can you tell me when were the offshore 
facilities that produced that oil actually approved? Before or 
after the Obama administration?
    Secretary Zinke. Well, to be fair, I have to get the data 
to you on that. I know the trend lines, and I have seen them, 
and I don't want to misrepresent the issue.
    The overall theme, which was correct, is that revenues have 
gone significantly----
    Mr. McClintock. My point is that the projects were actually 
approved, for the most part, prior to the Obama administration. 
And I believe we will find, in looking at the data, that the 
Obama administration was very lackluster in approving new 
projects that will come on-line 10 years from now.
    But what I first wanted to do was to thank you for your 
trip to California, for your visits to the Sacramento regional 
office, on to Yosemite Valley, and on to Kings Canyon from 
there. That was a tremendous morale boost for all of the 
employees that safeguard these national treasures, and really 
signaled a hands-on Interior Secretary. I just want to 
acknowledge that and tell you how much it was appreciated from 
the rank and file and the general public.
    On that trip, you saw the condition of our forests in the 
Sierra. And the Sierra National Forest is adjacent to Yosemite. 
We have had a 90 percent mortality of pine trees. The tree 
density in the Sierras is now, typically, three or four times 
what the land can actually sustain, because we had an 80 
percent decline in timber harvests in the Sierra, with a 
concomitant increase in acres destroyed by forest fire. What 
can we do about that?
    Secretary Zinke. In the budget, we prioritized fire 
suppression. And to your point about the front line, the front 
line is too thin. My opinion, as a former SEAL commander, is 
that our front line, that is people that are out there with our 
parks and wildlife refuges, we are too short in the front line 
and we are too heavy in middle and upper management. And part 
of the reorganization is to put more assets where they were.
    Almost every cost-cutting measure previous has always 
regionalized assets up. And there is a lot of frustration on 
the front line, and the frustration is they feel like they have 
been micromanaged, there are not enough resources. And you 
would think being a park ranger is the greatest job ever. 
Employee surveys rank it at the bottom.
    So, whether it is a prevalent sexual harassment, a culture 
of intimidation, whether or not our employees feel 
micromanaged, they don't have the resources, there are a lot of 
reasons why. But I am competitive. I want the rangers to be 
number one, period, the best job in the world, as it should be.
    So, I am going to, we are going to, push a lot of resources 
back where they belong, out of the middle and upper management, 
and back on the front line to where our rangers, our wildlife 
refuge managers, or BLM professionals feel like they are 
supported.
    Mr. McClintock. That would be a big step in the right 
direction.
    As you know, on the Federal Lands Subcommittee we have 
three over-arching goals: first, to restore public access to 
the public lands; second, to restore good management to the 
public lands; and third, to restore the Federal Government as a 
good neighbor to those communities that are directly impacted 
by the public lands. Could you comment on your plans in those 
areas?
    Secretary Zinke. I think public lands are for public use. 
And philosophy-wise, I think Muir was correct in some of our 
lands, where man is a lightest footprint, more of an observer, 
but much of our lands I think should fall under the Pinchot-
Roosevelt of public access, multiple use.
    You can extract wealth from our public lands, but you have 
to do it with a reclamation plan that makes sense, using best 
science and practices, and understanding the interest of the 
public is to make sure that the public lands in perpetuity are, 
over time, the same experience.
    I am concerned about our parks. I am concerned about 
Yosemite, because the experience, for many Americans, the first 
time they see a park, it is Yosemite. And when the traffic is 
what it is on the 405, we have to look at how to manage not 
only our parks, but the public lands around our parks, so the 
watersheds make sense, the trail systems connect, so we utilize 
our public lands in a better and more efficient way to maintain 
the experience. I don't think any of us want to see our parks 
atrophy and to experience the same as what you would see on our 
freeways.
    Mr. McClintock. I believe Pinchot's maxim was the greatest 
good for the greatest number of people in the long run. Thank 
you.
    Mr. Gohmert. Thank you, Mr. McClintock. We will now go to 
Mr. McEachin.
    Mr. McEachin. Thank you, Mr. Chairman.
    Mr. Secretary, it is good to see you. You made a comment 
about sexual harassment that I want to go into a little bit. As 
you know, Mr. Secretary, deeply troubling cases of sexual 
harassment at the Park Service have come to light in recent 
years. The Inspector General has revealed in detail behaviors 
that would be reprehensible in any setting, let alone a 
taxpayer-funded agency tasked with celebrating the very best of 
American culture, history, and values.
    I am surprised, personally, that we have not had a hearing 
on it in this Committee, so I am asking the Chairman for one 
today, and I have sent a letter to the Chairman, as well as the 
Chairman of Oversight. I have the privilege of being the 
Ranking Member on Oversight.
    You have declared a zero tolerance policy and promised an 
update of policies, new training requirements, and new 
reporting procedures. But I want to suggest to you that is not 
enough. The previous administration left you a transition 
briefing book which revealed that the high-profile sexual 
harassment cases at the Park Service have spurred about 120 new 
sexual harassment and related reprisal allegations at the 
Department that need to be resolved.
    The brief went on to say, ``Because the employment and 
labor law units existing resources were inadequate to manage 
and litigate these cases, as well as to undertake efforts 
necessary to ensure such cases do not recur in the future, the 
division of general law requests funding to hire six new 
experienced employment and labor law attorneys.'' As you know, 
these attorneys do not just litigate cases, they also provide 
guidance to supervisors who have to investigate the allegations 
themselves.
    My question is this. When I checked last week to see 
whether the attorneys were hired, only some have been. It seems 
that there may be a hiring freeze that prevents the rest of 
them moving forward. Is that still the case?
    Secretary Zinke. The sexual harassment, let me begin. I 
have a zero tolerance. As a former commander, I have seen it. 
But some of it is structural. Let me give you an example to 
clarify it.
    I had credible IG reports too, when I assumed office, of a 
sexual harassment case, as well as abuse of power, with our 
senior law enforcement officials. Senior law enforcement 
officials. What were my options? I brought my solicitors 
together. Fire him. Couldn't fire him. Wasn't available to me, 
because he has to go through these two committees. They find 
it, then it goes to appeals process.
    Mr. McEachin. Yes, sir. Mr. Secretary, I am----
    Secretary Zinke. So, structurally, I think I need some help 
from Congress.
    Mr. McEachin. I can appreciate that. And hopefully, if we 
are able to have a hearing on this, you will be able to 
elaborate on that. But my question is this. Have you been able 
to hire the attorneys necessary that the last administration 
recommended to you be hired? Have you been able to hire them? 
If so, that would be a yes. And, if not, please explain to me 
why not.
    Secretary Zinke. I have five solicitors that are pending 
confirmation and appointment. To date, zero. Zero. I don't have 
a Deputy. I have five solicitors that are appointments. To 
date, zero. I don't have a Director of Fish and Wildlife. I 
don't have a Director of Parks. I don't have a director of 
anything. So----
    Mr. McEachin. Are these the solicitors that you are talking 
about, the ones you just----
    Secretary Zinke. Well, solicitors on our side, as 
leadership, and I would think that if you are going into a 
campaign, and you hire your chief of staff, your chief of staff 
should have some say on who you hire. And that is the 
predicament I find myself in, is that----
    Mr. McEachin. So, are you suggesting that you have not been 
able to hire these attorneys because you don't have these 
solicitors in place? Is that what you are telling us?
    Secretary Zinke. What I am saying is that I don't have any 
of my five solicitors in. And what I am also saying is this, is 
that as far as----
    Mr. McEachin. My question is not about the solicitors. I 
thought this was going to be relatively simple, but I see that 
I am not as experienced at running out the clock as you are. My 
question is----
    Secretary Zinke. I would find that an inaccurate statement, 
but go ahead, sir.
    Mr. McEachin. I am sure you would, but I am trying to get 
an answer to a question. Have you been able to hire the 
attorneys or not? And we could go into the why, but I just want 
to know, do you have them?
    Secretary Zinke. I have put a hiring freeze on Washington, 
DC and Denver for a reason, because I think that the hiring is 
better at the field. If that solicitor, and I will check in 
what grade it is, if the solicitor is GS-12 and above, which I 
assume it is, and that solicitor is found in Washington, DC or 
Denver, then maybe it falls into that. Although there is an 
exception clause. If the Deputy, which I don't have, the Acting 
Deputy feels that it is necessary, then he can do an exception 
on that.
    But the idea was to put our hiring where it belongs, as in 
the field, and not in the headquarters. But I will give you a 
detailed, line by line, on that position.
    Mr. McEachin. I appreciate it, Mr. Secretary.
    Mr. Gohmert. Thank you.
    Mr. McEachin. I yield back.
    Mr. Gohmert. The gentleman's time has expired. And the 
gentleman from Alaska, if he is OK with using the term 
``gentleman''----
    [Laughter.]
    The Chairman [continuing]. From Alaska, is recognized for 5 
minutes.
    Mr. Young. We are all being gentlemen and ladies today, 
aren't we?
    Thank you, Mr. Secretary, and thank you for appearing 
before this Committee. I only have a couple of statements, and 
then one question. Our job is to write this budget, and I know 
the Secretary knows it. He has presented a balanced budget to 
us, and our job is to write the budget. We can stand here and 
beat him up all we want, but reality is it is the job of the 
Congress, not the job of the President. It is his philosophy.
    And I know, having served with the Secretary for many 
years, that he has some requirements for the President, that is 
why he is the Secretary, and he will follow through with those. 
Our job is to try to make sure that the money is spent where we 
want to spend it, and still end up with a balanced budget.
    I happen to agree, Mr. Secretary, with your resigning 
certain people out of the agency because it got stagnant. It 
was a stagnant agency, and they were forgetting, very frankly, 
the people they served. I commend you on that.
    One question I want to ask you, or maybe two. The prior 
administration refused to listen to the people, especially in 
Alaska. They locked up land in Alaska behind Congress' back 
under the pretense of areas of critical and environmental 
concern. The land was then managed by wilderness, circumventing 
the No More clause in my state.
    And just out of curiosity, what is your direction in those 
lands that were designated as critical habitat and then managed 
by wilderness, circumventing the law?
    Secretary Zinke. Mr. Chairman, I follow the law. Alaska is 
unique. When it came into the union there were certain 
provisions on Alaska that no other state had on wilderness, on 
management of wildlife, on surveys, to make sure that we finish 
the surveys, because there is land as you came into the union, 
there is land that is supposed to be surveyed and transferred 
into the state. That is unique. So, I recognize the uniqueness 
of Alaska, and certainly look forward to working with you and 
Lisa Murkowski on it.
    But part of my job is to go up to Alaska and look at it. 
You learn a lot. As Secretary, I think my position should be 
out in the field, asking the right questions, because it is, 
and I view my job as non-partisan, public lands. Of the things 
that are partisan today, I would think public lands would be 
uniquely an American issue, because we all care about it, we 
all share the same land experience.
    But on your example with Alaska, I view Alaska as unique, 
and I follow the law.
    Mr. Young. All right, thank you, Mr. Secretary. I have 
great fondness for wildlife refuges and preserves, et cetera, 
but I do not appreciate agencies that set the policy against 
the law, and do not allow access. That is one of my basic 
complaints. They have this idea that the land belongs to the 
agency. It does not. It belongs to the people. And they have 
insisted on conducting themselves as the lord and master, and 
the lord will not let the peasants come on the land without 
permission.
    That is not the way to operate a park or a refuge or any 
other area that is owned by the public. Doesn't mean we are 
going to rip and ruin and rape. We are going to take and 
actually visit. Not inside of a building, but see the beauty 
and the grandeur of the land, experience the stars above us, 
not inside of a building. And that has been in my frustrations 
the last, actually, under my administration was just about as 
bad. The last 8 years has been a horror dream.
    Again, Mr. Secretary, I thank you for your presence. I feel 
sorry for you in many ways. You have been before the Senate, I 
believe, before two committees. You are going to listen to this 
Committee and probably the Appropriations Committee. I just 
wish we would leave you alone and let you go do your job.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gohmert. The gentleman yields back. At this time the 
Chair recognizes the gentlelady from California, Mrs. Torres, 
for 5 minutes.
    Mrs. Torres. Thank you, Mr. Chairman. And, first of all, I 
wanted to associate myself with the comments from my colleagues 
from California regarding offshore drilling in the coast of 
California.
    Secretary Zinke, I agree with you in your comment, your 
opening statement, when you said that we cannot ignore the 
problem of a growing deficit. But we also cannot ignore the 
problems that we are creating by continuing to 
disproportionately fund programs that impact the basic human 
needs of the Native American people.
    Now, as a local mayor, for the first time in my city's 
history we actually balanced the budget. Republicans and 
Democrats came together and went through it, line item by line 
item. And we actually balanced our budget, and everybody voted 
for it.
    As a member of a State Assembly in the state of California, 
we went through a $30 billion deficit. When I left in 2014 to 
come to Congress, I left the State Senate with a $2 billion 
surplus. I am not a stranger, and I am not afraid of making 
cuts. But we have to make smart cuts, cuts that are not going 
to impact, and I am not talking about quality of life issues, I 
am talking about basic life, human-right issues that impact 
Native Americans.
    In this Committee, time after time after time, and I know 
that you have participated in the hearings, but we have heard 
about the unmet needs and the broken promises made to American 
Indians and Alaska Natives, as well as the immense inequalities 
that this has created in Indian Country. Yet, this budget 
slashes or eliminates key programs that aim to address the 
disparities.
    And looking over the budget for the BIA, I am very 
concerned that there is an effort to ignore the Department's 
trust responsibility. Can you explain how cutting $27.3 million 
from tribal justice programs, $22.7 million from human 
services, $26 million from resource management, and $10.6 
million from tribal government operations, how does this 
strengthen self-determination? With cuts like this, how do you 
expect tribal leaders to build the capacity to expand self-
governance in these critical areas?
    Frankly, I am just sick and tired. Yesterday I was at a 
hearing in this room where we heard time and time again how 
tribal leaders are invited for a meet-and-greet meeting, but 
yet none of their input is ever taken for consideration. As a 
matter of fact, their questions are not even responded to. And 
that is incredibly offensive.
    Secretary Zinke. Well, first, as a former Congressman in 
Montana, I was honored to represent the seven tribes in 
Montana. And I have always viewed sovereignty should mean 
something: self-determination and respect. And consultation 
should be consultation, so I agree with you on that.
    The budget is a starting point. Again, a balanced budget 
makes difficult decisions. The budget honors the core trust 
responsibilities, the core treaty responsibilities, but it does 
not add money into a lot of areas which we both would agree, it 
is going to be the Congress' decision, are worthy----
    Mrs. Torres. Let me just say that if this were to become 
the actual 2018 budget, the overall funding provided to Indian 
Affairs would be lower than any level in the past 15 years, a 
full 20 percent lower than the 2010 funding level. This is a 
disturbing trend, one that is dangerous for Indian Country.
    Native children, specifically, have substandard schools and 
facilities, and the result of their education suffers. Their 
future and their potential future is being stolen from them 
every day that we ignore their problems. And their safety is a 
major concern.
    Secretary Zinke. I will get back to you. I don't think that 
that is accurate. But if you want to look at education, for 
instance----
    Mrs. Torres. It is not accurate that we are shutting down 
health clinics----
    Secretary Zinke. I don't, I will look----
    Mrs. Torres [continuing]. That school roofs are collapsing, 
sir?
    Secretary Zinke. Schools, we spend $15,000-plus per 
student. That is well above the national average of $9,000. So, 
why are Indian schools failing? Why is Indian health failing? 
Why is the Bureau of Indian Affairs, even if you increase the 
money, if you give us a grade, how we have done in the last 8 
years, I would say that grade would be maybe passing in a few, 
but overall, failing.
    Mrs. Torres. And I recognize this is not all on you, sir.
    Secretary Zinke. Well, I think we do need a discussion of 
how to provide services better, but particularly on education 
and Indian health. And I am willing to look for it----
    Mrs. Torres. Ran out of my time. Thank you.
    Mr. Gohmert. The gentlelady's time has expired. At this 
point we recognize the gentleman from New Mexico, Mr. Pearce, 
for 5 minutes.
    Mr. Pearce. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here. I appreciate all of the interesting 
questions. I just have several observations. I will kind of 
walk my way through them. I am probably not going to ask for 
too much response from you, but just to know what some of the 
problems we face in the budget are.
    First of all, as far as others have mentioned, the APDs and 
oil and gas drilling, again, oil and gas pays for 40 percent of 
our teachers pay in New Mexico, so that is a fairly significant 
contribution. So, as we are looking at the APDs, we have seen 
numbers as high as 440 hours to do APDs, compared to 220 
nationally. Again, we need focus there.
    The discussion about, or the decision to pay for, in our 
budget, selling off the strategic petroleum reserve, I 
supported the President's three-part agenda: jobs, jobs, jobs. 
But when you sell from the petroleum reserve, what you are 
doing is undermining the oil and gas production. So, just look 
at that with contemplative eyes, if you would, please.
    Also, you have commissioned the Royalty Policy Committee. 
Again, when an industry is struggling with low prices, the last 
thing you want to do is increase the tax take-off of that.
    I appreciate your objectivity on finding efficiencies in 
the BLM. We have fought that fight before. They were going to 
put New Mexico underneath Arizona, and Arizona has very little 
oil and gas production, yet it is one of the main functions of 
the BLM in New Mexico. We fought that off, but I fear that 
there are going to be people still in the agency who will 
resurface that suggestion. We have experience in that 
discussion, if you would.
    In 1988, and then later in 1993, Fort Wingate was closed. 
That was in the northern part of my district, and it was 
supposed to be distributed to two different tribes, the Zunis 
and Navajos. For 24 years that languished. We put the 
distribution into the NDAA last year, so right at the end of 
the year.
    And yet, I get a letter, May 31, 2017, from the current 
Acting Secretary of the Army, Robert M. Speer. His basic 
conclusion is that public law neither imposes any legal 
obligation to divest the property at the closed installation, 
meaning closed after a BRAC, nor places any limitation on the 
stationing of new forces or functions at the installation.
    I think it is going to take the secretarial level to work 
through this. It is in the NDAA that it is supposed to be 
distributed, and the Army refuses to comply. Your agency could 
offer a great deal of help.
    With respect to the wolf recovery program, the plan was 
developed in 1982, $37 million has been spent. We still do not 
have recovery. We don't even know what recovery looks like. So, 
we would request that no more money be spent on the wolf 
introduction and the wolf recovery program until they give us 
some plan and some program.
    The next area that we would like to talk about, and by the 
way, Mr. Chairman, I would like to submit the Robert Speer 
letter for the record if you wouldn't mind. The national 
monument, Organ Mountains-Desert Peaks National Monument, is a 
very highly volatile issue in the district. Even when the 
Democrats owned the House, Nancy Pelosi, they had a filibuster-
proof Senate, and Mr. Obama was in the White House, they still 
could not get this passed through law because it was so 
contentious.
    I would like to submit a list of the 800 businesses who are 
opposed to the large footprint. Many people on this list feel 
that the law was not followed in the establishment of the 
monument, that it was supposed to be the smallest footprint. 
That would be 60,000 acres, rather than the 600,000 acres that 
were used. So, I would like to submit this list, Mr. Chairman, 
for the record, the 800 businesses and the individuals who 
opposed that designation and would like to see it not revoked, 
but taken back down to the smallest footprint.
    Mr. Gohmert. Without objection.

    [The information follows:]

Rep. Pearce Submission

                           Department of Defense,  
                             Secretary of the Army,
                                             Washington, DC

                                                       May 31, 2017

The Honorable Stevan Pearce
United States House of Representatives
Washington, DC 20515

    Dear Representative Pearce:

    Secretary of Defense James Mattis asked me to respond on his behalf 
to your May 18, 2017 letter concerning the former Fort Wingate Depot 
Activity (FWDA).

    Let me assure you that the Department of the Army will completely 
and properly implement its responsibilities under section 2829F of the 
National Defense Authorization Act (NDAA) for Fiscal Year 2017 (Public 
Law 114-328), without delay. The extensive due diligence and 
documentation preparation necessary to complete the initial transfer of 
approximately 2,496 acres under this newly enacted authority is 
underway. The Army expects to deliver the Letter of Transfer to 
Department of the Interior (DOI) for this initial phase by July 2017. 
The Army expects to transfer approximately 4,511 additional acres to 
DOI by 2022 as environmental remediation of additional parcels is 
completed with concurrence of the New Mexico Environment Department.

    It is important to note that the Department of Defense (DoD) does 
not currently control all of the lands that once comprised the former 
FWDA. Prior to enactment of section 2829F, the Federal Land Policy and 
Management Act governed disposal of the withdrawn public lands 
comprising the former FWDA. Pursuant to that law and its implementing 
regulations, DOI transferred jurisdiction over approximately 5,855 
acres at the former FWDA from the Army to the Bureau of Indian Affairs 
by Public Land Orders published by DOI in 2000 and 2001. In subsequent 
years, as Army completed environmental remediation of additional 
parcels, the Army provided notices to DOI that an additional 2,384 
acres were ready for transfer. DOI had not yet acted on those notices 
when section 2829F was enacted, establishing a new transfer process 
that the Army and DOI are now implementing.

    Furthermore, retention and continued use of the Fort Wingate Launch 
Complex (FWLC) portion of FWDA by the Army is wholly consistent with 
section 2829F, and neither reverses nor violates the 1988 Base 
Realignment and Closure (BRAC) recommendation to close FWDA. Section 
2829F(a)(6) explicitly provides for retention of the area designated as 
the FWLC until ``certification by the Secretary of Defense that the 
area generally depicted as `Fort Wingate Launch Complex' on the Map is 
no longer required for military purposes and can be transferred to the 
Secretary of the Interior.'' Regarding BRAC, the 1988 BRAC Commission, 
pursuant to the Defense Authorization Amendments and the Base Closure 
and Realignment Act (Public Law 100-526), recommended that the FWDA be 
closed and that its existing depot mission be relocated to Hawthorne 
Army Ammunition Plant, Nevada. Relocation of that mission was completed 
by January 1993, constituting closure of FWDA. Once implementation of 
the recommendation is complete, Public Law 100-526 neither imposes any 
legal obligation to divest the property at the closed installation, nor 
places any limitations on the stationing of new forces or functions at 
that installation.

    Thank you for your inquiry into this matter and for your continued 
support of our Soldiers and their Families.

            Sincerely,

                                           Robert M. Speer,
                                      Acting Secretary of the Army.

                                 ______
                                 

    Mr. Pearce. Thank you. Finally, Mr. Chairman, the decision 
to cut PILT in the budget reflects on the eastern viewpoint 
that PILT is simply welfare to the West. We, in the West, say 
either give us the land and let us use it for productive 
purposes, or pay the PILT.
    We have seen over the past decade decreases in PILT. 
Counties in New Mexico, the rural counties with a lot of public 
land, cannot even have a tax base to pay for their budgets. So, 
please take a look at that.
    And again, I am not looking for a response, I just wanted 
to put these things on your radar. I appreciate it, Mr. 
Secretary. Thanks for being here.
    Mr. Gohmert. The gentleman's time has expired. At this time 
the Chair recognizes the gentlelady from Guam, one of the 
classiest people ever in Congress, Ms. Bordallo, for 5 minutes.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And welcome back, Secretary Zinke. It is nice to see you 
again. Mr. Secretary, as you know, the Department of the 
Interior has broad jurisdiction to administer and coordinate 
Federal policies in the territories. The Department is also 
responsible for providing assistance through the compacts of 
free association to our allies in the Federal States of 
Micronesia, Palau, and the Marshall Islands. And this agreement 
provides for development assistance, and allows for the FAS 
citizens to travel to the United States, while providing access 
to sea, air, and land for national security purposes.
    Mr. Secretary, I am very concerned by the cuts being 
proposed to the Office of Insular Affairs, especially the 
decreases in technical assistance to the territories, and the 
elimination of $3 million for discretionary compact impact 
provided to our local governments. Although this is seemingly 
very small compared to DOI's overall budget, the $1 million cut 
to technical assistance could have large negative impacts on a 
variety of programs at Guam and the other territories.
    I am concerned that you have eliminated $3 million in 
discretionary compact impact that helps to supplement the 
mandatory $30 million shared by the affected jurisdictions each 
year.
    In Guam alone, Mr. Secretary, the government of Guam 
estimates that it spends well over $100 million per year to 
provide social services to the compact migrants, especially in 
the area of health. When these migrants travel to Guam for 
special operations, or if they are on dialysis, or whatever the 
case might be, most of them have no insurance. We have to take 
care of them, and then it is costing us about $100 million per 
year, maybe over. And yet our share of compact impact is only 
about $16 million.
    The difference here is shocking to me. And certainly we 
cannot turn down anybody that has a health problem. Again, Mr. 
Secretary, what are your comments about these decreases? And 
how can you help us?
    Secretary Zinke. Well, thank you, and I certainly recognize 
the importance of the territories, particularly in the West. I 
will say that they, to a degree, are on the front line, again. 
In World War II, they were front-line on the Japanese empire 
expansion. Today, they are on the front line of the rise of 
China.
    Ms. Bordallo. That is correct. We are very strategic.
    Secretary Zinke. So, in our budget we did include $123.9 
million in discretionary to Palau on that. We support the 
compacts. But you are right, I will go back to this is what a 
balanced budget would look like. There are some difficult 
choices.
    Congress gets the last say, but it is important also to 
give a forum for the territories, as you are, to express why 
the territories should not be forgotten, why such cuts or 
savings, depending on how you look at it, are inappropriate, 
and would hurt the citizens of Guam and Palau and everything 
out there that is important.
    Certainly, in my conversations with General Mattis, he is 
particularly aware of the strategic importance, as well the 
President is aware. The Vice President has been out there, 
Tillerson has been out there, Mattis has been out there 
recently. I intend to go out as well. But I am grateful that 
you represent such beautiful and great people, and I look 
forward to working with you on it.
    Ms. Bordallo. Good. Thank you very much. Mr. Secretary, 
when I think about this, to my colleagues here on the 
Committee, to our Chairman, being in the Minority, and being a 
Representative from the territory is certainly one of the most 
challenging jobs I have ever had. So, I hope in some way you 
can be of help to us. Thank you.
    Secretary Zinke. I think you are up to the task.
    Ms. Bordallo. Thank you, Mr. Chairman. I yield back.
    Mr. Gohmert. Thank you. At this time the Chair recognizes 
the gentleman from Arizona, Mr. Gosar, Dr. Gosar, for 5 
minutes.
    Dr. Gosar. I thank the Chairman. Mr. Secretary, it is great 
seeing you. Thank you for all that you do. And I know that 
Congress, at least on this side, should be petitioning our 
Senate Members to get your confirmations. When we have somebody 
hired for a job, we should empower them with the right tools, 
the right people, and the right places to get their job done. I 
think it is up to us now to petition our Members in the Senate 
to make sure that those confirmations go through.
    I want to bring attention to the Administration's idea in 
regards to improving our transportation and infrastructure. One 
of those aspects I believe in is that we have to look at the 
prevailing wage, a fair wage for a fair job that is fair to the 
taxpayers.
    But the second part of that is NEPA reviews. I am going to 
highlight, according to the 2014 ranking of countries for 
mining investments analysis, permitting delays are the most 
significant risk to mining projects in the United States. This 
kills jobs, it takes a lot of pressure, and increases the cost 
to do these.
    The discovery-to-production process in our country is 20 
years or longer for large copper deposits, whereas in Canada 
and Australia they have shown to do it in 2 to 3 years, without 
limiting environmental protections. So, if we are serious about 
getting to this aspect and unleashing this wealth, we have to 
have those improvements.
    Here is my question. Can you discuss some of the concerns 
you have been made aware of regarding the BLM's planning 
environmental review process?
    Secretary Zinke. I can. As far as infrastructure goes, the 
permitting process has been a particularly painful issue, 
because it has extended programs out, in some cases stopped 
even replacement of a bridge. The mitigation, compensatory 
mitigation, that means things that are outside the construction 
of the bridge have been painful. In some cases, we are at 17 
years for permits on a bridge, which ends up spending 
multitudes more money, because if you push a project out over 
time it increases the cost over time, and delays.
    So, the permitting process, particularly within prescribed 
easements, if you are going to replace a bridge, expand an 
existing road, those should be streamlined. And the President, 
who is a builder, gets it, and we are looking hard at doing 
that. Some of it can be fast-tracked, we believe, under the 
FAST Act, and we are looking at executive ways within the 
confines of the law to do that, particularly in the prescribed 
easements.
    On Interior, and maybe you would be surprised or not, what 
we are responsible for. About half the backlog in the parks, 
$11.5 billion, is roads. And about a third of those roads 
aren't in the park. They are the Memorial Bridge that is a $262 
million bill, which this budget has $18 million set against it. 
We got matching grants from the Department of the Interior. But 
a lot of our parks are gateways, actually, are part of the 
Department of the Interior. We own the George Washington 
Parkway, the parkway out to the Baltimore Airport. It is 
amazing what we own but are also responsible for that is 
``outside our park system.''
    Dr. Gosar. Do you look at coordination and working with 
states and limiting some of the duplicity as an option? How do 
you look at that opportunity to help with that backlog?
    Secretary Zinke. Well, we are thinking the reorganization 
will be helpful. For example, within the Fish and Wildlife, 
there was a bat, an Indiana bat, that came into the great state 
of Georgia. One bat, radio-controlled, shut down, I think, 30 
counties because it was now potential habitat for a bat, and 
they will never be able to find the bat again. They have 
looked. It has been millions of dollars. But this one bat 
caused disruption and about $1 billion worth of construction, 
and that is the Fish and Wildlife part of it, and then within 
bureaus on my side, we had to coordinate better.
    And that was one single bat with a radio tracking device 
caused havoc in 30 counties or so in Georgia, again, at an 
expense of delaying projects that were $1 billion worth of 
construction. Certainly, we can do better, as a country, than 
that.
    Dr. Gosar. Let me ask you about right-sizing the NEPA 
process. Can you give me an example or ideas on how you would 
use environmental assessments, compared to environmental impact 
statements? And maybe right-sizing those types of mitigations?
    Secretary Zinke. Well, up front, I think NEPA has been the 
backbone of prudent environmental policy. I am a great 
supporter of NEPA. But within prescribed easements, there is 
CatEx, environmental assessment, and EIS, and I think we have 
to realistically look what is appropriate to the project.
    If it is replacing a bridge in a prescribed easement, then 
maybe a CatEx is more appropriate, or an EA if it is in the 
sensitive area. But certainly not an EIS. So, I think, looking 
at giving some judgment, and making sure that we coordinate and 
collaborate with the local community and the state better on 
such things to make a determination that is in the best 
interests of the taxpayer and America would be a great step 
forward.
    Dr. Gosar. Thank you, Mr. Secretary.
    Mr. Gohmert. The gentleman's time has expired. At this 
time, without objection, the Committee will stand in brief 
recess. It will be no more than 5 minutes, so I would ask the 
folks here in the audience to be close, because we do not want 
disruptions when we start back promptly.
    Thank you; we will be in recess.
    [Recess.]
    Mr. Gohmert. The hearing will come back to order. At this 
time the Chair will recognize the gentleman from the Mariana 
Islands, Mr. Sablan, for 5 minutes.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    Mr. Secretary, welcome back, sir. And congratulations, 
again, on your appointment. I want to begin with some thank 
you's. First, I want to thank, the President included in the 
Fiscal Year 2018 budget funding for the long-overdue, I think 
it is 8 years now, compact review agreement with the Republic 
of Palau. My bill, H.R. 2085, to authorize that agreement has 
passed this Committee. So, thanks to the Administration for 
recognizing the strategic importance of America's relationship 
with our Pacific ally.
    Also in February, Mr. Bishop visited the Northern Marianas. 
One highlight, sir, was the tour of an ancient village on the 
island of Rota. The national parks resource study team, which 
Congress authorized to look at a possible national park on 
Rota, gave us the tour. I learned a lot of things in that, and 
all of us appreciated it, and we are looking forward to the 
team's recommendations on the park status.
    Thank you also for inviting my comments to assist your 
review of the Marianas national monument under Executive Order. 
In my reply, I wrote about the promises made to the people of 
the Northern Marianas that remain unfulfilled, Mr. Secretary. 
We are frustrated, very frustrated for some, that the required 
monument, the key to long-awaited public education programs and 
the development of a visitor center is over 6 years past the 
due date stated in President Bush's proclamations.
    So, would you, sir, maybe even at a later time, but soon 
provide us with an update on any progress, maybe have someone 
in your office provide us with an update, and a specific date 
for issuance of the plan, Mr. Secretary? I don't know if you 
have the answer here now, but I----
    Secretary Zinke. Thank you. As you know, the President 
tasked me, through an E.O., to review all monuments from 1996 
forward of 100,000 acres or greater.
    The Department of Commerce has the lead on maritime, 
although it seems we are taking the lead on many of the 
maritime monuments.
    Mr. Sablan. I understand, but that decision has not been 
made, so I am continuing to look at the President's decision 
that there is still a monument in the Marianas, and maybe with 
the management plan issued, maybe you would decide that that 
monument remains.
    And in 2005, your Office of Insular Affairs started a 
competitive system for allocating among the U.S. territories 
the $27 million in covenant funds that originally all went to 
the Northern Marianas to help us build our public 
infrastructure. The competition is largely based on financial 
management criteria. And today, the Northern Marianas, which 
was the principal, the sole recipient intended in that fund, 
gets less than a third of the money.
    Financial management is very important, I agree, and no one 
can argue against that. But so is the infrastructure needed to 
provide basic services. According to the EPA, Saipan, the main 
island in the Northern Marianas, is the only U.S. municipality 
without 24-hour potable water. To me, sir, and I am sure you 
would agree, that is a very serious public health concern.
    Shouldn't new criteria be established for the $27 million 
in Northern Mariana's covenant funds so public health and 
safety needs in the Marianas are prioritized?
    Secretary Zinke. Yes. And again, the budget presented is a 
balanced budget, but also it gives an opportunity to hear from 
you on it. I recognize the importance not only strategically, 
but also the contributions. I think we forget about that side 
of the Northern Marianas, and the contributions you continue to 
make.
    Mr. Sablan. Right, and----
    Secretary Zinke. I will be glad to look----
    Mr. Sablan. And as you know, sir, I think I invited you, a 
standing invitation, Mr. Secretary. And my time is running out, 
but I want to mention some justification. The importance of 
technical and maintenance assistance programs, the brown tree 
snake control and coral reef initiative, the Empowering Insular 
Communities program. However, the request includes deep funding 
cuts to each of these programs. The brown tree snake control 
program costs a few million, but if these snakes spread, as 
they have on Guam, and if they spread to Hawaii or the Northern 
Marianas, or any other place, the cost in extermination of 
native endangered birds could cause tens of millions of dollars 
more. So----
    Mr. Gohmert. I thank the gentleman.
    Mr. Sablan. My time has----
    Mr. Gohmert. Time is expired.
    Mr. Sablan. Thank you.
    Mr. Gohmert. The gentleman from Colorado is recognized for 
5 minutes.
    Mr. Tipton. Thank you, Mr. Chairman.
    Mr. Secretary, great to have you here. I did want to be 
able to point out I really appreciated the comments that you 
have made to Senator Gardner on Tuesday in regards to the 
Canyon of the Ancients. And I will not re-ask the same 
question, but I would like to be able to reiterate how the 
Canyon of the Ancients is important in my district and to me, 
personally, of course. And should there be any changes moving 
forward, we would really appreciate making sure that we are in 
concert with your office, and having good communication on it.
    Secretary Zinke. My intent on the monument review is to 
ensure that some of the monuments are settled. My intent was 
not to, and I have said before, not to rip off Band-Aids and 
then create wounds where there are none, to make sure that the 
monuments had public input, that there is overwhelming support 
with it, and to make sure that the monument designations in the 
prescribed period follow the law.
    So, there are monuments, there were 27 on the list, and I 
think we are focusing on just a few. And, quite frankly, most 
of them are either on the proclamation side, maritime monuments 
is fishing, to make sure that we have a vibrant and healthy 
fishing community, so in some cases, the proclamations on that 
would eliminate our ability to fish, which is a big issue, 
especially out West. So----
    Mr. Tipton. Great. Well, I appreciate that. And one other 
issue that you are probably aware of, that Senator Gardner and 
I are working on as well, is the BLM Headquarters Relocation 
Act. And, as you are going through some of the reorganization 
in your Department, I just wanted to make you aware of that, 
and look forward to being able to work with you on that, as 
well.
    We do have one important issue. It does fall under your 
area, as well. It is called the Arkansas Valley Conduit 
Project. Actually, it goes back to 1962, with the Frying Pan 
Arkansas Project legislation, which requires clean drinking 
water to be able to be delivered down into southeastern 
Colorado.
    Unfortunately, we have only seen enough resources that are 
going through right now to be able to make sure that the 
feasibility design be able to service 50,000 people in the 
Arkansas Valley who would benefit from completion of the 
project, those are the only resources that have been provided.
    The Southeast Colorado Water Conservancy District has 
recently come up with a new plan that would shave somewhere 
between 20 to 25 percent of the cost of the project off, and 
the Bureau of Reclamation thus far seems to be amiable to 
pursuing that.
    I have to note that yesterday there was some disappointment 
in our office, certainly, that the project was not given any of 
the Fiscal Year 2017 plus-up dollars for water-related 
resources account, despite the fact that we have been 
advocating for this for an extended period of time.
    I would like to be able to get, actually, your commitment 
to be able to work with my office to be able to ensure that 
every effort will be made by the Department, under the Bureau 
of Reclamation, under your purview, to complete it in a timely 
manner and a cost-effective fashion, which I believe we all 
want to be able to achieve.
    Secretary Zinke. Yes, and I believe the budget has a $3 
million target for that project, so you have my commitment to 
work with you to finish it on time.
    Some of these projects, as you know, as they extend out, 
they become more expensive, just because of the time. So, the 
art is to reduce the amount of time, that will reduce the 
amount of cost and get the projects done.
    Mr. Tipton. Exactly. And your comments to an earlier 
question, in regards to going through some of the review 
process, as well, and the environmental assessments, EISs, is 
something that can certainly help accelerate this project and 
to be able to save some resources for a very important project 
for southeast Colorado.
    One issue that I believe you are aware of is we have had, 
through the Forest Service and now somewhat through the BLM as 
well, conditional use of permit. We just had testimony in 
Committee a few weeks ago in Utah, under the BLM, for ranchers 
to be able to divert water out of a stream, to be able to fill 
a stock pond, conditional use of permit. If you wanted to be 
able to do that, you were to sign your water rights over to the 
Federal Government.
    We have draft legislation that we are working on right now, 
the Protecting Our Water Rights Act, which I think is going to 
be very important to standing up for a very western issue: 
private property rights, when it comes to water in the West, 
priority-based systems, and also State Law, as well.
    I want to make sure that that is going to be on your radar, 
going forward. An important issue, certainly for the West, and 
for our economies, as well.
    Secretary Zinke. And as I find myself the water master, to 
a degree, in the West, I am learning. And I will go back, it is 
very similar to Montana. Whiskey is for drinking and water is 
for fighting. It is absolutely an important issue in the West.
    Mr. Tipton. Thank you, Mr. Secretary.
    Mr. Gohmert. Time is expired. The Chair recognizes the 
gentlelady from Massachusetts, Ms. Tsongas, for 5 minutes.
    Ms. Tsongas. Thank you, Mr. Chairman.
    Secretary Zinke, welcome back to the Committee. Nice to 
have you here. Looking at the big picture, I have to say I have 
real concerns with the Administration's entire Fiscal Year 2018 
budget request. The President's approach to budgeting 
prioritizes defense spending around which we know we do have to 
make some additional investments, but does so at the expense of 
many other national priorities, including those at your 
Department.
    As your testimony indicates, and as we on this Committee 
know so well, Interior has a very broad mission, and plays a 
critical role in the lives of all our constituents. Managing 
our treasured public parks and public lands, overseeing 
development of U.S. energy supplies, understanding and reacting 
to the impacts of climate change, serving as the largest 
supplier and manager of water in the West, and working closely 
with 566 federally recognized tribes, all this has to be 
managed on behalf of all Americans.
    Cutting Interior's budget by well over $1 billion, 
approximately 10 percent, while not as bad as some other 
departments, nevertheless, it will significantly and certainly 
hamper the Department's ability to meet these many 
responsibilities.
    As you well know, the National Park Service is facing many 
challenges, you have referenced some of them, including 
responding to disturbing reports of sexual harassment in the 
workplace. Representative McEachin has referenced that. There 
have been a number of troubling Inspector General reports and 
newspaper stories regarding a number of incidents of sexual 
harassment in some of our most well-known national parks.
    We, on this Committee, have worked across the aisle to make 
sure the Park Service was taking these reports seriously, which 
is why we recommended that the Park Service conduct a service-
wide anonymous survey that hopefully will shed light on the 
extent of this problem. In my service on the Armed Services 
Committee examining the alarming incidents of sexual assault 
and sexual harassment in the military, we have learned that 
such cases do not happen in isolation. And the survey can serve 
as an important first step to better understand the scope of 
the problem. In fact, under the previous administration they 
reached out to the Defense Department as they were crafting 
this survey.
    So, Mr. Secretary, can you provide an update on the status 
of this survey, and the Park Service's work analyzing the 
results?
    And also, in responding to that question, it is my 
understanding that the Park Service will also be conducting a 
second survey in July to include seasonal employees who were 
not included in the first survey, and want to be sure that that 
is correct moving forward.
    Secretary Zinke. I share your concerns about sexual 
harassment and intimidation in the workplace, and I think the 
overall survey of job satisfaction reflects that something is 
wrong.
    We did complete the survey. We will gladly share the 
results when we get the review done. We are doing a second 
survey, you are correct in that, on seasonal employees.
    I attribute a lot to leadership. And I take my job 
enormously serious on being a commander of what I see as a 
70,000-member command. We have a lot of good people. I am 
surprised, maybe not surprised, that is not the right word, I 
am honored a lot of times to go in these places and you see 
really dedicated people.
    There is some frustration, though. The frustration is, 
again, they feel like they have been micro-managed, they feel 
like the job description does not match the job execution. They 
are spending a lot of time in the office, rather than the 
field. They feel like the resources to the front line have been 
pared down, which they are correct, in lieu of building these 
larger regions and headquarters. And it has kind of been a, 
when you see a broken window, go past it.
    Ms. Tsongas. Well, Mr. Secretary, I appreciate your looking 
at the broader issues around the culture of the National Park 
Service. But as we have learned so well in the Armed Services, 
and all the work that has been done there to address the 
egregious issues of sexual assault and harassment, it takes 
both a top-down approach and a bottom-up approach, and there 
are unique ways in which one has to address the situation.
    I hope that you will commit to coming forward to letting us 
know the results of both surveys so that we can have a better 
understanding of how the Park Service is going to specifically 
address the issue of sexual harassment. Would you commit to 
that?
    Secretary Zinke. Absolutely, and I think this is going to 
take working together. It is not just the Park Service, it is 
BLM, and we talk a lot about the Park Service because most of 
America sees the Interior through the eyes of the parks. But 
also we have Bureau of Reclamation, Wildlife, BIA, and all the 
different bureaus that make up the Interior family.
    Ms. Tsongas. So, you are suggesting it is a broader issue 
throughout the Department of the Interior?
    Secretary Zinke. I am suggesting there is indication that 
it is a broader issue than just the parks. Certainly BLM has 
had issues on it. I am aware of other issues within it. So, I 
think, it may be department-wide. I think that would be a fair 
assessment.
    But it is going to take us working together. Some of it 
might be legislative, to make sure that a voice is heard, and 
make sure that the voice is protected when that voice is heard.
    And also, culturally, do some hard thinking about what we 
should be, what our goals are. I think the military, overall, 
has done a good job with it. But there are imperfections in the 
military, and there are improvements the military could do. And 
I don't think there is one person that knows all the answers, 
but certainly working together I think we can carve a good 
path, because I know where we want to be. We want to make sure 
we have an environment that is free of harassment, free of 
intimidation, that allows our employees to be the very best 
they can be.
    Ms. Tsongas. Well, I agree with you that wanting is not 
always enough.
    Mr. Gohmert. The gentlelady's time has expired.
    Ms. Tsongas. I look forward to hearing how you plan to 
address it.
    Mr. Gohmert. The gentleman from California, Mr. LaMalfa, is 
recognized for 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Mr. Secretary, great to see you, good to have you here 
today. You will be pleased to know H.R. 1873 moved across the 
Floor yesterday. That was the bill to streamline the process 
for removing hazardous trees from power lines, a topic, in the 
previous session, that you were very interested in, as well.
    Secretary Zinke. It took an Act of Congress to remove a 
tree.
    [Laughter.]
    Mr. LaMalfa. Yes. It is my understanding also that you have 
made contact with the National Sheriffs' Association for a 
meeting on improving coordination between Federal and local law 
enforcement, which could be very, very helpful and important in 
establishing a little greater trust with local rural residents 
and the agencies under your jurisdiction. And also issues we 
have had with marijuana cultivation by foreign nationals under 
local enforcement. And we have had legislation on the Plant Act 
in the past, on helping with that, so I appreciate that 
contact, whatever you are able to make with the National 
Sheriffs' Association, and then establishing that.
    Let me shift real quickly to the Indian Affairs issues. I 
sit as Chair of the Subcommittee on Indian, Insular and Alaska 
Native Affairs. We had a very important hearing yesterday about 
some issues in the Great Plains area with tribal health and the 
facilities there, too.
    So, I urge you, in the infrastructure bill that might be 
coming out, legislatively, later this year or whenever, that we 
have an important funding component there, addressing the 
backlog on Indian health facilities and their issues, as well 
as some of the other issues they are working on for 
transportation, education they are needing in Indian Country. 
If you heard the testimony yesterday, there are some big, big 
problems with Indian health, and especially in some of the 
Great Plains areas.
    Also, more uniquely to California, but in general, as well, 
the previous administration had engaged in litigation 
supporting two off-reservation gaming facilities in California. 
One was outright objected by the voters and was rejected. The 
other of which did not ever have a valid state of California 
compact. So, if you would, Mr. Secretary, if you could review 
those cases that are being litigated, and determine if the 
activities of the Interior really reflect the policies that we 
should be pursuing, and in the Administration as well.
    Last, and coming back to California, on water issues. 
Obviously, big challenges here. We had some very huge snowpack 
and rainfall. We are blessed by that, and happy for it, but the 
infrastructure still needs to keep up with that, as well.
    So, may I ask, what actions would you be looking at to help 
with the non-Federal water storage projects we have, like Sites 
Reservoir in California, which is an off-stream project I am 
sure you are well aware of, 1.8 million acre-feet, or other 
projects similar to that, where Federal investments could 
trigger several times as much funding from other sources as a 
source of confidence in the investment? And that should be part 
of the key infrastructure plan the Administration has.
    We could see a three to four time return in other 
investment, buttressing the Federal one. What do you think we 
could be doing to advance that with some Federal investment in 
water projects?
    Secretary Zinke. Well, thank you. And real quickly, on the 
Indian gaming land-into-trust issue, on January 19, there were 
a number of Indian trust issues that were assigned by the 
previous Secretary. We are reviewing how much latitude I have 
to review. Some of it is legislatively, when land is taken into 
trust, what are my options. We are looking at that and going 
through them. I think I got sued six times the first day in 
office. So, we are reviewing what legal course and 
determination, and what should be our policy on it; and we are 
coordinating with the tribes in question on that to get a path 
forward.
    It is a mistake to think that the Indian tribes are 
monolithic. Every tribe has a different story, different 
cultural backgrounds, and different expectations and we are 
working through that.
    On water in the West, we committed to about $23.4 million 
on grants for reuse projects. Clearly, in California, water 
storage is an issue. One of the first trips I made was to 
California and visited with the governor to try to align our 
priorities on expenditures, so we weren't at loggerheads moving 
forward with that. We were lacking in storage capability.
    And also, if water begins in California and ends in 
California, what is the role of the Federal Government? 
Clearly, if water transits outside, between state boundaries, 
to a different state. But if the source and end and use is in 
California, in this case, the Central Valley, what is our long-
term role, as the Federal Government?
    There are Federal water holders, but I find myself being 
the adjudicator between all California issues. And, no matter 
where I turn, I am not sure that we can ever get in the 
position where we are not the adversary. So, we are looking at, 
structurally, what is best to protect all users. But then, 
going forward, what should we do as a Federal Government?
    Mr. LaMalfa. Thank you.
    Mr. Gohmert. The gentleman's time has expired. The Chair 
recognizes Mr. Beyer for 5 minutes.
    Mr. Beyer. Thank you, Mr. Chairman.
    Mr. Secretary, welcome back. Congratulations on the new 
job. I have a plethora of questions, so I would appreciate not 
one-word answers, but maybe two-sentence answers.
    Number one, you mentioned 70 appointments that you don't 
have yet. Can you tell us how many political appointments 
President Trump, other than yourself and the Deputy Secretary, 
has submitted to the U.S. Senate?
    Secretary Zinke. I will get that number. The White House 
slate has been approved, to a degree. I can tell you the hold-
up has been the Office of Government Ethics. I could give you a 
core example in two sentences.
    I have a terrific candidate for USGS. I don't think I could 
find a better kind of candidate for that. And TS, SBI, SSEI. He 
has circled the earth. I will give you a hint: a great, great 
candidate, but trying to get through candidates of that 
caliber----
    Mr. Beyer. OK. I just wanted to make clear that it was not 
the Democrats that were holding up your appointments, so----
    Secretary Zinke. At least so far. It has been frustrating. 
Certainly, David Bernhardt is the first up----
    Mr. Beyer. Mr. Secretary, let me move on to the Memorial 
Bridge.
    Secretary Zinke. Yes.
    Mr. Beyer. I heard you had mentioned that earlier. Thank 
you. It is in desperate need of repairs. It leads into 
Arlington Cemetery. We have the first $90 million for the Fast 
Lane Grant project, but it requires a 40 percent match from the 
National Park Service.
    The whole National Park Service transportation budget is 
$268 million. So (a), do you have a plan for addressing 
Memorial Bridge? (b), can we perhaps request that 
appropriations get rid of the match? Or (c), a one-time step-up 
in the Park Service's transportation budget?
    Secretary Zinke. What we are looking at to incorporate in 
the President's infrastructure bill are some pathways to 
particularly address the national parks part of it. We are also 
looking at public-private partnerships.
    I would love to transfer ownership of the bridge and some 
of our parkways to the states, but I don't think the states 
want to assume that liability. Clearly, for northern Virginia, 
Maryland, and DC, those bridges are less of a park and parkways 
as they are a vital transportation hub. So, I am particularly 
concerned that we honor our obligation to make sure that the 
potholes are fixed, and the bridge is fixed, because I think it 
would be catastrophic for Washington, DC to have that bridge--
--
    Mr. Beyer. Well, we would love to work with you on plans 
going forward, because you do own it for the time being.
    Secretary Zinke. I do, and I have talked to Elaine Chao at 
Transportation, and she wouldn't take it either. So, I guess it 
is going to be mine in the outyears.
    Mr. Beyer. Mr. Secretary, you and I, and many others, have 
gone back and forth on the Endangered Species Act. And one of 
the great concerns, and this is one of the most successful 
Federal programs of all time: 99 percent of the list of species 
have been preserved so far. But we see a 17 percent cut in the 
President's budget to listing, almost $4 million in recovery.
    So, three quick questions: Is the budget sufficient for you 
to meet the ESA obligations under the law? Can you achieve the 
goal of de-listing more species without running afoul of the 
good science, the best available science? And can you do it in 
a way that the Fish and Wildlife Service will not continue to 
lose lawsuits over failing to take the required actions?
    Secretary Zinke. Well, it does fund core tasks. Some of the 
reintroduction of species is not funded. In regards to the 
courts, I think we are on firm ground on many of the cases we 
put forward, and the courts have rejected those grounds, even 
though we have, in some cases, the American Academy of 
Science's back.
    So, we have what I think is a fine legal argument by some 
of the greatest biologists, wildlife experts, and yet the court 
will not see that in the same light. I am hoping we can narrow 
the gap on such things, because we spend a lot of money on 
litigation that could have been spent in better uses.
    Mr. Beyer. Well, let me ask you----
    Secretary Zinke. I want to work with you on that one.
    Mr. Beyer. OK. Yes, please. In the last 30 seconds, one 
more endangered species are senior executive service employees 
at the Department of the Interior. I know we just had 36 of 
them receive letters getting relocated. Are there going to be 
more letters to come? How many more people are going to be 
affected by this?
    Secretary Zinke. It is interesting, because it is normal 
course. The SESs, by definition, should be prepared to move. We 
looked at it, we had a board, and some of the positions had 
been there for 30 years. Some of it is looking at where we need 
help, which is actually the front lines. I don't need a lot of 
help in Washington, DC, other than maybe my Deputy and a few 
people. I need more help in the front lines.
    So, moving people that are in the designated areas, by 
definition, I think it was appropriate. And quite frankly, some 
of them are voluntary moves. And we will have a list of who, 
because they could voluntarily move or not. And some of it is 
trying to match skill sets, if they have a degree in biology, a 
degree in things like that, where should they go, better 
served. So, we are looking at that.
    It is our first round, I am sure we will look at other 
rounds, as necessary. The reorganization is going to have a 
look at that, too, as we look at shifting more assets to the 
front line. What the structure of that front line should look 
like, that is yet undetermined, because we don't want to do the 
same thing that I talk about, is one-size-fits-all. So, we 
actually have to coordinate with the front line to see what 
skill sets and what structures would be appropriate.
    Mr. Gohmert. The gentleman's time has expired. The Chair 
recognizes the gentleman from Idaho, Mr. Labrador, for 5 
minutes.
    Mr. Labrador. Thank you, Mr. Chairman. And Secretary Zinke, 
thanks for being here today. It was good to see you in Idaho 
recently. I hope the comments you heard there from Idahoans 
will have a positive impact on the decisions you make as 
Secretary.
    I recently heard from some Idaho companies that to print 
simple notices in the Federal Register, the BLM process takes 
up to 6 months or longer than the Forest Service process. I am 
told that this is due to extra redundant steps of bureaucracy 
that do nothing more than delay.
    Mr. Secretary, I think, and I think you believe that this 
can be remedied by mirroring the Forest Service's process and 
implement through internal policy. It does not take an Act of 
Congress. Will you work with me to make the necessary changes 
to address this issue?
    Secretary Zinke. I will. I look forward to working with 
you. I am not sure the Forest Service, and I don't mean to be 
critical, it may be a better model than what we are doing, but 
I am not sure the Forest Service is the best model. So, I think 
we should work together to find the best model, of which the 
Forest Service and BLM can be on the same page. Because a lot 
of times the checkerboard system in the West, we should be 
consistent in superior performance.
    Mr. Labrador. Excellent, thank you. I appreciate that.
    In its Fiscal Year 2018 budget justification, the Office of 
the Solicitor noted an anticipated increase in litigation 
brought against the Department in the coming year. How does 
constant litigation impact the Department's ability to fulfill 
its core missions?
    Secretary Zinke. Well, certainly being sued six times in 
the first day, it is different because all of a sudden it is 
Ryan Zinke versus somebody, and they very artfully, by name, I 
follow the law. So, if the court mandates that we stop, desist, 
or change, then I am going to follow the law. Does it slow me 
down? Depending on the suit. I wish that the country was not as 
polarized as it is. And I think the law sometimes should be 
clearer on direction.
    I could tell you we have a great staff of people that, when 
we make a ROD, or record of decision, I think it is based on 
science, it is based on what is appropriate in the best 
interest of the public lands and all parties concerned. So, I 
am pretty confident what we bring forward is a good piece, at 
least during my tenure. The courts may or may not see it 
differently. And it also depends on what court it is.
    Mr. Labrador. Yes. You recently issued a Secretarial Order 
on sage-grouse. Can you describe your order, and how you will 
involve states in the review process and beyond?
    Secretary Zinke. Yes, the Secretarial Order did two things. 
One, it established a group, an advisory within Interior, 
because Fish and Wildlife, BLM, National Parks in some cases, 
Bureau of Reclamation, we want to make sure that we are unified 
in our message. And two, to give an indicator to the states 
that we are willing to look at the state issues and state plans 
because they are different.
    So, we are going to be flexible in approach, and not be 
one-size-fits-all, to give latitude to the states to include if 
a state so chooses to look at numbers, a numbers management 
vice habitat, we are going to honor that. Then we are going to 
work with the state to determine what a healthy population 
would look like, and then work with the state to develop a 
management plan that addresses that vice just habitat alone.
    We also incorporated things like predator control, captive 
breeding, and give the states latitude in the development of 
their plan.
    Mr. Labrador. During the previous administration, your 
predecessors repeatedly said that they were going to work with 
the states. But when the states had some plans, then they 
wouldn't follow the input of the states. Are you committing to 
this Committee that we will work together with the states, and 
we will be able to have better management and input from the 
states?
    Secretary Zinke. I am absolutely committed to work with the 
states in many ways. I think the states are in a better 
position to manage the sage-grouse than the Federal Government, 
and we should honor a flexible approach based on a variety of 
metrics to make sure that we do our part to ensure the bird 
does not get listed.
    Mr. Labrador. And finally, I wish Mr. McEachin was still 
here, but I thought his line of questioning was interesting.
    Last year, he is a freshman, so maybe he didn't know this, 
but last year the OGR Committee, the big oversight committee, 
not the Natural Resources Oversight Subcommittee, had four 
hearings on sexual harassment, two in the National Park 
Service, one in the Forest Service, and one in the EPA. I don't 
mind having another hearing on that, I am the Oversight 
Chairman here in Natural Resources. I don't mind having that 
hearing.
    But I thought it was interesting that he would accuse you 
of not doing something that happened under the previous 
administration. All he had to do was ask me, and I would have 
agreed to do a hearing in our Committee. Anyway, thank you very 
much.
    Mr. Gohmert. The gentleman's time is expired. The Chair 
recognizes the gentleman from California, Mr. Costa, for 5 
minutes.
    Mr. Costa. Thank you very much, Mr. Chairman.
    Mr. Secretary, welcome. Congratulations. I don't know if 
the view is any better from where you are sitting today from 
where you used to sit, but I look forward to working with you, 
and this will be part of a longer conversation that we will 
continue to have. There are many areas, from forest management 
to our parks that I would like to talk to you about, but I am 
going to confine my focus today to water. Water, water, water.
    You noted a bit ago that you are not so sure that you are 
ultimately going to be able to be Solomon-like in dealing with 
all the challenges we have in California, but I think you are 
off to a good start. You are meeting with the governor, 
obviously, who is important as we look toward fixing a broken 
water system in California. And as you know from your previous 
experience, it is either feast or famine in California.
    The fact that you have taken the time to come out there in 
your early months, not only to visit our parks but to meet and 
talk with other folks, I think is a significant good step, 
first step forward.
    You and I voted for the WIIN Act last December, which was 
important. The President signed it, that really begins to make 
incremental progress in fixing that broken water system. The 
legislation has multiple provisions that impact all of 
California water users, which is why we had such a broad-based 
bipartisan support.
    I want to talk to you about some specific areas of the 
legislation, Sections 4001 and 4003 that provided greater 
flexibility for the Department to operate the movement of water 
through the Federal pumps. Can you provide details on how these 
sections have been implemented during this very wet water year 
that we have had? We are very thankful to God for it. As well 
as whether operating these sections resulted in any additional 
water supply.
    Quickly, and then I have a couple of other questions.
    Secretary Zinke. I don't know the specifics of that, 
because I don't want to mislead you, but I will find it.
    But I know that, given the wet winter, it was a unique 
winter because it was a lot wetter.
    Mr. Costa. Right.
    Secretary Zinke. And it did not provide the opportunity to 
look at what would happen as depletion goes lower. So, our 
report will be more on the, well, geez, we got a lot of water 
vice on how well we reacted when we didn't.
    Mr. Costa. Right.
    Secretary Zinke. That was some of it. But I agree with you, 
that providing more flexibility, and some of this solution 
needs to be a made-in-California solution with us in the 
supporting role, rather than the other way around.
    Mr. Costa. One size does not fit all, that is for certain.
    Sections 4010(a)(4) and 4010(b)(5) both deal with efforts 
to restore delta smelt, a listed species that impacts project 
operations. Specifically, 4010(a)(4) requires delta smelt 
distribution study to be completed to better inform real-time 
operations under Section 4010(b)(5). It also requires 
utilization of the delta smelt conservation fish hatcheries. 
Can you provide an update on the status of the Department's 
implementation of these actions specifically related to the 
Fiscal Year 2018 budget?
    Secretary Zinke. I know we are working with the state and 
the National Marine Fisheries Service, which is NOAA, and the 
Bureau of Reclamation. Again, this is part of our problem, that 
we are not acting as joint as we should be, so there are 
different views within different departments that has created 
an issue for the smelt.
    Mr. Costa. Right.
    Secretary Zinke. As you know. But we are looking at new 
facilities and to evaluate supplementing the native fish. We 
are also looking at the problem with the striped bass.
    Mr. Costa. Right, the predator species.
    Secretary Zinke. Yes, predator control, which was 
previously not a priority.
    Mr. Costa. You know, some of the water agencies up on the 
Sac Valley and Reps. LaMalfa and John Garamendi know this and 
are doing some very unique things to provide other habitat for 
salmon that we should continue to encourage and expand.
    Also, on the monitoring, for real-time monitoring, a number 
of water agencies have offered to provide us additional support 
for boat crews, so that we can improve coverage and resulting 
data at real time. I would like you to get into that or provide 
some support for that.
    There are also some areas on how the capability of the USGS 
could be used to assist in implementing science activities. And 
if you could look into that, as well. Additionally, other 
partnerships with public agencies, as I noted above, can be 
helpful toward dealing with the biological opinion consultation 
process for not only delta smelt, but other listed salmonoid 
species.
    What do you think about the Stafford Act applying to 
dealing with emergency, with the fire conditions that we are 
facing, instead of using all the management for forestry to put 
out fires?
    The Chairman [presiding]. Which you will have a chance to 
answer soon. Thank you. Your time has expired.
    Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman.
    Secretary Zinke, it is great to see you back here in the 
Committee. It was an honor to be elected with you in the same 
class in Congress, and to serve with you here on this 
Committee. And I know that not just me, but a lot of Americans, 
are grateful to you for your military service, your service in 
Congress, and now it is great to see you over at the Department 
of the Interior.
    I know from personal experience that you and I share a lot 
of the same ideas on conservation and land management. I know 
that one area that you have supported during the last Congress 
was on reauthorization of the LWCF, the Land and Water 
Conservation Fund. And I know that in your testimony you 
mentioned briefly that the LWCF receipts authorization expires 
at the end of Fiscal Year 2018, and the Administration will 
review options for reauthorization.
    If we look at that fund and the history of it, it has 
generated about $38 billion since it was set up in 1965, $17.5 
billion has been spent, which leaves a balance of about $20.5 
billion. Over that time frame there have been over 5 million 
acres purchased, 42,000 state and local projects done through 
that fund. When the fund was originally set up, it was supposed 
to be 60 percent state and 40 percent Federal. It is now, in 
reality, about 40 percent of the fund went to state projects 
and 60 percent went to Federal projects.
    The purpose of that fund is to require, preserve, and 
ensure access to outdoor recreation facilities. And I want to 
tie this in to infrastructure. I am so pleased to see your 
emphasis on infrastructure and the recognition that we need to 
do more on the infrastructure on our public lands, especially 
on the Park Service.
    But there has not been a whole lot of the Land and Water 
Conservation Fund, I believe, spent for the preservation and 
ensuring access to outdoor recreation facilities, and 
infrastructure plays a vital role in that. So, my question to 
you is, do you think that there is opportunity, maybe through a 
reauthorization, to restructure LWCF so it is focused more on 
state projects, focused more on taking care of the assets that 
we currently have in the system?
    Secretary Zinke. I do, and it is hard to recreate on a 
beach if the beach doesn't exist because there is not a 
reclamation program to support it, particularly on the Gulf 
Coast, and in the Gulf states, I don't mean to talk for your 
esteemed colleague to your right, but----
    Mr. Westerman. I am sure he will have----
    Secretary Zinke [continuing]. When all the money is 
received, revenue is received offshore, and much of it goes 
inland, there is always an argument about why is it 
appropriate. But I think the mission of LWCF and expense, I 
think we need to look at it. It is hard to recreate if you 
don't have a road to get there, or the road is closed because 
they do not have the maintenance to make sure it is safe.
    So, using the LWCF in the spirit of how it was formed, to 
restore lands that would provide access to public activities, 
recreation, I think is an area where we would agree that the 
states should have more say. It was set up where, the states 
are always in a better position to look at recreational 
opportunities within that state, and to highlight their assets.
    So, giving more latitude to the states so the states can 
decide what their opportunities are, what they should be, I 
think is a good thing.
    Mr. Westerman. Do you feel like you have authority under 
the current authorization to use more of the LWCF funds for 
infrastructure?
    Secretary Zinke. It would be nice if I had more latitude, 
quite frankly. The law is pretty clear. But it would be nice, 
one is if we had a steady stream of income. You rightly point 
out that there is over $20 billion that has not been used, even 
though offshore assets, oil and gas primarily, have given the 
revenue for a purpose, and that purpose has not been authorized 
and not used.
    Same with Bureau of Reclamation, by the way. Bureau of 
Reclamation, about $18 billion of unused. These are revenues 
intended to build our rural and reclamation opportunities for 
water. That is untapped, so I would like, personally, to work 
with you to have a steady stream, and give the states more 
flexibility, and use those monies with more flexibility to 
provide greater public access and use.
    Mr. Westerman. I look forward to working with you on that.
    Secretary Zinke. So do I.
    The Chairman. You will get it.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Mr. Secretary, I am sorry you came in between my two stints 
in Congress, so I did not have the pleasure of working with 
you. I am the Ranking Member on the Subcommittee on Federal 
Lands. So, as you can imagine, the issues regarding the 
National Park Service are of great concern to me.
    You have stated in your opening statement, as well as 
throughout your statements that you have provided to us, that 
this is a balanced budget. And I would like to understand how.
    We know that the National Park Service has about 417 units. 
In 2016, it had a record 331 million visits and about $18.4 
billion in direct spending, 318,000 jobs, and $34.9 billion in 
economic output.
    You also issued in your statement that, and it is on Page 
3, ``In my first days in office I issued two Secretarial Orders 
to expand access to public lands and increase hunting, fishing, 
and recreation activities nationwide.'' Yet, your next sentence 
talks about a $354.3 million reduction in the 2017 budget.
    If I am understanding where you are getting those figures 
from, a lot of it is coming from National Park Service because 
of the $2.9 that was there in 2017, $2.6 is part of the 2018 
budget. I am trying to understand how you justify the budget 
cuts and say you are opening the access, and at the same time 
your statement to NPS says basically that they will utilize 
various strategies on a park-to-park basis, which may include 
limiting the use or closing of certain areas as campgrounds. 
How do those two actually jive?
    Secretary Zinke. Thank you for the question. It is a 
balanced budget. As you know, the President submits a budget. 
It is what a balanced budget would look like, overall.
    The Park Service itself did not receive more of a savings 
than any other one. But also, you notice that there was an 
increase in areas where we gain revenue. And I don't give 
judgment, it is just that the revenue picture has been tough. 
The best use, or the most flexible funds, are through the front 
door in our parks.
    And you are right, we had 330 million visitors last year. 
But here are the statistics. About half the parks do not charge 
anything. The Park Service has a four-tier system. A lot of the 
parks do not even follow that. So, I have also commissioned an 
internal study, and we want the parks to be the most 
outstanding, great deal, and incentivize families and usage. 
But by the same token, we have to look at our revenue picture.
    So, what we are looking at on the revenue process, so we 
don't have to go through these cuts, in a balanced budget is 
looking at making sure the front door tickets are appropriate, 
that incentivize families.
    Public-private partnerships, since you sit on the Federal 
Lands, look at Yosemite. What is the opportunity at Yosemite in 
regards to how do you mitigate the traffic problem?
    Ms. Hanabusa. Mr. Secretary, I don't mean to interrupt you, 
but is that really what NPS is supposed to do? Is it supposed 
to be a revenue-generating enterprise? Because I always thought 
one of the things that we talked about was the fact that NPS 
and the Park Service were a way to get our families engaged.
    And Mr. Secretary, I don't have very much time, but I want 
to talk to you about an issue that is also very dear to my 
heart, which is also one which talks about cuts. And that is 
the Japanese confinement. It is not a lot of money in your 
budget, it is about $2.8 billion now. You have cut it to $1 
million. I am the granddaughter of someone who was in Santa Fe, 
New Mexico, but also in Hawaii, where we are beginning to do 
what we need to do.
    Honouliuli was very unique in that Honouliuli not only had 
Japanese-Americans, but also German-Americans and Italian-
Americans, because Hawaii's makeup is very unique. We are all 
minorities, so everyone that was considered an ``enemy,'' even 
though the Japanese-Americans, and neither were they truly 
enemies, were interned. And these cuts are going to slow down 
the necessary work, so I would really like for you, when you 
say a balanced budget, to keep that in mind.
    Thank you, Mr. Chair, and I yield back.
    The Chairman. Thank you. I appreciate Mr. Gohmert taking 
over in my absence, and he missed his chance to give you 
questions, so I am going to go to him next for questions.
    Mr. Gohmert. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary. You really are a breath of fresh air, and the 
Department could use it.
    I am curious. You mentioned 70 nominations that are still 
out there unconfirmed that you desperately need to help achieve 
your mission. In your office, in the building, Department of 
the Interior over there, how many of those people that are 
working there around you are actually people you personally 
hired?
    Secretary Zinke. Well, I want to correct it there. I have 
70 appointments.
    Mr. Gohmert. Right.
    Secretary Zinke. In the 70 appointments, some of them have 
been appointed by me.
    Mr. Gohmert. I see, OK.
    Secretary Zinke. I have, I would probably say around 20 or 
so. Some of the deputy acting assistants are. But to date, the 
Senate-confirmed, which are the major leadership team, that is 
solicitors, the five solicitors I have, my deputies, directors 
of all the departments, the assistant secretaries, all of them 
are yet to be in the seat.
    Mr. Gohmert. Right. About how many employees are in that 
building?
    Secretary Zinke. Overall, I have about 70,000 employees 
within the Department of the Interior. In DC, somewhere in the 
order of maybe 6,500. In Denver, 4,200. We had some really 
large regions.
    Mr. Gohmert. Yes.
    Secretary Zinke. And yet in the field we are pretty short 
when it comes to a specific----
    Mr. Gohmert. I am sure it would be great to have at least 
some of those folks that are as allegiant to you as they were 
to the Obama administration.
    I want to take you to a problem that seems to exemplify 
problems we see across the country. In Harrison County in my 
district, east Texas, we have one of the greatest natural 
assets in the country called Caddo Lake, at one time the 
largest natural lake south of the Great Lakes in the United 
States. At one time during World War II, there were 10,000, 
11,000 or so employees working at a plant there, an ammunition 
plant.
    But when BRAC said military no longer needed the land, it 
had been used for a lot of purposes, they worked great with the 
community, and you can imagine that many employees, what a 
difference it made in our small county. When you lose that many 
employees and then we look into BRAC, OK, maybe the community 
could get it. Could it be a park? Could it be something great, 
really help? Well, under BRAC, any Department of the Federal 
Government can jump in and claim it.
    U.S. Fish and Wildlife, it turns out, apparently, they love 
to run in and grab land. And I found out previously that, 
actually, if they go through and mark pine trees for clearing, 
and I am a big fan of management, we don't do enough of it, but 
they do get a personal bonus, based on how much money is made 
cutting the pine trees.
    Well, I went wow, that gives them incentive to claim land 
that they may not need, but an area where they can make 
personal money.
    Well, we got a new guy in there named Eric Derkov, and he 
met with me and county judge, Hugh Taylor, Sheriff McCool. He 
arbitrarily decided that, he felt like it was probably against 
the law, but he cited NEPA and some other things, and showed a 
complete ignorance of the law. But despite his lack of 
knowledge and ignorance, it didn't prevent him from being 
immovable and incalcitrant.
    There was a firing range there that law enforcement, for 
130 miles, from Louisiana over to Dallas, would come and use. 
They would train people to drive. And Eric Derkov just decided 
that that is inconsistent with NEPA and the Department of the 
Interior and U.S. Fish and Wildlife, nobody would be allowed 
there. They say we may have as many as 10 local people walk 
their dogs through there, but we are talking about a huge area 
that is basically devastated, Harrison County, surrounding 
area, and now we have, I am sure he is competent in some areas, 
I just couldn't find any within U.S. Fish and Wildlife.
    But we need help, and I am just asking if you would look 
into Mr. Derkov and the damage he is doing there to people in 
east Texas.
    Secretary Zinke. I will look into it and make sure he is 
consistent with the policies. You will be happy to know, too, 
that Interior's south building, we gave that up as we are 
bringing National Park Service into the main building. And we 
have given up Interior south back to GSA.
    Mr. Gohmert. Thank you so much.
    The Chairman. Can we have it?
    Secretary Zinke. I am sorry, sir?
    The Chairman. Giving it up? Can we have it? We are doing 
construction out here. Never mind.
    Mr. Soto.
    Mr. Soto. Thank you, Mr. Chairman.
    And welcome, Mr. Secretary. I am from Florida, and we care 
deeply about the Everglades. We recently sent you a letter 
about designating the Kissimmee River, where we spent billions 
to restore it, on making it a wild and scenic river. Can we 
expect a response at some point soon?
    Secretary Zinke. Yes, absolutely. And I have met with the 
governor, and am catching up to speed on the seagrass, which 
has become the creek of not much. I understand the problems 
with the overflow and the reservoir, the need for the levee 
system to be redone.
    My intention is to be down in Florida right after the break 
in there to look at it and assess it, and I would be glad to 
work with you on that. I understand it is a huge problem, but 
there are solutions. And my commitment to you is to work 
together to find the solutions.
    Mr. Soto. Thank you, Mr. Secretary. We also have a 125-mile 
buffer through 2022 in the Gulf of Mexico off of Florida for 
oil drilling. Is that buffer in jeopardy right now?
    Secretary Zinke. We are looking at, with the military, 
there are some areas that are closed that we would look at 
seismic assessment. We are working with the military to look at 
their letter, which I am sure you got a copy of, to make sure 
that we are all on the same page. I would not say it is in 
jeopardy one way or the other, we are just making sure it is 
based on military needs.
    As a former military officer, if the military, which is 
non-political, if they say they need an area, then certainly I 
would pay attention to that, which I am.
    Mr. Soto. We also saw White House attorney Udham Dillon say 
that individual Minority Members, Ranking Members, and 
basically, Democrats and rank-and-file Republicans do not have 
an individual authority to conduct oversight. Is that the 
policy of the Department of the Interior, that unless our 
Chairman sends a request we don't have an oversight right?
    Secretary Zinke. My policy has been any Member has a 
privilege of being a Member, so I have, as you know, offered to 
come quarterly and sit down with the Minority in a group and 
discuss the issues so you know exactly where we are. I think I 
have given more access than certainly any Secretary in my time.
    I think, as an elected official, you deserve the courtesy. 
As a Secretary of the Interior, it is our Interior Department, 
it is not just one party's or another. And my commitment is to 
be responsive to you and make sure there is a level of trust 
that exists in the Minority, just like the Majority.
    Mr. Soto. And then we have had such a focus on Bears Ears. 
I know you went over there, there have been a lot of hearings 
on it. What is the main focus? Why are we setting our sights on 
an area that has ancestral ties for five Native American 
tribes? What is it about Bears Ears that has brought your gaze 
to it?
    Secretary Zinke. Well, an excellent question. Here is the 
laydown for those that have not been out there. It is 1.5 
million acres, about 1.5 times the size of Glacier Park. Within 
Bears Ears itself, there is a monument, an existing monument. 
There is a wilderness study area, about 400,000 acres. There is 
a national forest. There is BLM. And there are antiquities. So, 
reasons why it became a monument are varying, but it became a 
monument.
    My task was to look at a monument and make sure, first, are 
there antiquities there? Yes, there are. Does it follow the 
law, which is smallest area compatible with protection of the 
object? When I looked at it and talked to everyone, the tribes 
before, and it is not true that I only spent an hour with the 
tribes. We had meetings before I got there, we have had 
meetings afterwards. I called the tribes, and this was the 
recommendation, that the antiquities within the Bears Ears can 
be segregated, identified, and the border revised to protect 
those antiquities.
    What I found is when you go out there, and the antiquities 
that are to be protected, some of the dwellings, when there is 
no parking lot, designated parking lot, there are no bathrooms, 
there is no infrastructure that, you can drive in it multiple 
ways and pilfer. Part of the responsibility when I become the 
monitor and protector of the antiquities, we need borders to 
make sure that I can actually do my job. So, the border is 
revised.
    The second thing is I am asking Congress to authorize co-
management of that monument with the tribes there. This has 
never been done. And the authority does not rest with the 
executive. The authority rests with you. So, I have to ask you 
to provide co-management, and the request from the President, I 
think, will be to ask you that.
    Last, there are areas within the monument that are better 
suited, in my judgment, to be national recreation areas, 
conservation areas.
    And last point, Mr. Chairman, if I can indulge you for 15 
seconds, is that what happens when you put a monument over a 
wilderness, over an existing wilderness. A monument is managed 
by the proclamation. A wilderness, in many cases, can be more 
stringent in its management application. So, I am asking 
Congress to provide clarity of what the intent of Congress is 
when you put a monument over top of the wilderness. What system 
do you manage it as?
    The Chairman. Thank you. We accept that responsibility, we 
are going to do it.
    I will just notice here that there is no policy anywhere 
that says all the questions have to go through the Chairman. 
But I would like to note that I wouldn't mind that. If we want 
to do that, I kind of appreciate that one.
    Mr. Graves.
    Mr. Graves. Mr. Secretary, thank you very much for being 
here. I want to make note for the record that, actually, at a 
hearing similar to this with Secretary Jewell, I actually asked 
her to provide follow-up information to our office, and we 
never heard back. We called them after that and never heard 
back.
    As a delegation, we requested a meeting with the Secretary. 
That meeting was refused, as a delegation. We requested a 
meeting with BSEE Director Salerno. That meeting was refused. 
And we also tried to get NOAA to accept some of Louisiana's 
science, which was much improved, based upon NOAA related to 
red snapper fisheries, and NOAA refused to accept that data, or 
utilize the state data that was better.
    Mr. Secretary, you mentioned earlier that in the last year 
of the Bush administration in excess of $18 billion was 
generated from offshore energy revenues, and the last year of 
the Obama administration approximately $2.7 billion was 
generated from Outer Continental Shelf energy revenues. 
Extraordinary disparity.
    And, as you correctly noted, there are certainly in 
addition to policies by the administration, certainly what goes 
on in the Middle East, policies and other issues affected 
energy production and revenues.
    If you add up the six states that produce offshore energies 
in Federal waters: Alaska, California, Texas, Louisiana, 
Mississippi, and Alabama, and if you add up the production of 
the five states of Alaska, California, Texas, Mississippi, and 
Alabama, multiply it times three or four, that is what 
Louisiana produces in our Federal waters.
    Right now, based upon Federal policy, other states like the 
states of perhaps Wyoming, New Mexico, Arizona, wherever, they 
benefit more from the offshore energy revenues than the state 
of Louisiana. I don't understand that. And while the Obama 
administration in the last 2 years proposed to cut the Gulf of 
Mexico Energy Security Act revenue-sharing funds, I was shocked 
to see that it was also in the budget that this administration 
put forth.
    I am curious if you can give us some type of explanation as 
to why you think other states should benefit from our offshore 
energy production more so than the state of Louisiana.
    Secretary Zinke. Thank you. And it is not a surprise you 
would ask that question. Senator Cassidy also asked that 
question in the last couple days. But here, as the argument 
lies, is that all states share in the OCS revenue.
    The argument is the increase in activity will benefit the 
great state of Louisiana in ways of jobs, et cetera----
    Mr. Graves. OK. Mr. Secretary, can I actually interrupt you 
right there? Because I want to go back and point to your 
budget, where you talk about the recreational fee program, 
where it says that the recreational fee program, $290 million 
annually, is an important social revenue for land management 
operations, maintenance, and improvements to recreational 
facilities on public lands.
    What I am concerned about is the disparity in treatment in 
Federal lands. Right now, under the Mineral Leasing Act, states 
share 50 percent of the revenues or, in the case of Alaska, 90 
percent of the revenues go back to their states. In the case of 
national parks and other fees, the dollars go back into those 
states. Right now, we are investing more of the OCS revenues 
into conservation in other states than in Louisiana, that has 
lost 1,900 square miles of our coast.
    Mr. Secretary, I just want to ask you. I would like for our 
delegation to have the opportunity to sit with you and talk 
through this and explain this. I know you have been to the 
coast of Louisiana, and I know you share our concerns with the 
erosion and what it is doing to our ecosystem and vulnerability 
to our communities. I just want to ask for a commitment that 
you give us an opportunity to sit and discuss this, and explain 
why we think it is an important reinvestment in revenues into 
the productivity of our ecosystem and the resilience of our 
communities, rather than, again, allowing other states to 
benefit.
    Secretary Zinke. I look forward to working with you on it. 
And I think you would be a magnificent governor in the great 
state of Louisiana. No one represents Louisiana better than 
you. I look forward to your future, but I would be glad to sit 
down with you and work on it.
    Again, this is what a balanced budget would look like. And 
it is a great line of discussion back and forth, and I get the 
GOMESA.
    Mr. Graves. That flattery will get you everywhere. Thank 
you. No, seriously, I appreciate the opportunity to discuss 
this with you, and I know our delegation will, as well.
    A quick question, Mr. Secretary. When you look at the 
portfolio of the Department of the Interior, and you compare it 
to other agencies like Department of Commerce, it is somewhat 
of a head-scratcher sometimes, why fisheries management is in 
Department of Commerce, with other missions that appear 
inconsistent. Do you believe that that would perhaps be better 
aligned with Interior?
    Secretary Zinke. Well, certainly our reorganization looks 
at the problem set before us. And you correctly point out, and 
I gave the example of a salmon and a trout in the same stream, 
and the two departments sometimes are not reconcilable.
    Certainly, a path forward would be to make things more 
joint at the region so the government is on one page, so 
industry can have some clarity and certainty on either 
investment or the activities, as well as the public. The public 
should know that we are efficient. But I think organization and 
a change is necessary.
    Mr. Graves. Mr. Secretary, thank you.
    I yield back.
    The Chairman. Thank you. Graves, from now on I am referring 
to you as Governor.
    Mr. Graves. I am not saying that is a step up, Mr. 
Chairman.
    [Laughter.]
    The Chairman. It is definitely a step down.
    Mr. Graves. He just wants me out of here.
    The Chairman. If you had said Senator, that would have been 
depths of stepping down.
    Mr. Panetta, you are recognized.
    Mr. Panetta. Thank you, Mr. Chairman.
    Mr. Secretary, good afternoon by now, and welcome. I 
appreciate you being here, appreciate your testimony, your 
preparation as well. I also appreciate the fact that you did 
come here and speak with the Minority staff. Unfortunately, 
there were some votes that were going on, our Minority Members 
didn't get a good chance to talk to you. And thank you for your 
willingness to come again. And also, thank you for your 
willingness to have individual conversations with Members.
    As a freshman Member, I appreciate that. The last thing I 
would want to do is bother you with a phone call. And know that 
if I do call you, it is only because there is an emergency, or 
because our letters didn't get responded to. But once again, 
thank you very much.
    I come from the central coast of California. We have the 
Pinnacles National Park there, Fort Ord National Monument, the 
coastal monuments there, as well. I was fortunate enough to 
meet with BLM employees last month, a very dedicated group out 
there. But obviously, they are worried about the lack of 
funding and a lack of resources that they are getting.
    On that note, the Federal hiring freeze, how did that 
affect the DOI?
    Secretary Zinke. The hiring freeze was relaxed, with the 
exception of Washington, DC and Denver, with the exception of 
GS-12 and above, which just requires an exception on there.
    Our priority was to make sure that we shore up the front 
line, first, if there is a qualified candidate within 
Washington, DC or Denver, we were going to fill from that 
first, and then make sure that the hiring itself, we are 
looking at the process of allowing superintendents and those on 
the ground more flexibility to hire locally, which we think is 
an important aspect on that. Some of it is coordination with 
the Office of Personnel.
    You would be surprised or not surprised, how much latitude 
a Secretary has in such matters, but we are looking at 
providing the superintendent more hiring authority to hire 
local, and then shoring up, again, the front line by looking at 
qualified individuals from Washington and Denver, and some of 
our larger regions first, before we go out.
    Mr. Panetta. OK. Great, thanks. You mentioned earlier with 
Representative Hanabusa, you started to talk about public-
private partnerships. You started to get to Yosemite National 
Park. Can you give us some examples of how that could help the 
facilities that you oversee?
    Secretary Zinke. Well, in the case of Yosemite, clearly we 
all want to protect the experience of a park, because the 
culture and experience of going to a park should be a wow, 
right? It should be a five-star. That means that when you get 
there, we should be in the right uniform, the bathrooms are 
clean, and the experience should be the five.
    Part of that is looking at public-private partnership on 
transportation. I don't want to say a bus. I like to say a 
transport. But developing and looking at what that 
transportation means, should look like, it should be an 
enriching experience. People should want to get on the 
transport. If they don't get on the transport and do the park, 
something is going to be missing.
    An example would be the red buses in Glacier Park. Those 
were made in the 1930s, but it has become an iconic feature of 
visiting our park. Zion has a pretty good transportation 
system. But that is where we are looking at public-private 
partnerships. I don't want to run a bus system, but I want to 
get the greatest talent of people in this country that care 
about our parks to design a transport system that, for lack of 
a better term, is the coolest system around so it enriches the 
experience.
    WiFi is another example. In parks, we are the old 
generation. The younger generation appreciates WiFi, and we 
should embrace that to make sure that the park experience going 
down a trail is available on your cell phone: the geology, the 
wildlife, what you are going to see. And, oh, by the way, if 
you see a bear, I mean, there is an app that says ``bear'' that 
goes down to the local superintendent, so he can notate it.
    Mr. Panetta. OK. Got it. Throughout your testimony today, 
you have consistently said this is what a balanced budget looks 
like, in regards to the President's budget. Is this budget, in 
your position--I mean is this the budget you are willing to go 
out there and look your employees in the eye and say, ``This is 
one I support, and this is one that I want for you'' ?
    Secretary Zinke. I support the budget, but I also support 
and realize this is a starting point. And what is important, I 
think, is if nothing else, it has highlighted the Members' 
priorities, which is important to go back to.
    It also highlights our revenue problem, is that we need to 
work together for our revenue. If you have money, then the 
decisions are really easy. But if we keep having to borrow, 
then the decisions became more difficult.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I think Grijalva and I both agree 
we are not crazy about your WiFi idea there.
    Mrs. Radewagen.
    Mrs. Radewagen. Thank you, Mr. Chairman. I want to thank 
the Ranking Member. Mr. Secretary, thank you for appearing 
before the Committee this morning, a Committee that you were 
serving on just last year. You are missed, and it is great to 
see you leading the Interior.
    I want to express my personal appreciation to you for 
inviting me to participate in some of the events surrounding 
the 100th anniversary of the U.S. Virgin Islands Transfer Day. 
I very much appreciate the interest you have shown in the U.S. 
territories, not only as a colleague on this Committee, but 
also since you were confirmed as Secretary.
    Being the most economically challenged state or territory 
in the Nation due to our economic and geographic isolation, 
American Samoa has been the grateful recipient of funding from 
the Department of the Interior to supplement funding for local 
government operations, including the local and only community 
college on the island, the judiciary, the Department of 
Education, and last, but certainly not least, the only hospital 
in the territory, which our veterans cannot even use due to the 
lack of adequate resources.
    Beginning in 1974, the Department of the Interior created 
the American Samoa operations grants account, at which time the 
allocation was $17 million. In 1986, that amount was raised for 
the first and only time to $22.75 million, where it has 
remained since. If you were to use the CPI and adjust for that 
over time, that amount would be approximately $50 million 
today.
    In the Department's budget proposal, it states the 
reasoning behind the lack of any increase is to promote self-
sufficiency on the island, which is all fine and well, except 
for the fact that the Federal Government has imposed unfunded 
mandates and regulations that extremely hamper that effort, 
including the mandatory raising of the minimum wage in American 
Samoa until it meets the Federal minimum standard, a perfect 
example of the Federal Government placing the territory on the 
same economic playing field as the states, which is a somewhat 
irresponsible policy, to say the least, which has done 
tremendous harm to the local economy, and contributed greatly 
to two tuna canneries, which are the lifeblood of our economy, 
leaving the island since 2009.
    Couple that with the closing off of large swaths of the 
Pacific Ocean, which our people have utilized as their 
traditional fishing grounds for centuries, and you can see how 
frustrating it can be to hear that we must become more self-
sufficient.
    This year, that critical funding was reduced by $1.2 
million, which is not much money if you are a state. But it is 
a tremendous amount for our local government to absorb.
    Mr. Secretary, I look forward to having you visit the 
territories. In February, a congressional delegation visited 
the territories led by our Chairman Bishop. While there, the 
CODEL received an eye-opening firsthand account of just how 
many issues we are facing, particularly our hospital which is 
over 50 years old and in such disrepair that our military 
veterans are not able to use it; they, therefore, must be flown 
to Hawaii and put up in a hotel for at least a few days, all on 
the U.S. taxpayer's dime, even for the most minor procedures, 
as flights to and from American Samoa are very limited, which 
happens to be another issue we are trying to fix.
    This does not even take into account the time that our 
veterans must be away from their families for medical 
treatment, any medical treatment whatsoever, treatment they 
have rightfully earned.
    While I understand the need for austerity measures, they 
simply cannot come on the backs of the most economically 
challenged people in our Nation, the people who love this 
Nation so much, as demonstrated by our record rate of 
enlistment into the armed forces.
    Mr. Secretary, we as Republicans are always talking about 
providing a safety net for the less fortunate. This $1.2 
million is part of our safety net. I have been working with 
Chairman Calvert and Senator Murkowski, and should we be 
successful in rescinding the proposed cut, I humbly hope that 
the Department will pose no objections.
    Thank you again, Mr. Secretary. As always, it is a pleasure 
to see you, my friend, and I look forward to continuing to work 
with you.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. And let me too welcome 
the Secretary back to this Committee.
    I noticed that on your first full day of work you chose an 
interesting mode of transportation to go to work. Have you 
ridden your horse to work lately?
    Secretary Zinke. Mr. Chairman, I have.
    Mr. Clay. Oh, you have?
    [Laughter.]
    Secretary Zinke. At least around the mall a couple times.
    Mr. Clay. Very good. I think that for lack of a better 
term, I thought that was cool.
    [Laughter.]
    Mr. Clay. Mr. Secretary, are Federal agencies required to 
consult with tribal nations before they recommend a course of 
action that has the potential to affect their tribal rights and 
interests?
    Secretary Zinke. They are required, it is interesting on 
consultation, talking to tribes. Some of the consultation has 
been a website, rather than personal. Some of the consultation 
has been more notification, rather than consultation. I think 
we need to do a lot of work on what consultation really means, 
and a lot of it is trust, quite frankly, taking the interest.
    And I find myself, as the Department of the Interior, to be 
the champion of all things Indian, and I take that 
responsibility very seriously.
    Mr. Clay. All right. Several tribes, including the Navajo, 
Osage, Oglala, Sioux, Crow, Piikani, and Hopi have indicated 
that the Federal Government, in particular, the Fish and 
Wildlife Service, has abandoned that responsibility in its 
proposed rule to remove ESA protection for grizzly bears in the 
greater Yellowstone ecosystem.
    In a treaty, letters, and resolutions, tribal nations have 
raised concerns over the science being presented by the 
Service, and the irreparable harm of tribal sovereignty, sacred 
site protections, treaty rights, consultation mandates, and 
spiritual and religious freedoms. Can you discuss your plan to 
honor the mandatory pre-decision and meaningful government-to-
government consultation with tribes in this matter?
    Secretary Zinke. I will continue to live up to my 
obligation to do that, I look forward to it. I try to have a 
great relationship with the tribes. Me in Montana with the 
grizzly bears has been an interesting thing to watch. It 
extends beyond the grizzly bear. The buffalo, as well, within 
Yellowstone, making sure we honor cultural and historic rites 
of hunt with that.
    But I look forward to working with the tribes. As a 
Congressman, I represented seven tribes in Montana, and now I 
have a lot more. I know that the tribes in Montana are not 
monolithic. Wait until you get to the tribes across our Nation, 
they are anything but monolithic. Each of the tribes has their 
own expectations, culture, opportunities, and challenges.
    And what I really would like is the Senate to push along my 
BIA Director, I think the tribes are going to be thrilled with 
that. But we need some help on leadership.
    And also the restructure of BIA. I don't think we are doing 
a very good job, and certainly entertaining how to do it 
better, working with Congress, I think is a frank discussion.
    Mr. Clay. Will you commit to consult with affected tribes 
prior to any de-listing announcement?
    Secretary Zinke. I will commit to that. I think it is not 
only a right, it is the law. And it is the right thing to do.
    Mr. Clay. Thank you, Mr. Secretary, for your answers. I 
yield back.
    The Chairman. Thank you. I appreciate that. Mr. Zinke, I 
know that you said you had a 12:30 drop dead date, but you 
committed to stay a few more minutes to see if we can get all 
the questions in.
    Secretary Zinke. Absolutely.
    The Chairman. Is that news to you?
    Secretary Zinke. Absolutely, Mr. Chairman.
    The Chairman. OK. We will try to do that. General, you are 
up next.
    Mr. Bergman. Thanks, Mr. Chairman.
    Secretary Zinke, first, thanks for your leadership style 
and approach to organizational development. It is already 
showing. Also, thank you for your proactive approach in all the 
work you have done in husbanding our Nation's natural 
resources, as both a Member of Congress and now as the 
Secretary.
    My question today deals with an ongoing issue facing my 
district in northern Michigan and the Great Lakes region in 
general: the double-crested cormorant. For those of you who 
don't know, or might not be aware of what a double-crested 
cormorant is, it is a large bird that spends most of its day 
either resting or eating. It will fly low to the water's 
surface, and then dive straight into the water to feed on 
foraged fish, stock trout, salmon, small-mouthed bass, yellow 
perch, and even catfish in some areas.
    By 2009, the cormorant population in Michigan waters alone 
was estimated at 326,000. Cormorants are protected under the 
Migratory Bird Treaty Act, and are currently managed by the 
Fish and Wildlife Service. While states have been given the 
authority to control cormorant populations through a 
depredation order for over a decade, a May 2016 court order 
stopped my state of Michigan, among others, from being able to 
effectively manage this bird population until a new 
environmental assessment can be issued by the Fish and Wildlife 
Service.
    That decision has ultimately led to a degraded situation 
for our fish populations in the Great Lakes. Without a new EA 
to re-establish these depredation orders, the livelihood of our 
recreational and commercial fishing industries is at risk and 
it is directly affecting our local economies.
    Can you share with us where your Department is on this? 
And, more specifically, where the Fish and Wildlife Service is 
on issuing its revised environmental assessment?
    Secretary Zinke. I will look into this. This is the first I 
have heard of this particular issue. And this is why I think, 
quite frankly, a reorganization is important. When it comes to 
the Asian carp, or things that are sensitive to the Great Lakes 
and in that region, sometimes they get lost when they get to 
DC. So, a reorganization based on more watersheds gives more 
authority to the states, gives more authority to the regions 
outside of DC that would be able to, I think, better highlight 
these areas.
    Because I haven't heard of the double-crested before is an 
indicator that it hasn't been followed in DC, which is 
absolutely an indicator on why we should reorganize and push 
more authority to these different ecosystems or JMAs, so they 
can be addressed. We should be working with the states, rather 
than against.
    And, by the way, I think Asian carp should be renamed the 
Asian trout, or the Asian bass.
    Mr. Bergman. Fair enough. And given your answer, I look 
forward to working with you, your staff, at whatever level 
necessary to get quick resolution on this because the problem 
is increasing.
    And last, I would like to say you have indicated that, as a 
Representative from Montana, you represented seven tribes. In 
the 1st district of Michigan, I represent eight. And not that 
we are playing the numbers game here, but the bottom line is we 
know there are a lot of folks who are affected by those 
decisions. I look forward to working with you and your team to 
ensure that all our tribes are recognized and included in the 
decision making at all levels.
    Thank you very much, and I yield back.
    The Chairman. Thank you very much. But you have done a good 
job on the single-crested.
    [Laughter.]
    The Chairman. Ms. Barragan.
    Ms. Barragan. Thank you.
    Mr. Secretary, for the last 50 years, the Land and Water 
Conservation Fund, also known as the LWCF, has been 
instrumental in ensuring that Americans across the country, 
especially those living in underserved urban areas, have access 
to public parks, playgrounds, and green spaces.
    In fact, I have been working with the Urban and Community 
Park Coalition on a bipartisan bill that I introduced a few 
days ago with Congressman Mike Turner. It is H.R. 2943, the 
Outdoor Recreation Legacy Partnership Grant Program, which I 
invite all of my colleagues here to co-sponsor. It creates a 
dedicated source of funding for projects that expand outdoor 
recreational opportunities in cities across the country.
    Urban parks are not only safe and beautiful, but they also 
serve as green engines to help address nearly every critical 
urban need, from health to housing to education and 
environmental justice, and countering sprawl to combat crime. I 
was quite disappointed to see that this budget cuts the LWCF by 
more than 80 percent, and eliminates the Urban Parks and 
Recreation Recovery Grant Program.
    The LWCF stateside assistance grants have created parks, 
playgrounds, and outdoor recreational facilities such as 
basketball courts and skate parks in over 42,000 communities 
across the country. As 80 percent of Americans live in urban 
areas, more funding, not less, is needed to provide these much-
needed outdoor outlets for city residents.
    In your testimony, you noted your goal for the Department 
of the Interior is to continue delivering access and services 
critical to Americans. My question is, would you be able to 
tell me how cutting the LWCF by 80 percent helps you in 
accomplishing this goal, especially when those living in urban 
areas already face barriers in accessing public lands?
    Secretary Zinke. The cuts in the LWCF were for new land 
acquisition. As I am sure you are aware, in the Park Service 
itself we are $11.5 billion behind in maintenance and repair, 
$11.5 billion behind. So, the position is, let's fix what we 
have before we encumber ourselves with more assets.
    On the LWCF, as you know, I have been a strong champion 
over time, and I think it has done some great things. I think 
on the funding side, we need a steady source of funding. In 
review, over the course of time there has been about $20 
billion that have been unused in appropriation.
    And I think that having the LWCF program funds used for 
programs would be beneficial, and also giving the states more 
say. Some states are more urban or more rural than others, but 
giving the latitude of the states to direct those funds to 
issues that they feel important themselves. At one time it was 
60 percent went to the states. It is much less today.
    So, I think Congress has a role to play in making sure that 
the states have more latitude. You, as a Representative, should 
have a say, I think, in where those funds should go in your 
district.
    Ms. Barragan. But if we are cutting funding, how does that 
help the states? Doesn't it just cut the funding? Or are we 
directing the money to the states for them to decide?
    Secretary Zinke. The cut in the funding is for new 
acquisitions, new land acquisitions. It does not cut funding 
for operations, for maintenance. It does not cut funding for 
conservation easements and those type of things.
    Your colleague, Ms. Dingell, had a lot to do, her husband 
had a lot to do with building that structure. If it changes for 
more of a rural or more of an urban taste, then that is the 
legislative decision that Congress will have to make on how to 
direct it.
    But the budget right now simply has a reduction in land 
acquisition because, again, the tact is, let's take care of 
property that we have, rather than buying more property that we 
also have a maintenance liability on.
    Ms. Barragan. So, are you suggesting you believe there are 
already enough green spaces, that we shouldn't invest in more?
    Secretary Zinke. No, I am suggesting the budget reflects 
this. The budget reflects that we should not encumber more 
liability until we maintain what we have. If you want to look 
at maintenance-wise, if you haven't been to Arlington, I would 
suggest taking a look at Arlington. I am also going to do a 
tour on Friday of our regional parks in Washington, DC. Most of 
our parks in DC, which I am responsible for, are not 
maintained.
    The Chairman. Thank you.
    Ms. Cheney.
    Ms. Cheney. Thank you, Mr. Chairman.
    And thank you very much, Secretary Zinke. First of all, 
thank you for sticking around past the time, those of us who 
are on the bottom row here very much appreciate it.
    I also want to thank you for efforts that you have already 
made and steps you have already taken for Wyoming in 
particular. Lifting the moratorium on coal leasing on public 
lands is crucial, and we are very grateful for that.
    I was also very pleased to hear your comments earlier about 
the reform at the BIA. I represent, as you know, two tribes in 
Wyoming, and it is crucially important. So, we are looking 
forward to that.
    I wanted to ask you a bit more about what you are doing in 
terms of the energy permitting. I appreciate the increased 
revenues that are going in, in terms of BLM, for oil and gas 
management and for the coal management program. But I hear just 
about every single day from folks across Wyoming who say, 
``Look, in some instances it has taken years, from getting an 
application for a permit to drill, from submitting that, 
getting the permit, until the project can begin, as long as 8 
or 9 years.'' And you can imagine the economic impact of that 
is just tremendous.
    So, could you talk a little bit more, in addition to the 
energy council you have mentioned, how you are going to go 
about streamlining that process so that we are not facing just 
this unbearable, really, burden of regulation from the BLM?
    Secretary Zinke. I have a couple of approaches. One, in the 
budget, we added more money for permitting on it, because 
again, permitting is related to revenues. And one of my 
principal objectives is to raise revenues so we can afford to 
pay for the programs that this Committee and others and 
Americans support. So, revenue is important.
    The other thing is the process. I have appointed and have 
in position my principal advisor for energy affairs, who is 
specifically looking at the permitting process. The permitting 
process has been very lineal and in sequence. In a permit 
process you can have sequential processes that go forward, 
rather than having 6 months and then it goes to someone else's 
desk for 6 months, and 6 months, and 6 months. We can do it 
simultaneously on the permit process.
    The other thing is if it is in our approved basin, then you 
don't have to view a permit as if it has never been done 
before. If it is in the same geologic structure, and as long as 
there are provisions to make sure the casing is whole, that the 
reclamation plan is there, and best practices are used, you 
don't need to take every permit as if this is the first well we 
have ever drilled.
    So, some of it has been the process has been in place, and 
some of it has been arbitrary. An individual, either willingly 
or not, can hold a permit for, in some cases, one would say 
nefarious reasons. We want to make sure we have the right 
leadership in place, that it is fair. And when you invest in a 
holding of the U.S. Government, at least the process should be 
fair, it should be straightforward. You have a good feeling in 
the first 6 months or 30 days on some of the easier ones, 
whether it is going to be approved to give an investment point 
of view some degree of certainty, and at least a confidence 
that your investment, if it is not going to be improved, maybe 
you should make another investment somewhere.
    But to kick the can down the road on a permit in the same 
basin surrounded by like activities, this is the problem we 
face. And we are going to get to the bottom of the solution.
    Ms. Cheney. Well, I appreciate that very much. I know you 
know how important it is, economically.
    And then just one more question with respect to the BLM. As 
you know, in so many of these areas, the law is management for 
multiple use and sustained yield. And we have seen too often, 
particularly in the last 8 years, that the law has really been 
ignored. And there has been management, really, to preclude all 
human use of these lands.
    How are you going to go about changing the approach, 
changing the philosophy? Obviously, getting a BLM Director is 
going to be crucial, and we are very anxious to see that 
happen. But could you talk a little bit about how you are going 
to go back to ensuring that congressional intent, as indicated 
in the law, is followed?
    Secretary Zinke. Some of it is leadership. And some of it 
is, you are right, adhering not to the law but a philosophy 
that parks and public lands should be for the use, benefit, and 
enjoyment of the people.
    And I think, to a degree, the reorganization has 
opportunity for both sides of the aisle, because connection to 
corridors, wildlife corridors, and watersheds is important. So, 
a holistic approach, to make sure we manage better, is where we 
should go.
    Thank you, Mr. Chairman.
    Ms. Cheney. Thank you.
    The Chairman. Thank you very much. I appreciate your 
willingness to stay to the end of this. Gohmert left some M&Ms, 
if you need lunch.
    Secretary Zinke. I will sacrifice lunch for the convenience 
of----
    The Chairman. The last few questions, he has 10 minutes. 
You have a legal right for five. Be brief.
    Mr. Gallego.
    Mr. Gallego. Mr. Secretary, when you were testifying before 
the House Appropriations Committee a few weeks ago you stated, 
``I don't favor oil and gas over coal, over wind, over nuclear. 
I am just all of the above.'' Do you stand by that?
    Secretary Zinke. I absolutely do. I stand by that, the 
President's position is an all-of-the-above energy policy, and 
I support that.
    Mr. Gallego. Excellent. And for the sake of a time limit, 
let me just continue.
    Your budget, however, does not reflect that. Only two 
agencies in your Department have seen an increase, and both 
deal with only offshore oil and gas. One of them, the Bureau of 
Ocean Energy Management, also issues offshore renewable energy 
leases, but while the overall funding for that agency would go 
up, the renewable energy program would be cut by more than 10 
percent.
    We are just starting to see some windmills in the water, 
and you are proposing a stop to that momentum, when it comes, 
in its tracks. And it is not just me saying this. The agency's 
budget justification admits that these cuts would have a 
significantly harmful impact. The agency itself states that 
these cuts would, ``Slow the advancement of offshore renewable 
energy commercial leasing activities on both the Pacific and 
Atlantic coasts. This reduction will result in the loss of 
opportunity to add millions of dollars to the U.S. Treasury 
annually, to the collection of additional bonuses, bids, and 
future rents.''
    So, do you understand why we see this dichotomy, when you 
are saying that you have an all-of-the-above approach to energy 
production, but it is not necessarily reflective in the budget?
    Secretary Zinke. Well, in regards to when the budget 
matches the anticipated demand, and also, a group of people 
whose voices have not been heard, in my judgment, are the 
fishermen. I just got back from the great state of 
Massachusetts, and their concern is that some of the design of 
these systems would preclude fishing. And the President 
believes that jobs are important, and certainly the fishing 
industry is important, the vitality and the future of this 
country.
    I think to look at some of these projects, to make sure 
they do not interfere with fishing, and the fishermen have 
their voice is important.
    Mr. Gallego. Well, I thank you, Secretary. I think one of 
our concerns, again, is to keep true to at least the words of 
President Trump, as well as yours, an all-of-the-above approach 
to energy production should be continued and should be 
reflected in the budget, whether or not fishermen or any other 
concerns are involved. Thank you.
    The Chairman. Do you yield back?
    Mr. Gallego. I yield back.
    The Chairman. Mr. Johnson.
    Mr. Johnson. Thank you. I will be very brief.
    Mr. Secretary, thank you so much for your long record of 
service to our country, for accepting this challenging new 
position. I will cut this short.
    I heard you say earlier that you were more than willing to 
meet with this Committee's members quarterly, and even in 
person to talk about their concerns. Isn't that right?
    Secretary Zinke. That is correct.
    Mr. Johnson. I also understand that you inherited, from the 
previous administration, numerous unanswered Committee 
requests.
    So, just to be clear, will you commit that your Department 
will provide written responses to this Committee's official 
request for documents and information, in addition to the 
meetings you have already offered?
    Secretary Zinke. Where appropriate. But it is interesting. 
When I assumed the job, I found a piece of correspondence from 
me, as a Congressman, that was there for months and months and 
months. I felt not to answer it, I didn't have to.
    But my commitment is that on some issues it is better to go 
face to face, rather than having staff-to-staff discussions. 
The intent is to be transparent, be responsive, and to respect 
that you are a Congressman and you represent your great 
district, and I want to be responsive to not only you, but your 
constituents.
    Mr. Johnson. Thanks for clarifying that again. I am 
particularly grateful for your emphasis on streamlining and 
reorganizing your vast Department, and I just had a quick 
question about an idea that you raised recently about 
consolidating two departments within your immediate control.
    You expressed a desire to consolidate the Bureau of Safety 
and Environmental Enforcement, and the Bureau of Ocean Energy 
Management, to merge those two agencies back together, 
reorganize them in some fashion, so that we can maximize 
efficiencies. Can you just briefly explain why you think that 
would be important?
    Secretary Zinke. Well, it was the result of, of course, the 
tragic oil spill out in the Gulf. And we are looking at it. A 
decision has not been made.
    Whenever you do a reorganization of that size, you want to 
make sure you look at unintended consequences. From the 
industry side, the two agencies have gotten further and further 
apart. Relationships have gotten less and less than there was 
historically, when they were together. So, we are looking at 
how to do it, and unintended consequences, to make sure we hold 
accountable the industry, but also do it in a way that we are a 
partner.
    Some of it is, quite frankly, innovation. The government is 
behind on its ability to look at innovation and regulate 
innovation. In some cases, we are the problem. So, we have to 
have some flexibility and best practices in order to make sure 
that we are in a best position not to inhibit some of the 
technology that is better, safer, more environmentally 
responsive. That is the challenge.
    Mr. Johnson. Out of respect to my colleagues, I will waive 
the rest of my time.
    The Chairman. This is unfair, I know, but Miss Gonzalez, 
Mr. Hice, 2 minutes each, if you can do that, just for the 
Secretary. Jenniffer, go. Two minutes.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman. Thank you, 
Secretary, for being here, for your time. I want to thank you 
also for the numerous contributions the Department of the 
Interior is making in Puerto Rico. And, actually, one of them 
is the preservation of the territory's iconic national parks, 
and the protection of our endangered species like the Puerto 
Rican parrot.
    I just have one question, and it is relative to the 
National Institute for Water Resources. I know the current 
budget has a proposal to eliminate the program. How can we 
continue the initiative of managing the water quality, soil 
erosion control, and flooding in the Department of the Interior 
with relation to other universities, if we are eliminating that 
program?
    Do we have any other options? Are we looking to have any 
kind of a partnership or other initiatives that we can work on?
    Secretary Zinke. Yes. And I think by bringing it up, it is 
important. And I promise to work with you on it, because Puerto 
Rico is important to the Department of the Interior, and you 
have some magnificent holdings. We will work with you on it. 
The USGS has some parallel programs, but I will work with you 
on it, and be glad to.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Hice.
    Dr. Hice. Thank you, Mr. Chairman.
    Great to have you back, Secretary. We miss you, but we are 
glad you are where you are.
    As you know, the President has asked for an all-hands-on-
deck approach to offshore research and development. And, of 
course, you signed an order in May directing the Interior to 
look at the Gulf of Mexico region for potential drilling sites.
    At the same time, Mr. Chairman, I do have a letter that I 
would ask unanimous consent to be added to the record here, the 
Under Secretary of Defense for Personnel and Readiness has 
written a letter stating, in essence, that military training 
and related exercise in the Gulf necessitates a continuation of 
Congress' ban.

    [The information follows:]

Rep. Hice Submission

         Office of the Under Secretary of Defense  
                              4000 Defense Pentagon
                                  Washington, DC 20301-4000

                                                     April 26, 2017

The Honorable Matt Gaetz
U.S. House of Representatives
Washington, DC 20515

    Dear Representative Gaetz:

    Thank you for your letter dated March 24, 2017, regarding 
maintaining the moratorium on oil and gas activities in the Gulf of 
Mexico beyond 2022. Since military readiness falls under my purview, I 
have been asked to respond to your letter on behalf of the Secretary of 
Defense. The Department of Defense (DoD) cannot overstate the vital 
importance of maintaining this moratorium.

    National security and energy security are inextricably linked and 
the DoD fully supports the development of our nation's domestic energy 
resources in a manner that is compatible with military testing, 
training, and operations. As mentioned in your letter, the complex of 
eastern Gulf of Mexico operating areas and warning areas provides 
critical opportunities for advanced weapons testing and joint training 
exercises. The moratorium on oil and gas ``leasing, pre-leasing, and 
other related activities'' ensures that these vital military readiness 
activities may be conducted without interference and is critical to 
their continuation. Emerging technologies such as hypersonics, 
autonomous systems, and advanced sub-surface systems will require 
enlarged testing and training footprints, and increased DoD reliance on 
the Gulf of Mexico Energy Security Act's moratorium beyond 2022. The 
moratorium is essential for developing and sustaining our nation's 
future combat capabilities.

    Since signing the 1983 ``Memorandum of Agreement Between the 
Department of Defense and the Department of the Interior on Mutual 
Concerns on the Outer Continental Shelf,'' the two departments have 
worked cooperatively to ensure offshore resource development is 
compatible with military readiness activities. During recent 
discussions between the DoD and the Department of the Interior' s 
Bureau of Ocean Energy Management, a question arose concerning whether 
Congress intended the moratorium to prohibit even geological and 
geophysical survey activities in the eastern Gulf. We would welcome 
clarification from Congress concerning this matter.

    On behalf of the Secretary, I appreciate your interest in 
sustaining our testing and training activities in the eastern Gulf of 
Mexico.

            Sincerely,

                                                A.M. Kurta,
                    Performing the Duties of the Under Secretary of
                                Defense for Personnel and Readiness

                                 ______
                                 

    Dr. Hice. So, my question, and no one knows this any better 
than you, as a Navy SEAL commander. You have a great 
understanding, both of the military and of the Interior. The 
question is, how do you reconcile these two? Can the two co-
exist?
    Secretary Zinke. Well, you are right. As a veteran, I am 
extraordinarily sensitive to the responsibility of the 
Department of Defense, in making sure the Interior, that came 
from the Department of War, does not do anything to jeopardize 
our military.
    I think some of it, too, is the advance of technology, the 
ability to horizontal drill, and to look at the specific 
requirements that are involved with the military, and seeing if 
there is a path forward or not. But I think it involves, from 
us, getting the leading experts on how we drill. Some of it is 
subsurface now. As you know, the technology is moving forward.
    So, I think looking at what is out there. What we think the 
technology will be today, in 5 years, in 10 years, is it 
compatible with military operations or not? I think that is an 
ongoing discussion. But, certainly, we are going to honor the 
Department of Defense position, but work together with them if, 
in fact, that is the right choice.
    Dr. Hice. My time is gone, thank you.
    The Chairman. Thank you very much.
    Mr. Grijalva, do you have a UC?
    Mr. Grijalva. A unanimous consent request, a legal opinion 
by the legal counsel of the Justice Department relative to 
Members of Congress to conduct oversight of the executive 
branch, with no objection.
    The Chairman. It is in the record.
    Mr. Grijalva. Thank you.
    The Chairman. All right, Mr. Secretary, thank you for being 
here.
    To our Members who sat here a long time and at the very end 
we had to cut you short, I apologize for that.
    I appreciate you spending more time than you should have 
with us.
    Mr. Grijalva. Thank you very much.
    The Chairman. We will make it up some time with you. I have 
no idea how, but----
    [Laughter.]
    The Chairman. I appreciate your candor, I appreciate you 
being back with us again. Thank you for spending your time.
    Secretary Zinke. It is a pleasure to be with you, sir. It 
is a pleasure to be with your august Committee.
    The Chairman. Take care. We are adjourned.

    [Whereupon, at 12:57 p.m., the Committee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Grijalva Submission

    --Authority of Individual Members of Congress to Conduct 
            Oversight of the Executive Branch, by Curtis E. 
            Gannon, Acting Assistant Attorney General, Office 
            of Legal Counsel, from the Opinions of the Office 
            of Legal Counsel in Volume 41.

Rep. Pearce Submission

    --List of Organization and Government Endorsements who 
            opposed the designation of the Organ Mountains-
            Desert Peaks National Monument.

                                 <all>
</pre></body></html>
